<html>
<title> - REALIZING NASA'S POTENTIAL: PROGRAMMATIC CHALLENGES IN THE 21ST CENTURY</title>
<body><pre>[Senate Hearing 112-506]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-506
 
REALIZING NASA'S POTENTIAL: PROGRAMMATIC CHALLENGES IN THE 21ST CENTURY 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

75-607 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
FRANK R. LAUTENBERG, New Jersey      JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             ROY BLUNT, Missouri
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
MARK WARNER, Virginia                PATRICK J. TOOMEY, Pennsylvania
MARK BEGICH, Alaska                  MARCO RUBIO, Florida
                                     KELLY AYOTTE, New Hampshire
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 15, 2011...................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Hutchison...................................     1
Statement of Senator Boozman.....................................     3
Statement of Senator Rubio.......................................    29

                               Witnesses

Hon. Charles F. Bolden, Jr., Administrator, National Aeronautics 
  and Space Administration, prepared statement...................     5
Dr. Woodrow Whitlow, Jr., Associate Administrator, Mission 
  Support Directorate, NASA......................................    22
Douglas R. Cooke, Associate Administrator, Exploration Systems 
  Mission Directorate, NASA......................................    23
William Gerstenmaier, Associate Administrator, Space Operations 
  Directorate, NASA..............................................    24
Dr. Edward J. Weiler, Associate Administrator, Science Mission 
  Directorate, NASA..............................................    45
Leland D. Melvin, Associate Administrator, Education, NASA.......    48
Dr. Jaiwon Shin, Associate Administrator, Aeronautics Research 
  Mission Directorate, NASA......................................    48

                                Appendix

Hon. John D. Rockefeller IV, U.S. Senator from West Virginia, 
  prepared statement.............................................    59
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to NASA Associate Administrators................    60
Response to written questions submitted by Hon. Kay Bailey 
  Hutchison to:
    Douglas R. Cooke.............................................    63
    William Gerstenmaier.........................................    67
    Leland D. Melvin.............................................    68
    Edward J. Weiler.............................................    70
    Woodrow Whitlow, Jr..........................................    71
Response to written questions submitted to NASA Associate 
  Administrators by:
    Hon. Bill Nelson.............................................    71
    Hon. Mark Warner.............................................    73
Response to written questions submitted by Hon. John Boozman to:
    Douglas R. Cooke.............................................    76
    William Gerstenmaier.........................................    77
    Leland D. Melvin.............................................    78
    Dr. Jaiwon Shin..............................................    79
Article dated May 24, 2011 entitled, ``NASA Administrator Selects 
  Orion-based Design for MPCV Development Phase''................    80


                      REALIZING NASA'S POTENTIAL:
                     PROGRAMMATIC CHALLENGES IN THE
                              21ST CENTURY

                              ----------                              


                        TUESDAY, MARCH 15, 2011

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good afternoon. The meeting will come to 
order.
    I'm going to dispense with an opening statement, and I want 
to call on Senator Hutchison to make a statement.
    I do want to say that Doug Cooke has led NASA's exploration 
initiatives for over 2 years, and he is going to retire. And 
this is going to be a significant loss. Your dedication 
throughout your distinguished career of over 37 years has been 
very evident in the roles that you have had, from defining the 
Space Shuttle entry flight-test program, advising the Columbia 
Accident Investigation Board, serving as deputy manager of the 
International Space Station, and, most recently, the role that 
you have now as Associate Administrator of the Exploration 
Systems Mission Directorate. And I want you to know how much we 
are appreciative of the extraordinary service that you've 
given, upwards of four decades, to your country and to 
America's space program.
    So, Mr. Cooke, we'll miss you, but I'm sure we'll continue 
to see you. And we will continue to seek your advice and 
counsel.
    Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I appreciate 
very much all of the work that you do, collectively.
    I have been working with the Chairman, now, for the last 
couple of years to have a plan for NASA, going forward, that we 
believe protects NASA's mission and is a balanced program that 
invests in the commercial sector, but has an emphasis on the 
NASA mission being accomplished, and being sure that it will be 
accomplished.
    I am pretty critical--and the Chairman has been, as well--
of the last 2 years' budget requests from the administration. 
Part of the concern is that there is a sudden change in 
direction, and there is concern that the senior leadership of 
the agency remains uncommitted to the full, faithful, and 
timely implementation of the law that we worked very hard to 
pass last year when we saw the budget submission from 2 years 
ago--well, from, actually, the beginning of this year. It--no, 
the beginning of last year, I guess. It is the law and it isn't 
an advisory framework.
    When we wrote the NASA Reauthorization Act of 2010, this 
committee provided a balanced portfolio for NASA, with robust 
investment in science, research and development activities, and 
the continuation of human spaceflight and exploration 
development. The law prioritizes the continuation of work on 
the Orion crew exploration vehicle and redirects the agency's 
efforts to develop a heavy launch vehicle to carry Orion beyond 
low-Earth orbit.
    To meet these requirements, we directed the Administrator 
to use as much existing technology as possible from the Shuttle 
and Constellation programs to shorten the development timeline, 
reduce costs, and maximize the use of taxpayer funds that have 
already been dedicated to our human spaceflight program. In 
carrying out that effort, the Administrator is directed to 
modify and extend existing contracts for the relevant 
technology to get started quickly, and to prevent the loss of 
critical skills and infrastructure.
    Yet, 5 months have passed since the law's passage and we're 
still waiting for signs that the agency will comply with these 
directions. To my knowledge, not one major contract has been 
modified in furtherance of the requirements of the law that was 
passed by Congress and signed by the President. In fact, Mr. 
Chairman, a final report was due from NASA, 2 months ago, 
outlining its plans for the capsule and the heavy-lift vehicle, 
including related contract modification determinations. What we 
received was a preliminary report lacking much of the 
information required by the law. And now, 2 months later, we're 
still waiting for compliance with even this modest reporting 
requirement.
    With these requirements still unresolved, we now must 
consider the President's FY 2012 budget request. Once again, 
the request appears to ignore many of the priorities that the 
law has established for human spaceflight. Specifically, the 
request reduces the funding for the Orion capsule and the 
heavy-lift vehicle by more than $1.3 billion below what we 
authorized for FY 12. At the same time, the request proposes a 
significant increase to the very same areas prioritized in the 
administration's last budget request, which Congress rejected.
    The NASA Reauthorization Act was designed to promote 
investment in commercial crew capabilities while prioritizing 
the rapid development of a national launch system to resume 
exploration. This will allow us to develop an important backup 
capability along the way to fully develop a launch system for 
exploration, and it assures access to low-Earth orbit from a 
domestic source, should a commercial crew provider fail to 
provide reliable and safe capability.
    The fact that this budget request that is before us today 
dramatically reduces funding for the heavy-lift launch vehicle 
and Orion capsule while proposing a 70-percent increase for 
commercial crew is another illustration that the administration 
is not taking the steps necessary to embrace the priorities we 
established, and implement the law.
    I have similar concerns with the budget request provisions 
related to space technology. Last year, we rejected the notion 
that we would invest in technology for the sake of doing so. We 
determined that we would not support investment in 
undisciplined research that was not closely tied to a specific 
mission. Yet, the budget request would transfer significant 
funding from exploration technology development, which is 
mission-specific, critical, and defined, to the general space 
technology line that has much less discipline. Taken together, 
the commercial crew funding and space technology proposals in 
this budget request bear an unmistakable resemblance to last 
year's budget request. The outline the President put forward 
was rejected, but now it seems to be coming back in another 
form.
    Mr. Chairman, I don't want to see another year pass, where 
we don't have the focus that Congress passed and the President 
signed. So, I do hope that you can help us see that perhaps 
we're mistaken, that perhaps you are not going back to focusing 
just on the commercial side and leaving our basic NASA missions 
without the priority that Congress has put on the agency. We're 
here to make sure that NASA is strong and that America's place 
in the world, in space exploration, is preeminent. That is our 
goal. I think it's our common goal, but I don't think that we 
are in sync on how we get there.
    Thank you, Mr. Chairman.
    Senator Nelson. Senator, you're exactly right, that January 
report was entirely inadequate.
    The Senator from Arkansas is the new Ranking Member on 
Science and Space Subcommittee.
    I want to welcome you. Did you want to have any opening 
comments?
    Senator Boozman. Yes, sir, if it's appropriate.
    Senator Nelson. OK. If you can truncate it, and then we'll 
get right on in. But, please.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman. I'm pleased to be 
serving as the Ranking Member of the Science and Space 
Subcommittee. I look forward to working with you, Chairman 
Nelson and Chairman Rockefeller and our full-committee Ranking 
Member, Senator Hutchison.
    I want to welcome the witnesses. Certainly, you all are so 
accomplished. You represent thousands of NASA professionals 
across the country who are working hard and innovating, every 
day. And we certainly look forward to your testimony.
    Last year, Congress received a budget request for NASA that 
started a lengthy conversation among Members of Congress, the 
administration, and many stakeholders. At the end of this 
process, Congress overwhelmingly passed a bill, with more than 
400 votes between the two chambers, and the President signed it 
last fall.
    The new law provides a balanced set of activities for NASA 
to utilize the world-class skills and expertise of its work 
force. This includes significant investment in science, 
technology development, and the continuation of our human 
spaceflight activities, including the use of the International 
Space Station, which is now complete. The law also redirects 
activities related to our exploration program, where we have 
had challenges for a long time in developing a follow-on to the 
Space Shuttle.
    I believe we need to bear in mind a few points as we 
consider the President's budget request for Fiscal Year 2012.
    First, we should take a closer look at areas where the 
administration proposes significant deviations from the law. 
There's not been a significant passage of time between the 
passage of the law and the current request. The administration 
needs to, therefore, justify deviations from what Congress 
directed. Simple differences of opinion on policy are not 
enough. We must understand why the administration now proposes 
that we reprioritize funding to items like commercial crew 
transportation and space technology and away from the rocket 
and capsule that will allow us to resume the Nation's legacy as 
explorers.
    Congress made many of these choices and decisions last 
year. We need to know what has changed in the last 5 months to 
prompt the budget request's alternative focus, counter to the 
clear direction of the new law.
    Second, if NASA's budget will be reduced, like many other 
agencies, we need to fully analyze opportunities to limit 
overlap or duplication with other agencies to reduce some of 
these expenditures.
    Third, we must carefully consider our investment priorities 
for NASA and how those affect our national defense and economic 
security needs.
    America's preeminence in space is more than a source of 
national pride. It is a source of strategic advantage. We need 
to ensure that our investment preserves our intellectual and 
physical infrastructure, at a time where other nations, 
including China, are investing heavily to close the gap with 
us.
    Finally, the programs at NASA must be executable and 
sustainable. NASA's history is rich with major breakthroughs 
and breathtaking achievements. The recent history, however, is 
also rich with examples of cost overruns, development delays, 
and poor technical choices. We no longer have the luxury of 
spending money on ships that never fly and satellites that 
never reach orbit. NASA must change some of its practices with 
respect to contracting and procurement. Its programs must focus 
on accomplishments that directly advance current mission 
objectives. Focused research and development is a key to 
operating in a constrained budget environment.
    And with that, I yield back.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator.
    OK. We've got all the Associate Administrators of NASA 
here. We want to get right into the nuts and bolts of what the 
budget should be for this agency, given the environment.
    [The prepared statement of the Administrator follows:]

   Prepared Statement of Hon. Charles F. Bolden, Jr., Administrator, 
             National Aeronautics and Space Administration
    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to submit this statement for the record as part of the 
Committee's hearing today entitled Realizing NASA's Potential: 
Programmatic Challenges in the 21st Century. I want to thank you and 
all the Members of the Committee for the longstanding support that you 
have given to NASA. These are exciting and dynamic times for NASA. The 
challenges ahead are significant, but so are the opportunities we have 
to achieve big things that will create a measurable impact on our 
economy, our world, and our way of life.
    The President's FY 2012 budget request of $18.7 billion for NASA 
continues the Agency's focus on a reinvigorated path of innovation and 
technological discovery leading to an array of challenging destinations 
and missions that increases our knowledge, develop technologies to 
improve life, to expand our presence in space for knowledge and 
commerce, and that will engage the public. With the President's signing 
of the NASA Authorization Act of 2010 (P.L. 111-267) on October 11, 
2010, NASA has a clear direction and is moving forward. NASA 
appreciates the significant effort that advanced this important 
bipartisan legislation, particularly efforts by the leadership and 
Members of this Committee. This is a time of opportunity for NASA to 
shape a promising future for the Nation's space program.
    Because these are tough fiscal times, tough choices had to be made. 
But the proposed FY 2012 budget funds all major elements of the 
Authorization Act, supporting a diverse portfolio of programs, while 
making difficult choices to fund key priorities and reduce other areas 
in order to invest in the future. A chart summarizing the President's 
FY 2012 budget request for NASA is enclosed as Enclosure 1.
    We have an incredible balance of human space flight, science, 
aeronautics and technology development. Within the human space flight 
arena, our foremost priority is our current human spaceflight 
endeavor--the International Space Station--and the safety and viability 
of the astronauts aboard it. The request also maintains a strong 
commitment to human spaceflight beyond low Earth orbit. It establishes 
critical priorities and invests in the technologies and excellent 
science, aeronautics research, and education programs that will help us 
win the future. The request supports an aggressive launch rate over the 
next two years with about 40 U.S. and international missions to the 
ISS, for science, and to support other agencies.
    At its core, NASA's mission remains fundamentally the same as it 
always has been and supports our new vision: ``To reach for new heights 
and reveal the unknown so that what we do and learn will benefit all 
humankind.'' This statement is from the new multi-year 2011 NASA 
Strategic Plan accompanying the FY 2012 budget request, which all of 
NASA's Mission Directorates, Mission Support Offices and Centers helped 
to develop, and encapsulates in broad terms the very reason for NASA's 
existence and everything that the American public expects from its 
space program. Just last week, we completed the Space Shuttle 
Discovery's STS-133 mission, one of the final three shuttle flights to 
the International Space Station. Discovery delivered a robotic 
crewmember, Robonaut-2 (R2), and supplies that will support the 
station's scientific research and technology demonstrations. We 
recently made some preliminary announcements about program offices to 
carry out our future work. And we plan to release three additional 
high-priority solicitations spanning Space Technology's strategic 
investment areas. NASA brings good jobs and bolsters the economy in 
communities across the Nation. Our space program continues to venture 
in ways that will have long-term benefits, and there are many more 
milestones in the very near term.
    Our human spaceflight priorities in the FY 2012 budget request are 
to:

  <bullet> safely fly the last Space Shuttle flights this year and 
        maintain safe access for humans to low-Earth orbit as we fully 
        utilize the International Space Station;

  <bullet> facilitate safe, reliable, and cost-effective U.S.-provided 
        commercial access to low-Earth orbit first for cargo and then 
        for crew as quickly as possible;

  <bullet> begin to lay the ground work for expanding human presence 
        into deep space--the Moon, asteroids, eventually Mars--through 
        development of a powerful heavy-lift rocket and multi-purpose 
        crew capsule; and

  <bullet> pursue technology development that is needed to carry humans 
        farther into the solar system. Taken together, these human 
        spaceflight initiatives will enable America to retain its 
        position as a leader in space exploration for generations to 
        come.

    At the same time, we will extend our reach with robots and 
scientific observatories to expand our knowledge of the universe beyond 
our own planet. We will continue the vital work to expand our abilities 
to observe our planet Earth and make that data available for decision 
makers. We will also continue our groundbreaking research into the next 
generation of aviation technologies. Finally, we will make the most of 
all of NASA's technological breakthroughs to improve life here at home.
    With the FY 2012 budget, NASA will carry out research, technology 
and innovation programs that support long-term job growth and economic 
competitiveness and build upon our Nation's position as a technology 
leader. We will educate the next generation of technology leaders 
through vital programs in science, technology, engineering, and 
mathematics education. And we will build the future through those 
investments in American industry to create a new job-producing engine 
for the U.S. economy.
    This year we honor the legacy of President John F. Kennedy, who 50 
years ago, set the United States on a path that resulted in a national 
effort to produce an unprecedented achievement. Now, we step forward 
along a similar path, engaged in a wide range of activities in human 
spaceflight, technology development, science, and aeronautics--a path 
characterized by engagement of an expanded commercial space sector and 
technology development to mature the capabilities required by 
increasingly challenging missions designed to make discoveries and 
reach new destinations.
    NASA's Science Mission Directorate (SMD) continues to rewrite 
textbooks and make headlines around the world. Across disciplines and 
geographic regions worldwide, NASA aims to achieve a deep scientific 
understanding of Earth, other planets and solar system bodies, our star 
system in its entirety, and the universe beyond. The Agency is laying 
the foundation for the robotic and human expeditions of the future 
while meeting today's needs for scientific information to address 
national concerns about global change, space weather, and education.

  <bullet> The Mars Science Laboratory will launch later this year and 
        arrive at Mars in August 2012. It will be the largest rover 
        ever to reach the Red Planet and will search for evidence of 
        both past and present life.

  <bullet> The Nuclear Spectroscopic Telescope Array (NuSTAR) mission 
        will launch in early 2012 and become the first focusing hard X-
        ray telescope to orbit Earth.

  <bullet> Research and Analysis programs will use data from an array 
        of sources, including spacecraft, sounding rockets, balloons, 
        and payloads on the ISS. We will continue to evaluate the vast 
        amounts of data we receive from dozens of ongoing missions 
        supported by this budget.

  <bullet> A continued focus on Earth Science sees us continuing 
        development of the Orbiting Carbon Observatory-2 (OCO-2) for 
        launch in 2013 and other initiatives to collect data about our 
        home planet across the spectrum.

  <bullet> The budget reflects the scientific priorities for 
        astrophysics as expressed in the recent Decadal Survey of the 
        National Academy of Sciences. The budget supports small-, 
        medium-, and large-scale activities recommended by the Decadal 
        Survey.

  <bullet> The Radiation Belt Storm Probe mission will launch next 
        year, and development of other smaller missions and instruments 
        to study the Sun will get underway here on the ground.

    With the appointment of a new Chief Scientist NASA will pursue an 
integrated, strategic approach to its scientific work across Mission 
Directorates and programs.
    As we continue our work to consolidate the Exploration Systems and 
Space Operations Mission Directorates (ESMD and SOMD), both groups will 
support our current human spaceflight programs and continue work on 
technologies to expand our future capabilities.

  <bullet> We will fly out the Space Shuttle in 2011, including STS-135 
        if funds are available, and then proceed with the disposition 
        of most Space Shuttle assets after the retirement of the fleet. 
        The Shuttle program accomplished many outstanding things for 
        this Nation, and in 2012 we look forward to moving our retired 
        Orbiters to museums and science centers across the country to 
        inspire the next generation of explorers.

  <bullet> Completing assembly of the U.S. segment of the ISS will be 
        the crowning achievement of the Space Shuttle's nearly 30-year 
        history. The ISS will serve as a fully functional and 
        permanently crewed research laboratory and technology testbed, 
        providing a critical stepping stone for exploration and future 
        international cooperation, as well as an invaluable National 
        Laboratory for non-NASA and nongovernmental users. During FY 
        2011, NASA will award a cooperative agreement to an independent 
        non-profit organization (NPO) with responsibility to further 
        develop national uses of the ISS. The NPO will oversee all ISS 
        research involving organizations other than NASA, and transfer 
        current NASA biological and physical research to the NPO in 
        future years.

  <bullet> In 2012, we will make progress in developing a new Space 
        Launch System (SLS), a heavy-lift rocket that will be the first 
        step on our eventual journeys to destinations beyond LEO.

  <bullet> We will continue work on a Multi Purpose Crew Vehicle (MPCV) 
        that will build on the human safety features, designs, and 
        systems of the Orion Crew Exploration Vehicle. As with the SLS, 
        acquisition strategy decisions will be finalized by this 
        summer.

  <bullet> NASA will continue to expand commercial access to space and 
        work with our partners to achieve milestones in the Commercial 
        Orbital Transportation Services (COTS) Program, the Commercial 
        Resupply Services (CRS) effort, and an expanded Commercial Crew 
        Development (CCDev) program. As we direct resources toward 
        developing these capabilities, we not only create multiple 
        means for accessing LEO, we also facilitate commercial uses of 
        space, help lower costs, and spark an engine for long-term job 
        growth. While the request is above the authorized level for 
        2012, NASA believes the amount is critical, combined with 
        significant corporate investments, to ensure that we will have 
        one or more companies that can transport American astronauts to 
        the ISS. With retirement of the Space Shuttle in 2011, this is 
        a top Agency priority.

  <bullet> Most importantly, NASA recognizes that these programmatic 
        changes will continue to personally affect thousands of NASA 
        civil servants and contractors who have worked countless hours, 
        often under difficult circumstances, to make our human 
        spaceflight, science, and aeronautics programs and projects 
        successful. I commend the investment that these dedicated 
        Americans have made and will continue to make in our Nation's 
        space and aeronautics programs. These are tremendously exciting 
        and dynamic times for the U.S. space program. NASA will strive 
        to utilize our workforce in a manner that will ensure that the 
        Nation maintains NASA's greatest asset--the skilled civil 
        servants and contractors--while working to increase the 
        efficiency and cost-effectiveness in all of its operations.

  <bullet> The 21st Century Space Launch Complex program will focus on 
        upgrades to the Florida launch range, expanding capabilities to 
        support SLS, MPCV, commercial cargo/launch services providers, 
        and transforming KSC into a modern facility that benefits all 
        range users. The program will re-plan its activities based on 
        available FY 2011 funding to align with 2010 NASA 
        Authorization's focus areas, including cross organizational 
        coordination between 21stCSLC, Launch Services, and Commercial 
        Crew activities.

    NASA's Aeronautics Research Mission Directorate (ARMD) continues to 
improve the safety, efficiency and environmental friendliness of air 
travel.

  <bullet> Our work continues to address the challenge of meeting the 
        growing technology and capacity needs of the Next Generation 
        air travel system, or ``NextGen,'' in coordination with the FAA 
        and other stakeholders in airspace efficiency.

  <bullet> NASA's work on green aviation technologies that improve fuel 
        efficiency and reduce noise continues apace.

  <bullet> We also continue to work with industry to develop the 
        concepts and technologies for the aircraft of tomorrow. The 
        Agency's fundamental and integrated systems research and 
        testing will continue to generate improvements and economic 
        impacts felt by the general flying public as well as the 
        aeronautics community.

    The establishment last year of the Office of the Chief Technologist 
(OCT) enabled NASA to begin moving toward the technological 
breakthroughs needed to meet our Nation's space exploration goals, 
while building our Nation's global economic competitiveness through the 
creation of new products and services, new business and industries, and 
high-quality, sustainable jobs. By investing in high payoff, disruptive 
technology that industry cannot tackle today, NASA matures the 
technology required for our future missions in science and exploration 
while improving the capabilities and lowering the cost of other 
government agencies and commercial activities.

  <bullet> In OCT's cross-cutting role, NASA recently developed draft 
        space technology roadmaps, which define pathways to advance the 
        Nation's capabilities in space and establish a foundation for 
        the Agency's future investments in technology and innovation. 
        NASA is working collaboratively with the National Research 
        Council (NRC) to refine these roadmaps. The final product will 
        establish a mechanism for prioritizing NASA's technology 
        investments, and will support the initial Space Technology 
        Policy Congress requested in the NASA Authorization Act.

  <bullet> As leader of the Space Technology Program, OCT will sponsor 
        a portfolio of both competitive and strategically-guided 
        technology investments, bringing the agency a wide range of 
        mission-focused and transformative technologies that will 
        enable revolutionary approaches to achieving NASA's current and 
        future missions.

  <bullet> In FY 2012, a significant portion of the Exploration 
        Technology Development Program is moved from ESMD to Space 
        Technology. These efforts focus on developing the long-range, 
        exploration-specific technologies to enable NASA's deep space 
        human exploration future. The integration of Exploration 
        Technology activities with Space Technology creates one robust 
        space technology budget line, and eliminates the potential for 
        overlap had NASA's space technology investments been split 
        among two accounts. ESMD will continue to set the prioritized 
        requirements for these efforts and will serve as the primary 
        customer of Space Technology's Exploration-specific activities.

  <bullet> OCT continues to manage SBIR and STTR, and integrates 
        technology transfer efforts ensure NASA technologies are 
        infused into commercial applications, develops technology 
        partnerships, and facilitates emerging commercial space 
        activities.

    Recognizing that our work must continuously inspire not only the 
public at large but also students at all levels, NASA's Education 
programs this year focus on widening the pipeline of students pursuing 
coursework in science, technology, engineering and mathematics (STEM). 
As President Obama has said, ``Our future depends on reaffirming 
America's role as the world's engine of scientific discovery and 
technological innovation. And that leadership tomorrow depends on how 
we educate our students today, especially in math, science, technology, 
and engineering.''

  <bullet> The FY 2012 request for NASA's Office of Education 
        capitalizes on the excitement of NASA's mission through 
        innovative approaches that inspire educator and student 
        interest and proficiency in STEM disciplines. NASA's education 
        program in FY 2012 and beyond will focus and strengthen the 
        Agency's tradition of investing in the Nation's education 
        programs and supporting the country's educators who play a key 
        role in inspiring, encouraging, and nurturing the young minds 
        of today, who will manage and lead the Nation's laboratories 
        and research centers of tomorrow.

  <bullet> Among NASA's Education activities will be a continued Summer 
        of Innovation, building on the successful model piloted with 
        four states this past year.

    All of these activities place NASA in the forefront of a bright 
future for America, where we challenge ourselves and create a global 
space enterprise with positive ramifications across the world. The FY 
2012 budget request provides the resources for NASA to innovate and 
make discoveries on many fronts, and we look forward to implementing 
it. See Enclosure 2 for a more detail summary of each activity.
Conclusion
    As we enter the second half-century of human spaceflight, the 
Nation can look back upon NASA's accomplishments with pride, but we can 
also look forward with anticipation to many more achievements to come. 
The NASA Authorization Act of 2010 (P.L. 111-267) has provided us with 
clear direction that enables the Agency to conduct important research 
on the ISS, develop new launch vehicle and crew transportation 
capabilities to go beyond the bounds of LEO, utilize a dazzling array 
of spacecraft to study the depths of the cosmos while taking the 
measure of our home planet, improve aviation systems and safety, 
develop new technologies that will have applications to both space 
exploration and life on Earth, and inspire the teachers and students of 
our country. In developing and executing the challenging missions that 
only NASA can do, we contribute new knowledge and technologies that 
enhance the Nation's ability to compete on the global stage and help to 
secure a more prosperous future.
    These are tough fiscal times, calling for tough choices. The 
President's FY 2012 budget request makes those choices and helps NASA 
realize its potential and meet the challenges of the 21st Century. We 
look forward to working with the Committee on its implementation.

     National Aeronautics and Space Administration President's FY 2012 Budget Request Detail--Full Cost View
----------------------------------------------------------------------------------------------------------------
                                                        Auth
 Budget Authority, $ in million    Actual    CR  FY    Act  FY   FY 2012   FY 2013   FY 2014   FY 2015   FY 2016
                                   FY 2010    2011      2011
----------------------------------------------------------------------------------------------------------------
Science                            4,497.6   4,469.0   5,005.6   5,016.8   5,016.8   5,016.8   5,016.8   5,016.8
����������������������������������������������������������������������������������������������������������������
Earth Science                      1,439.3             1,801.8   1,797.4   1,821.7   1,818.5   1,858.2   1,915.4
Planetary Science                  1,364.4             1,485.7   1,540.7   1,429.3   1,394.7   1,344.2   1,256.8
Astrophysics                         647.3             1,076.3     682.7     758.1     775.5     779.8     810.9
James Webb Space Telescope           438.7               373.7     375.0     375.0     375.0     375.0
Hellophysics                         608.0               641.9     622.3     632.7     653.0     659.7     658.7
����������������������������������������������������������������������������������������������������������������
Aeronautics                          497.0     501.0     579.6     569.4     569.4     569.4     569.4     569.4
Space Technology                     275.2     327.2     512.0   1,024.2   1,024.2   1,024.2   1,024.2   1,024.2
Exploration                        3,625.8   3,594.3   3,706.0   3,948.7   3,948.7   3,948.7   3,948.7   3,948.7
����������������������������������������������������������������������������������������������������������������
Human Exploration Capabilities     3,287.5             2,751.0   2,810.2   2,810.2   2,810.2   2,810.2   2,810.2
Commercial Spaceflight                39.1               612.0     850.0     850.0     850.0     850.0     850.0
Exploration Research and             299.2               343.0     288.5     288.5     288.5     288.5     288.5
 Development
����������������������������������������������������������������������������������������������������������������
Space Operations                   6,141.8   6,146.8   5,508.5   4,346.9   4,346.9   4,346.9   4,346.9   4,346.9
����������������������������������������������������������������������������������������������������������������
Space Shuttle                      3,101.4             1,609.7     664.9      79.7       0.8       0.8       0.9
International Space Station        2,312.7             2,779.8   2,841.5   2,960.4   3,005.4   3,098.0   3,174.8
Space and Flight Support (SFS)       727.7             1,119.0     840.6   1,306.8   1,340.7   1,248.1   1,171.2
����������������������������������������������������������������������������������������������������������������
Education                            180.1     182.5     145.8     138.4     138.4     138.4     138.4     138.4
Cross-Agency Support               3,017.6   3,018.8   3,111.4   3,192.0   3,192.0   3,192.0   3,192.0   3,192.0
����������������������������������������������������������������������������������������������������������������
Center Management and Operations   2,161.2                       2,402.9   2,402.9   2,402.9   2,402.9   2,402.9
Agency Management and Operations     766.2                         789.1     789.1     789.1     789.1     789.1
Institutional Investments             27.2                           0.0       0.0       0.0       0.0       0.0
Congressionally Directed Items        63.0                           0.0       0.0       0.0       0.0       0.0
����������������������������������������������������������������������������������������������������������������
Construction and Environmental       452.8     448.3     394.3     450.4     450.4     450.4     450.4     450.4
 Compliance and Restoration
����������������������������������������������������������������������������������������������������������������
Construction of Facilities           389.4                         397.9     384.0     359.5     362.9     360.0
Environmental Compliance and          63.4                          52.5      66.4      90.9      87.5      90.4
 Restoration
����������������������������������������������������������������������������������������������������������������
Inspector General                     36.4      36.4      37.0      37.5      37.5      37.5      37.5      37.5
NASA FY 2011                      18,724.3  18,724.3  19,000.0  18,724.3  18,724.3  18,724.3  18,724.3  18,724.3
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
                           Program Summaries
Science
    The President's FY 2012 request for NASA includes $5,016.8 million 
for Science. NASA continues to expand humanity's understanding of our 
Earth, our Sun, the solar system, and the universe with 56 science 
missions in operation and 28 more in various stages of development. The 
Science budget funds these missions as well as the research of over 
3,000 scientists, engineers, technologists, and their students across 
the Nation. NASA is guided in setting its priorities for strategic 
science missions by the recommendations of the NRC decadal surveys. The 
Agency selects competed missions and research proposals based on open 
competition and peer review. NASA's science efforts continue to advance 
a robust and scientifically productive program while making difficult 
choices commensurate with the Government-wide priority to constrain the 
Federal budget.
    The challenges we face have been amplified by the failed launch of 
the Glory satellite on March 4. This loss is tragic and underscores the 
challenging nature of the space business. Reliable and affordable 
access to space is vital to NASA's science program
    The FY 2012 budget request includes $1,797.4 million for Earth 
Science. NASA's constellation of Earth observing satellites provides 
much of the global environmental observations used for climate research 
in the United States and abroad.
    In early FY 2012, NASA plans to launch the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) Preparatory Project 
(NPP), continuing selected climate data records and becoming an 
integral part of the Nation's operational meteorological satellite 
system for weather prediction. We also plan to select new Venture Class 
science instruments and small missions in FY 2012.
    The Aquarius instrument on the Argentine Satelite de Aplicaciones 
Cientificas (SAC)-D mission (launching later this year) will deliver 
the first global ocean salinity measurements to the science community 
in FY 2012. The Orbiting Carbon Observatory 2 (OCO-2), Landsat Data 
Continuity Mission (LDCM), and the Global Precipitation Measurement 
(GPM) missions will be in integration and testing in FY 2012. The first 
two NRC Decadal Survey missions, Soil Moisture Active/Passive (SMAP) 
and the Ice, Cloud, and land Elevation Satellite-2 (ICESat-2), will 
both enter into development during FY 2012. This budget request also 
funds robust Research and Analysis, Applied Science, and Technology 
programs. In this climate of fiscal austerity there are some important 
capabilities that will not be developed in order to keep others on 
track in more constrained future years. Development of the second two 
Tier 1 Decadal Survey missions, the Deformation, Ecosystem Structure, 
and Dynamics of Ice (DESDynI), and the Climate Absolute Radiance and 
Refractivity Observatory (CLARREO), has been deferred resulting in 
launch dates no earlier than 2020. NASA will continue pre-formulation 
work on the DESDynI and review international partner options. However, 
the FY 2012 request enables the Gravity Recovery And Climate Experiment 
Follow-on (GRACE-FO), the Pre-Aerosols-Clouds-Ecosystems (PACE), and 
the Tier 2 missions Surface Water and Ocean Topography (SWOT), and 
Active Sensing of CO<INF>2</INF> Emissions Over Nights, Days, and 
Seasons (ASCENDS) to go forward as planned.
    The Science budget request includes $1,540.7 million for Planetary 
Science in FY 2012. NASA and its partners consider the period from 
October 2010 to August 2012 (the length of a Martian year) to be the 
``Year of the Solar System.''
    The Juno mission will launch in August 2011 and arrive at Jupiter 
in 2016. The Gravity Recovery And Interior Laboratory (GRAIL) mission, 
following launch in September 2011, will enter lunar orbit and help 
determine the structure of the lunar interior from crust to core; the 
mission will advance our understanding of the thermal evolution of the 
Moon by the end of its prime mission in FY 2012. A newly installed 
webcam is giving the public an opportunity to watch technicians 
assemble and test NASA's MSL ``Curiosity,'' one of the most 
technologically advanced interplanetary missions ever designed. More 
than one million people have watched assembly and testing of Curiosity 
via a live webcam since it went on-line in October. Curiosity will 
launch in early FY 2012 and arrive at Mars in August 2012; it will be 
two times as large and three times as heavy as the Spirit and 
Opportunity rovers, and will focus on investigating whether conditions 
on Mars have been favorable for microbial life and for preserving clues 
in the rocks about possible past life. The MErcury Surface, Space 
ENvironment, GEochemistry and Ranging (MESSENGER) spacecraft will 
arrive at Mercury later this month and will complete its first year in 
Mercury orbit in March 2012. MESSENGER's instruments will map nearly 
the entire planet in color, image the surface in high resolution, and 
measure the composition of the surface, atmosphere and nature of the 
magnetic field and magnetosphere. During its nearly decade-long 
mission, the Dawn mission will study the asteroid Vesta and dwarf 
planet Ceres--celestial bodies believed to have accreted early in the 
history of the solar system. Dawn will enter into orbit around Vesta 
this summer and will depart in 2012 for its encounter with Ceres in 
2015. NASA and the European Space Agency (ESA) have selected the five 
science instruments for the 2016 ExoMars Trace Gas Orbiter mission. The 
budget also supports robust Research and Analysis and Technology 
programs.
    NASA recently received the new National Academy of Sciences Decadal 
Survey for Planetary Science, entitled Vision and Voyages for Planetary 
Science in the Decade 2013--2022. We are grateful to the Academy and to 
all the Survey participants for their hard work and thoughtful 
recommendations . NASA will use this survey to prioritize ongoing 
programs and future mission opportunities.
    The FY 2012 budget request includes $682.7 million for Astrophysics 
(not including an additional $375 million for the James Webb Space 
Telescope [JWST] which is detailed below). This is a golden age of 
space-based Astrophysics, with 14 observatories in operation. 
Astrophysics research, technology investments, and missions aim to 
understand how the universe works, how galaxies, stars and planets 
originated and developed over cosmic time, and whether Earth-like 
planets and life exist elsewhere in the cosmos.
    The FY 2012 budget request reflects the scientific priorities of 
the new National Academy of Science Decadal Survey entitled, ``New 
Worlds, New Horizons in Astronomy and Astrophysics.'' The budget 
includes additional funding for the Explorer mission selection planned 
for 2012, sustains a vigorous flight rate of future astrophysics 
Explorer missions and missions of opportunity, and increases 
investments in recommended research and technology initiatives. Funding 
is also provided for pre-formulation investments in recommended large 
missions beyond JWST, while work on the Space Interferometry Mission 
(SIM) and Joint Dark Energy Mission (JDEM) has been brought to a close, 
consistent with the recommended Decadal Survey program. SOFIA will 
complete its open door flight testing and conduct the first competed 
science observations in FY 2012. The Nuclear Spectroscopic Telescope 
Array (NuSTAR) mission will launch in early 2012. The NASA Astrophysics 
budget also supports continuing operations of Hubble, Chandra, and 
several other astrophysics observatories in space. The budget increases 
funding for the core Astrophysics research program, including sounding 
rocket and balloon suborbital payloads, theory, and laboratory 
astrophysics.
    The FY 2012 budget request includes $375 million for the James Webb 
Space Telescope (JWST). JWST is now budgeted as a separate theme, 
reflecting changes implemented in FY 2011 to improve management 
oversight and control over this critical project, as recommended by the 
Independent Comprehensive Review Panel's (ICRP) report in November 
2010. The project, previously managed within the Astrophysics Division, 
is now managed by a separate program office at NASA Headquarters. 
Management of this JWST organization at Headquarters now reports 
directly to the NASA Associate Administrator and the Associate 
Administrator for Science. The Goddard Space Flight Center has 
implemented analogous changes, with JWST project management now 
reporting directly to the Center Director. JWST was the top priority 
large mission recommended in the previous NRC Decadal Survey and is 
considered a foundational element of the science strategy in the new 
Decadal Survey for Astronomy and Astrophysics. During 2010, JWST 
completed its most significant mission milestone to date, the Mission 
Critical Design Review. Cost growth and schedule issues identified 
following this milestone led to the formation of the ICRP. The ICRP 
report concluded that the problems causing cost growth and schedule 
delays on the JWST project are associated with cost estimation and 
program management, not technical performance. The $375 million funding 
in 2012 gives the program a stable footing to continue progress while 
the agency develops a revised program plan that includes a realistic 
assessment of schedule and lifecycle cost. The revised schedule and 
lifecycle cost will be reflected in the 2013 Budget request.
    The FY 2012 budget request includes $622.3 million for 
Heliophysics. NASA's heliophysics satellites provide not only a steady 
stream of scientific data for NASA's research program, but also supply 
a significant fraction of critical space weather data used by other 
Government agencies for support of commercial and national security 
activities in space. Those agencies use the data to protect operating 
satellites, communications, aviation and navigation systems, as well as 
electrical power transmission grids. The spacecraft also provides 
images of the Sun with ten times greater resolution than high-
definition television in a broad range of ultraviolet wavelengths. On 
February 6, 2011, the two STEREO spacecraft reached 180 degrees 
separation; when combined with SDO, these spacecraft will enable 
constant imaging of the full solar sphere for the next eight years, as 
the solar cycle peaks and begins to decline again. These three 
spacecraft working together and in combination with NASA's other solar 
observatories will give us unprecedented insight into the Sun and its 
dangerous solar storms that could threaten both satellites and humans 
in space as well as electric power systems on Earth. NASA has begun 
development of a mission, called Solar Probe Plus, that will visit and 
study the Sun from within its corona--a distance only 8.5 solar radii 
above its surface.
    The FY 2012 budget will enable completion of the Radiation Belt 
Storm Probes mission for launch in FY 2012 as well as the completion of 
development of the Interface Region Imaging Spectrograph (IRIS) 
Explorer mission. In FY 2012, the Magnetospheric Multiscale (MMS) 
mission will enter its assembly and integration phase, the Solar 
Orbiter Collaboration with ESA will undergo Mission Confirmation 
Review, and the Solar Probe Plus mission will enter into the 
preliminary design phase. NASA has increased funding for the next 
Explorer mission selection planned for 2012 to enable selection of up 
to two full missions, as well as instruments that may fly on non-
Explorer spacecraft. The budget also supports robust Research and 
Analysis and Sounding Rocket operations programs. The National Academy 
of Sciences has begun work on the next Decadal Survey for Heliophysics 
and we anticipate its release in the spring of 2012.
Aeronautics Research
    The FY 2012 budget request for Aeronautics is $569.4 million. As an 
industry, aviation contributes $1.3 trillion to the Nation's economy 
and employs over one million people. Airlines in the U.S. transport 
over one million people daily, but during peak travel times the air 
traffic and airport systems in the U.S. are stretched to capacity. 
Environmental concerns, such as aircraft noise and emissions, limit 
increased operations and the expansion of airports and runways. In 
response to these challenges, the Nation is pursuing the realization of 
the Next Generation Air Transportation System (NextGen). NextGen will 
accommodate more aircraft operating within the same airspace, including 
aircraft with widely varying performance characteristics. The President 
recently challenged the Nation to increase its competitiveness in 
advanced technologies. NASA meets this challenge with aeronautics 
research to create the safer, more fuel-efficient, quieter, and 
environmentally responsible aircraft and air traffic management 
procedures needed to make NextGen a reality.

  <bullet> The Aviation Safety Program conducts research to ensure that 
        current and new aircraft and operational procedures maintain 
        the high level of safety which the American public has come to 
        count on, even as aviation systems become more complex. Last 
        year, the Program published guidelines on automation, displays, 
        and alerting technologies for future aircraft cockpit designs 
        based on data collected from real flight crews during 
        simulations of high-air-traffic-density operations. Further 
        increases in air traffic will require even higher levels of 
        automation without sacrificing safety. NASA is addressing this 
        need by developing new methods to verify and validate complex 
        aircraft and air traffic control systems and further developing 
        human performance models to be applied in the design of 
        automated systems. The Program is also developing data mining 
        methods that will enable the discovery of safety issues through 
        automated analysis of the vast amounts of data generated during 
        flight operations. These methods will enable a new, proactive 
        approach to aircraft maintenance and design to avoid the 
        occurrence of safety issues, rather than a reactive approach 
        after a safety-related incident occurs.

  <bullet> Reductions in environmental impact will be achieved not only 
        through new aircraft, engines, and fuels, but also through 
        improved air traffic management procedures. The Airspace 
        Systems Program is developing these procedures in order to 
        provide the flexibility needed to add capacity to the system as 
        air travel demands increase. Last year, we partnered with the 
        Federal Aviation Administration (FAA), Boeing, Sensis, United 
        Airlines, and Continental Airlines to complete joint 
        simulations of new Efficient Descent Advisor (EDA) procedures, 
        and in FY 2012, the Program will deliver documentation of the 
        results to the FAA. EDA procedures are a key component of the 
        FAA's 3D-Path Arrival Management program and NextGen and can 
        save hundreds of pounds of fuel and carbon dioxide emissions 
        per participating flight, while reducing noise over surrounding 
        communities. In FY 2012, we will also accelerate field trials 
        of new procedures enabled by Automatic Dependent Surveillance-
        Broadcast (ADS-B) technology. This effort will demonstrate 
        near-term and mid-term ADS-B application benefits and provide 
        airlines with data to support their strategic decisions related 
        to the significant investments they need to make to equip their 
        aircraft with ADS-B capability.

  <bullet> The Fundamental Aeronautics Program seeks to continually 
        improve technology that can be infused into today's state-of-
        the-art aircraft, while enabling game-changing new concepts, 
        such as Hybrid Wing Body (HWB) airframes, tilt-rotor aircraft, 
        low-boom supersonic aircraft, and sustained hypersonic flight. 
        In FY 2012, the Program will accelerate research on a number of 
        key enabling technologies identified through four conceptual 
        design studies completed last year in collaboration with 
        industry and academia. The Program will also expand the 
        measurement of emissions generated when using non-petroleum 
        alternative aircraft fuels. In FY 2012, we will develop 
        instrumentation and operating procedures in preparation for a 
        flight test campaign using the NASA DC-8 aircraft operating at 
        relevant altitudes and cruise speeds. This will provide the 
        first-ever data to improve our understanding of alternative 
        fuel impact on contrail formation, an important factor in 
        aviation climate impact.

  <bullet> The Integrated Systems Research Program evaluates and 
        selects the most promising ``environmentally friendly'' engine 
        and airframe concepts emerging from the fundamental research 
        programs for further development, integration, and evaluation 
        in relevant environments. Last year, we completed the last of 
        80 flights to explore the stability and control characteristics 
        of the sub-scale X-48B HWB aircraft. In FY 2012, we will 
        conduct the first-ever testing of an Hybrid Wing Body non-
        circular fuselage section fabricated using a new low-weight, 
        damage-tolerant concept for composite aircraft structures. 
        Beginning this year, the Program is also addressing the growing 
        requirement to integrate unmanned aircraft systems (UAS) into 
        the national airspace system. Current FAA regulations are built 
        upon the condition of a pilot being on-board the aircraft. The 
        Program will therefore generate data for FAA use in rule-making 
        through development, testing, and evaluation of UAS 
        technologies in operationally relevant scenarios. U.S. 
        leadership in aerospace depends on ready access to 
        technologically-advanced, efficient, and affordable aeronautics 
        test capabilities. NASA's Aeronautics Test Program makes 
        strategic investments to ensure the availability of these 
        ground test facilities and flight test assets to researchers in 
        Government, industry, and academia. In addition to this 
        strategic management activity, the Program will continue with 
        the development of new test instrumentation and test 
        technologies. The Program is modifying a Gulfstream III 
        business jet in order to flight test a new approach to reducing 
        drag on an aircraft by adding carefully engineered surface 
        roughness to the wings. This new flight-test capability will 
        enable us to test this drag reduction concept for the first 
        time at the altitudes and speeds at which commercial aircraft 
        typically cruise.

    NASA cannot do all of these good things alone. Our partnerships 
with industry, academia, and other Federal agencies are critical to our 
ability to expand the boundaries of aeronautical knowledge for the 
benefit of the Nation. These partnerships foster a collaborative 
research environment in which ideas and knowledge are exchanged across 
all communities and help ensure the future competitiveness of the 
Nation's aviation industry. They also directly connect students with 
NASA researchers and our industrial partners and help to inspire 
students to choose a career in the aerospace industry.
Space Technology
    The FY 2012 budget request includes $1,024.2 million for Space 
Technology, a modest increase above the FY 2012 levels projected in the 
NASA Authorization Act of 2010, consistent with the priority the 
Administration is placing on research, technology and innovation 
efforts across the Federal government. In FY 2012, Space Technology 
includes funding for longstanding Small Business Innovation Research 
and Small Business Technology Transfer programs (SBIR and STTR), 
technology transfer, crosscutting space technology programs formulated 
in FY 2011, and exploration technology programs that are being 
transferred into this account. NASA technology development activities 
under Space Technology will transform the Nation's capabilities for 
exploring space. Through this effort, NASA advances crosscutting and 
exploration-specific technology, performs technology transfer and 
technology commercialization activities, develops technology 
partnerships with other Government agencies, and coordinates the 
Agency's overall technology investment portfolio. The Office of the 
Chief Technologist (OCT) manages Space Technology.
    Space Technology is the central NASA contribution to the 
President's revitalized research, technology and innovation agenda for 
the Nation. NASA's Space Technology portfolio responds with investments 
that reach all corners of the Nation--wherever there are innovative 
ideas and technical challenges to be solved. Advanced technologies are 
required to enable NASA's future science, aeronautics, and exploration 
missions. As demonstrated over many years, these same advanced 
technologies find their way into products and services available every 
day to the public. NASA's space technology is an innovation engine that 
invests in the high payoff, high-risk ideas and technologies of 
tomorrow that industry cannot tackle today. This unique work attracts 
bright minds into educational and career paths in STEM disciplines, 
enhancing the Nation's technological leadership position in the world 
and leaving a lasting imprint on the economic, national security, and 
geopolitical landscape. Through these technological investments, NASA 
and our Nation will remain at the cutting-edge.
    In FY 2010 and the first quarter of FY 2011, NASA focused on 
planning, formulating and implementing the Space Technology project 
elements. The Agency received 1,400 responses to six Space Technology 
Requests For Information (RFIs) released during FY 2010. These inputs 
were invaluable in finalizing future Space Technology solicitations and 
demonstrate a strong interest in, and need for, significant NASA 
investment in space research and technology. NASA released 
solicitations for the ongoing Flight Opportunities and SBIR/STTR 
programs. In December 2010 NASA released the inaugural Space Technology 
Graduate Fellowships call. Consistent with provisions of the NASA 
Authorization Act, the Agency plans to release three additional high-
priority solicitations spanning Space Technology's strategic investment 
areas. NASA also recently developed a draft set of 14 space technology 
roadmaps, which define pathways to advance the Nation's capabilities in 
space and establish a mechanism for prioritization of NASA's technology 
investments. Consistent with the NASA Authorization Act of 2010, NASA's 
space technology roadmaps are being evaluated and improved through a 
community-engaged process managed by the NRC that will produce a range 
of pathways and recommended priorities that advance the Nation's space 
capabilities.
    NASA's Partnership Development and Strategic Integration activities 
develop key space technology partnerships and guide NASA's space 
technology investment decisions. OCT provides a primary entry point to 
industry and Government agencies for technology transfer and 
commercialization, interagency coordination and joint activities, 
intellectual property management, and partnership opportunities. The 
Office is also responsible for development of an Agency technology 
portfolio and strategically coordinates Agency technology investments 
through Center and Mission Directorate advisory committees and through 
the space technology roadmaps to ensure that Space Technology 
investments serve NASA's missions as well as the interests of other 
Government agencies and the Nation's aerospace industry.
    The Agency's space technology investments include the Small 
Business Innovation Research and the Small Business Technology Transfer 
programs (SBIR and STTR). Small businesses have generated 64 percent of 
net new jobs over the past 15 years. NASA invests at least 2.5 percent 
of its extramural research and development in the SBIR program. The 
STTR program makes awards to small businesses for contracts for 
cooperative research and development with non-profit research 
institutions, such as universities. For STTR, NASA's investment exceeds 
0.3 percent of its extramural research and development. For FY 2012, 
higher maximum awards for SBIRs are allowed, with Phase I awards that 
can reach $150,000 and, for Phase 2, up to $1 million. Also in FY 2012, 
NASA is aligning the SBIR and STTR topics with space technology 
roadmaps and the National Aeronautics Research and Development Plan, 
while coordinating with Centers and maintaining a Mission Directorate 
steering council to continue to improve our rate of mission infusion.
    Crosscutting Space Technology Development (CSTD) activities invest 
in broadly applicable technologies though early-stage conceptual 
studies, ground-based and laboratory testing, relevant-environment 
flight demonstrations, and technology testbeds, including the ISS. The 
NASA Mission Directorates, other Government agencies, and industry are 
the ultimate customers for Crosscutting Space Technology Development 
products. Within this element, there are three investment areas: Early 
Stage Innovation, Game Changing Technology and Crosscutting Capability 
Demonstrations. Early Stage Innovation funds space technology research 
grants and fellowships to accelerate space technology development 
through innovative projects with high risk/high payoff. It also funds 
the NASA Innovative Advanced Concepts (NIAC) effort, which studies the 
viability and feasibility of space architecture, system, or mission 
concepts. It includes the Center Innovation Fund to stimulate and 
encourage creativity and innovation within the NASA Centers, and 
provides the prizes for the Centennial Challenges competitions that 
seek innovative solutions to technical problems in aerospace 
technology. Through ground-based and laboratory testing, Game Changing 
Technology proves the fundamental physical principles of those 
technologies that can provide transformative capabilities for 
scientific discovery, and human and robotic exploration. Specifically 
for small satellites, the Franklin subsystem technology development 
activity matures subsystem technology in laboratory environments. 
Crosscutting Capability Demonstrations proves the most promising 
technological solutions in the relevant environment of space. 
Technology Demonstration Missions prove larger-scale system 
technologies in the space environment, whereas the Edison small 
satellite missions demonstrate the utility of these innovative space 
platforms for NASA's future missions. Flight Opportunities utilizes the 
capabilities of the commercial reusable suborbital space transportation 
and parabolic flight services industries to test technologies. Seventy 
percent of the CSTD funds will be awarded competitively, with 
solicitations open to the broad aerospace community to ensure 
engagement with the best sources of new and innovative technology. 
Industry, academia and the NASA Centers will participate in the 
development of CSTD products. In FY 2012, CSTD will engage hundreds of 
graduate students and researchers though grants and fellowships, 
initiate dozens of ground and flight technology demonstrations, 
initiate tens of technology studies, and formulate its first 
demonstration missions.
    In FY 2012, a significant portion of the FY 2010 Exploration 
Technology Development Program, as well as new exploration technology 
activities in planning for FY 2011, will move from ESMD to Space 
Technology. For traceability, the transferred activities have been 
consolidated in a specific budgetary element within Space Technology: 
Exploration Technology Development (ETD). NASA plans to capitalize on 
technical synergies in the project elements from Crosscutting Space 
Technology Development and Exploration Technology Development by 
managing these programs in an integrated manner. Technologies within 
ETD enable NASA to conduct future human missions beyond LEO with new 
capabilities that have greater affordability. Technologies for future 
human exploration missions are matured through ground-based and 
laboratory testing, relevant environment flight demonstrations, and 
technology testbeds, including the ISS. Technologies matured through 
demonstration flights may then be designed into future NASA human 
exploration missions with acceptable levels of risk. Exploration is the 
ultimate customer for Exploration Technology Development products. In 
addition to ongoing-guided Exploration-specific technology development 
activities, in FY 2012, NASA will use 30 percent of the funds within 
this account to fund competitive awards, drawing proposals from 
industry, academia, and the NASA Centers for innovative Exploration-
specific technologies and demonstration missions.
Exploration
    The FY 2012 budget request for Exploration is $3,948.7 million. In 
FY 2012 and beyond, NASA's Exploration programs will continue to 
support the U.S. economy by enabling safe, reliable and cost effective 
U.S.-provided commercial access to LEO for crew and cargo as soon as 
possible. Included in this budget request is funding for three new, 
robust categories or ``themes'' that will expand the capabilities of 
future space explorers far beyond those we have today: Human 
Exploration Capabilities, Commercial Spaceflight, and Exploration 
Research and Development. These systems and capabilities include launch 
and crew vehicles for missions beyond LEO--the Moon, asteroids, and 
eventually Mars, affordable commercial crew access to the ISS, and 
technologies and countermeasures to keep astronauts healthy and 
productive during deep space missions, and to reduce the launch mass 
and cost of deep space missions.
    The FY 2012 budget request includes $2,810.2 million for Human 
Exploration Capability (HEC). HEC is the successor to the Constellation 
Systems theme; programs and projects under HEC will develop the launch 
vehicles and spacecraft that will provide the initial capability for 
crewed exploration missions beyond LEO. In particular, HEC's Space 
Launch System (SLS) Program will develop the heavy-lift vehicle that 
will launch the crew vehicle, other modules, and cargo for these 
missions. The Multi-Purpose Crew Vehicle (MPCV) Program will develop 
the vehicle that will carry the crew to orbit, provide emergency abort 
capability, sustain the crew while in space, and provide safe re-entry 
from deep-space return velocities. NASA is currently developing plans 
for implementing the SLS and MPCV programs, including efforts to 
transition the design and developmental activities of the Constellation 
Program. A major element of the transition involves shifting design and 
developmental efforts away from a closely coupled system (Ares I and 
Orion) to a more general launch vehicle (the SLS) and crew vehicle (the 
MPCV).
    Consistent with direction in the NASA Authorization Act of 2010, 
the Agency has developed a Reference Vehicle Design for the SLS that is 
derived from Ares and Space Shuttle hardware. The current concept 
vehicles would utilize a liquid oxygen/liquid hydrogen core with five 
RS-25 Space Shuttle Main Engine (SSME)-derived engines, five-segment 
solid rocket boosters, and a J-2X-based Upper Stage for the SLS. This 
would allow for use of existing Shuttle and Ares hardware assets in the 
near term, with the opportunity for upgrades and/or competition 
downstream for eventual upgrades in designs needed for affordable 
production. For the MPCV, NASA has chosen the beyond-LEO design of the 
Orion Crew Exploration Vehicle as the Reference Vehicle Design for the 
MPCV. The Orion development effort has already benefited from 
significant investments and progress to date, and the Orion 
requirements closely match MPCV requirements as defined in the 
Authorization Act, which include utilizing the MPCV for beyond-LEO crew 
transportation and as backup for ISS crew transportation.
    NASA will evaluate the Reference Vehicle Designs this spring and 
incorporate results of industry studies that the Agency solicited 
earlier this Fiscal Year. In particular, one of the greatest challenges 
for NASA is to reduce the development and operating costs for human 
spaceflight missions to sustain a long-term U.S. human spaceflight 
program. We must plan and implement an exploration enterprise with 
costs that are credible, sustainable, and affordable for the long term 
under constrained budget environments. As such, our development efforts 
will be dependent on sufficiently stable funding over the long term, 
coupled with a successful effort on the part of NASA and the eventual 
industry team to reduce costs and to establish stable, tightly-managed 
requirements.
    NASA plans to approach affordability comprehensively in pursuit of 
exploration beyond LEO to increase the probability that key elements 
are developed and missions can occur within a realistic budget profile. 
For all development activities, we will emphasize innovative 
acquisition and program management approaches, including risk 
management, to reduce recurring and operations costs. In doing so, 
plans for bringing the MPCV and SLS vehicles online with lower costs 
will be as credible and realistic as possible, and significant efforts 
will be made to ensure cost risks will be well understood. Overall, 
NASA's designs and acquisition strategies for the MPCV and SLS Programs 
will not be solidified until all of the pertinent knowledge on cost and 
safety is obtained to ensure an affordable and executable solution. 
NASA expects to finalize acquisition strategies this summer, and will 
obtain independent, external assessments of cost and schedule for SLS 
and MPCV design options during the spring or summer timeframe. We will 
share this information with the Congress--including Members of this 
Committee--as soon as we are able to do so.
    The FY 2012 budget request includes $850.0 million for the 
Commercial Spaceflight theme in Exploration. This effort will provide 
incentives for commercial providers to develop and operate safe, 
reliable, and affordable commercial systems to transport crew and cargo 
to and from the ISS and LEO. This approach will provide assured access 
to the ISS, strengthen America's space industry, and provide a catalyst 
for future business ventures to capitalize on affordable access to 
space. A vibrant commercial space industry will add well-paying, high-
tech jobs to the U.S. economy, and will reduce America's reliance on 
foreign systems.
    In 2010, NASA further expanded its successful Commercial Crew 
Development (CCDev) Program by initiating CCDev2 in October 2010. In 
doing so, we solicited proposals to further advance commercial crew 
transportation system concepts and mature the design and development of 
system elements, such as launch vehicles and spacecraft. Depending on 
available funding in FY 2011, we expect to select a series of CCDev2 
proposals for award early this year. Once finalized, the resulting 
CCDev2 agreements should result in significant maturation of commercial 
crew transportation system capabilities, with consideration given to 
NASA's draft human certification requirements and standards or the 
industry equivalent to those requirements and standards.
    Beginning in FY 2012, NASA proposes to take the accomplishments and 
lessons learned from the successes of the first two rounds of CCDev and 
incorporate them into a new initiative called CCDev3. This initiative 
will facilitate the development of a U.S. commercial crew space 
transportation capability with the goal of achieving safe, reliable and 
cost effective access to and from LEO and the ISS. Once the commercial 
crew transportation capability is matured and available to customers, 
NASA plans to purchase transportation services to meet its ISS crew 
rotation and emergency return obligations.
    For CCDev3, NASA plans to award competitive, pre-negotiated, 
milestone-based agreements that support the development, testing, and 
demonstration of multiple commercial crew systems. The acquisition 
strategy for CCDev3 is still in development, but it will feature pay-
for-performance milestones, a fixed Government investment, the use of 
negotiated service goals instead of detailed design requirements, and a 
requirement for private capital investment.
    In calendar year 2011 work on NASA's Commercial Orbital 
Transportation Services (COTS) Program will continue under the 
Commercial Spaceflight theme, using previous-year funding. Both of 
NASA's funded COTS partners continue to make progress in developing 
their cargo transportation systems, based in part on NASA's financial 
and technical assistance. In particular, on December 8, 2010, Space 
Exploration Technologies (SpaceX) successfully launched its Falcon 9 
vehicle, and demonstrated separation of the Dragon spacecraft and 
completion of two full orbits, orbital maneuvering and control, 
reentry, parachute decent and spacecraft recovery after splashdown in 
the Pacific Ocean. For its part in COTS, NASA's second funded partner, 
Orbital Sciences Corporation (OSC), recently began integration and 
testing of its Cygnus Service Module and Taurus II launch vehicle. Both 
companies are expected to complete their remaining COTS demonstration 
flights in late 2011 or early 2012.
    The FY 2012 budget request for ESMD includes $288.5 million for 
Exploration Research and Development (ERD). The Exploration Research 
and Development (ERD) theme will expand fundamental knowledge that is 
key to human space exploration, and will develop advanced exploration 
systems that will enable humans to explore space in a more sustainable 
and affordable way. ERD will be comprised of the Human Research Program 
(HRP) and the Advanced Exploration Systems (AES) Program, which will 
provide the knowledge and advanced human spaceflight capabilities 
required to implement the U.S. Space Exploration Policy
    In FY 2012, HRP and its associated projects will continue to 
develop technologies, countermeasures, diagnostics, and design tools to 
keep crews safe and productive on long-duration space missions. As 
astronauts journey beyond LEO, they will be exposed to microgravity, 
radiation, and isolation for long periods of time. Keeping crews 
healthy and productive during long missions will require new 
technologies and capabilities. Therefore, continued research is 
required to study how the space environment, close quarters, heavy 
workloads, and prolonged time away from home contribute to stress, and 
then develop technologies that can prevent or mitigate these effects. 
More specifically, in FY 2012, HRP will support approximately 15-20 
biomedical flight experiments on the ISS and deliver the next-
generation space biomedical ultrasound device to enhance the Station's 
human research facility capability. Other activities will include 
development of a training program for ultrasound diagnosis of fractures 
and the evaluation of blood analysis technology for astronaut health 
monitoring. Additionally, HRP projects will deliver an enhanced design 
tool for vehicle radiation shielding assessments and release the second 
version of an acute radiation risk model. In the area of behavioral 
health and performance, researchers will complete a sleep-wake 
actigraphy report on the ISS crew. In order to support its research 
requirements, HRP will release two NASA Research Announcements 
addressing space radiation health risks and human physiological changes 
associated with spaceflight.
    AES will continue projects from the Exploration Technology 
Development program that are close to application and closely tied to 
human safety in space. In FY 2012, AES will assume responsibility for 
developing and demonstrating innovative prototype systems to provide 
basic needs such as oxygen, water, food, and shelter that can operate 
dependably for at least a year. AES will demonstrate these systems in 
ground testbeds, Earth-based field and underwater tests, and ISS flight 
experiments. In FY 2012, AES will use a ground testbed to demonstrate 
the reliability of life support system components, and a portable life 
support system for an advanced space suit will be tested in a vacuum 
chamber. Ground-based analog field tests and underwater tests will 
validate a prototype Deep Space Habitat, where the crew will live 
during transit on long missions, and a Space Exploration Vehicle that 
will allow the crew to closely approach an asteroid, explore its 
surface, and conduct surface exploration outside the vehicle. AES plans 
to use innovative approaches for the rapid development of system 
concepts, such as small, focused teams of NASA engineers and 
technologists working with industry partners to gain hands-on 
experience. AES will pilot these processes to improve the affordability 
of future exploration programs.
Space Operations
    The FY 2012 budget request includes $4,346.9 million for Space 
Operations, funding the Space Shuttle Program retirement, the 
International Space Station Program, the Space and Flight Support 
Program.
    The FY 2012 budget request for the Space Shuttle Program is $664.9 
million. In 2011, the Shuttle is slated to fly out its remaining 
missions. On March 9 Discovery completed mission STS-133, carrying 
supplies to ISS, as well as the permanent a Multi-purpose Module (PMM), 
a Multi-Purpose Logistics Module (MPLM) transformed to remain on orbit, 
expanding the Station's storage volume. In April 2011, Endeavour, STS-
134, will carry the Alpha Magnetic Spectrometer (AMS) and attach it to 
the Station's truss structure. The final Shuttle mission, STS-135, is 
targeted for late June of this year, if funding is available. During 
the mission, Atlantis will deliver critical supplies to the ISS and 
recover and return to Earth an ammonia coolant pump module that failed 
on the Station last year.
    Following the completion of the remaining missions in 2011, the 
Space Shuttle Program will focus on transition, retirement, and 
disposition of program assets and workforce. Approximately 1.2 million 
line items of personal property (e.g., equipment) are associated with 
the Space Shuttle Program, with about 500,000 of these line items 
associated with the Space Shuttle propulsion system elements (the 
Reusable Solid Rocket Motor, the Solid Rocket Booster, the External 
Tank, and Space Shuttle Main Engines). As part of this effort, NASA 
will assess Space Shuttle property (including main propulsion system 
elements) applicability to the Space Launch System.
    On April 12, 2011, we will celebrate the 50th anniversary of human 
spaceflight, and the 30th anniversary of the first flight of Space 
Shuttle Columbia on STS-1. NASA recognizes the role the Space Shuttle 
vehicles and personnel have played in the history of space activity, 
and looks forward to transitioning key workforce, technology, 
facilities, and operational experience to a new generation of human 
spaceflight exploration activities.
    The FY 2012 budget request includes funding for Space Program 
Operations Contract (SPOC) Pension Liability. The United Space Alliance 
(USA) notified NASA of its desire to terminate all defined pension 
benefit plans as of December 31, 2010. USA has consistently 
incorporated and billed the maximum allowable costs into their indirect 
rates, but the recent deterioration of the equities and credit markets 
has caused their plan to be underfunded by an estimated $500-$600 
million. The Space Program Operations Contract, which accounts for 
almost all of USA's business base, is a cost-type contract covered by 
the Cost Accounting Standards (CAS). These standards stipulate that any 
costs of terminating plans are a contractual obligation of the 
Government (if deemed allowable, allocable, and reasonable). NASA and 
USA entered into an agreement under which USA froze their pension plans 
as of December 31, 2010 and deferred any decision about terminating 
their plan until after December 31, 2011, allowing NASA to address this 
issue, if it arises, with FY 2012 funds, if appropriated. USA and NASA 
have instituted a working group to discuss pension termination options 
and have met with the Pension Benefit Guaranty Corporation to discuss 
potential options. If funding remains after the pension plan 
termination, it will be used to defray Space Shuttle closeout costs 
that would otherwise require FY 2013 funding. If there is a shortfall, 
it will reduce available Space Shuttle funds for closeout and some 
activity could move later than planned. We will keep Congress informed 
as this issue evolves.
    The FY 2012 budget request for the International Space Station 
(ISS) Program is $2,841.5 million, of which $1,656 million is for 
operations, research, and utilization, and $1,186 million for crew and 
cargo transportation. The ISS has transitioned from the construction 
era to that of operations and research, with a 6-person permanent crew, 
3 major science labs, an operational lifetime through at least 2020, 
and a growing complement of cargo vehicles, including the European 
Automated Transfer Vehicle (ATV) and the Japanese H-II Transfer Vehicle 
(HTV), the second flights of which are taking place even as we speak. 
The FY 2012 budget request reflects the importance of this unparalleled 
research asset to America's human spaceflight program.
    In addition to conducting research in support of future human 
missions into deep space, astronauts aboard the ISS will carry out 
experiments anticipated to have terrestrial applications in areas such 
as biotechnology, bioengineering, medicine, and therapeutic treatment 
as part of the National Laboratory function of the Station. In support 
of this effort, NASA has recently released a Cooperative Agreement 
Notice (CAN) for a independent Non-Profit Organization to manage the 
multidisciplinary research carried out by NASA's National Laboratory 
partners. This organization will 1) act as a single entry point for 
non-NASA users to interface efficiently with the ISS; 2) assist 
researchers in developing experiments, meeting safety and integration 
rules, and acting as an ombudsman on behalf of researchers; 3) perform 
outreach to researchers and disseminate the results of ISS research 
activities; and 4) provide easily accessed communication materials with 
details about laboratory facilities, available research hardware, 
resource constraints, and more. The FY 2012 budget request for ISS 
reflects increased funding for the transportation required to support 
this research.
    The ISS transportation budget also supports NASA's continued use of 
the Russian Soyuz spacecraft for crew transportation and rescue 
services, pending the availability of a domestic crew transportation 
system, as well as U.S. commercial cargo transportation. The ISS 
transportation budget supports NASA's Cargo Resupply Services suppliers 
as they continue to make progress towards fielding their cargo resupply 
vehicles, which will be critical to the maintenance of ISS after the 
retirement of the Space Shuttle. We anticipate that the first 
commercial resupply flight will take place by the end of this year, and 
that both providers will have their systems operational in 2012.
    The FY 2012 budget request for Space and Flight Support (SFS) is 
$840.6 million. The budget request provides for critical infrastructure 
indispensable to the Nation's access and use of space, including Space 
Communications and Navigation (SCaN), Launch Services Program (LSP), 
Rocket Propulsion Testing (RPT), and Human Space Flight Operations 
(HSFO). The SFS budget also includes investment in the 21st Century 
Space Launch Complex, intended to meet the infrastructure requirements 
of the SLS, MPCV, and commercial cargo/launch services providers. It 
will increase operational efficiency and reduce launch costs by 
modernizing the Florida launch capabilities for a variety of NASA 
missions, which will also benefit non-NASA users
    In FY 2012, the SCaN Program will continue to improve the 
robustness of the Deep Space Network (DSN) through its efforts to 
replace the aging 70m antenna capability with 34m antennae, launch 
Tracking and Data Relay Satellite (TDRS) K and continue the development 
of TDRS L. In the area of technology, we will conduct on-orbit tests 
using the Communication Navigation and Networking Reconfigurable 
Testbed (CoNNeCT), integrate the optical communications system on the 
Lunar Atmosphere and Dust Environment Explorer (LADEE) spacecraft, and 
begin operational space mission use of Disruption Tolerant Networking 
communications. The SCaN operational networks will continue to provide 
communications and tracking services to over 75 spacecraft and launch 
vehicles during FY 2012. The LSP has several planned NASA launches in 
FY 2012 including the NPOESS Preparatory Project (NPP), MSL, Nuclear 
Spectroscopic Telescope Array (NuSTAR), TDRS-K, and RBSP, and will 
continue to provide support for the development and certification of 
emerging launch services. The RPT Program will continue to provide test 
facility management, and provide maintenance, sustaining engineering, 
operations, and facility modernization projects necessary to keep the 
test-related facilities in the appropriate state of operational 
readiness. HSFO includes Crew Health and Safety (CHS) and Space Flight 
Crew Operations (SFCO). SFCO will continue to provide trained crew for 
ISS long-duration crew rotation missions. CHS will identify and deliver 
necessary core medical capabilities for astronauts. In addition, CHS 
will gather astronaut medical data critical for determining medical 
risk as a result of spaceflight and how best to mitigate that risk. 
NASA has enlisted the National Research Council to conduct an 
independent study of the activities funded within NASA's HSFO program, 
focusing on the role, size, and training requirements of the human 
spaceflight office after Space Shuttle retirement and Space Station 
assembly completion.
    The FY 2012 budget request also establishes a new line item called 
Mission Operations Sustainment, which will address future Space 
Operations functions essential to NASA's human spaceflight mission, 
including funding to purchase U.S. commercial crew transportation 
services to and from ISS once they are developed, and key ground and 
space infrastructure improvements required by the Space Network (SN) in 
order to accommodate anticipated demand in the outyears; the Mission 
Operations Sustainment budget would be utilized to fund this 
performance gap. Although the exact amount of funding required for 
these needs is unknown, it is clear that NASA's human spaceflight 
mission cannot be sustained without resources provided by Missions 
Operations Sustainment beyond FY12. The Agency will perform the 
requisite technical and program analysis and planning, and the results 
will be reflected in the FY 2013 budget request.
Education
    The FY 2012 budget request for Education is $138.4 million. This 
budget request furthers NASA's commitment to inspiring the next 
generation of explorers in the science, technology, engineering, and 
mathematics, or STEM, disciplines. In FY 2012, NASA will continue to 
strongly support the Administration's STEM priorities and to capitalize 
on the excitement of NASA's mission to stimulate innovative solutions, 
approaches, and tools that inspire student and educator interest and 
proficiency in STEM disciplines. The Agency's education strategy will 
increase its impact on STEM education by further focusing K-12 efforts 
on middle-school pre-and in-service educator professional development. 
It includes an increased emphasis on providing experiential 
opportunities for students, internships, and scholarships for high 
school and undergraduate students. NASA higher education efforts will 
increasingly target community colleges, which generally serve a high 
proportion of minority students, preparing them for study at a four-
year institution. NASA will use its unique missions, discoveries, and 
assets (e.g., people, facilities, education infrastructures) to inspire 
student achievement and educator teaching ability in STEM fields.
    In FY 2012, NASA will support the Administration's STEM education 
teaching and learning improvement efforts, including the America 
Creating Opportunities to Meaningfully Promote Excellence in 
Technology, Education, and Science (America COMPETES) Reauthorization 
Act of 2010, Race to the Top and Educate to Innovate, while continuing 
efforts to incorporate NASA missions and content into the STEM 
education initiatives of other Federal agencies. This may include 
providing competitions and challenges, supporting clearinghouses of 
Federal STEM education resources, providing high quality professional 
development, and other engagements.
    NASA will continue the Summer of Innovation (SoI) Pilot through 
partnerships with organizations that currently work with girls, 
minorities, and low-income students in grades 4-9 in summer and 
extended learning settings. The SoI project will deepen and broaden the 
efforts of communities and schools to successfully engage these 
students by providing high-quality, inquiry-based content, customized 
support, and access to NASA people, facilities and technology.
    NASA will continue to partner with universities, professional 
education associations, industry, and other Federal agencies to provide 
K-12 teachers and university faculty with experiences that capitalize 
on the excitement of NASA discoveries to spark student interest and 
involvement in STEM disciplines. Examples of experiences include 
research and hands-on engineering in our unique facilities and on a 
variety of real-world platforms that include high-altitude balloons, 
sounding rockets, aircraft, and satellites. NASA will also partner with 
science centers, museums, planetariums, and community-based education 
providers to allow informal educators to engage students in NASA's 
real-time, cutting-edge science and engineering discoveries and 
challenges. The FY 2012 budget request places increased emphasis on 
cyber-learning opportunities and the use of the ISS National Laboratory 
to engage students (at all levels) in launch activities, research and 
engineering grants, and courses based upon NASA science and 
engineering.
    In FY 2012, the Agency aims to increase the availability of 
opportunities to a diverse audience of educators and students, 
including women, minorities, and persons with disabilities. An example 
is the Innovations in Global Climate Change Education project that will 
be implemented within the Minority University Research and Education 
Program (MUREP). The project provides opportunities for students and 
teachers to conduct research using NASA data sets to inspire 
achievement and improve teaching and learning in the area of global 
climate change.
Cross-Agency Support
    The FY 2012 budget request includes $3,192.0 million for Cross 
Agency Support, which provides critical mission support activities that 
are necessary to ensure the efficient and effective operation and 
administration of the Agency. These important functions align and 
sustain institutional and program capabilities to support NASA missions 
by leveraging resources to meet mission needs, establishing Agency-wide 
capabilities, and providing institutional checks and balances. Within 
this budget request, NASA has taken steps to reduce its administrative 
expenses, including a partial hiring freeze and reduced travel.
    NASA's FY 2012 budget request includes $2,402.9 million for Center 
Management and Operations, which funds the critical ongoing management, 
operations, and maintenance of nine NASA Centers and major component 
facilities. NASA Centers provide high-quality support and the technical 
engineering and scientific talent for the execution of programs and 
projects. Center Management and Operations provides the basic support 
required to meet internal and external legal and administration 
requirements; effectively manage human capital, information technology, 
and facility assets; responsibly execute financial management and all 
NASA acquisitions; ensure independent engineering and scientific 
technical oversight of NASA's programs and projects in support of 
mission success and safety considerations; and, provide a safe, secure, 
and sustainable workplace that meets local, state, and Federal 
requirements. Cross Agency Support also funds salary and benefits for 
civil service employees at NASA Centers who are assigned to work on 
Center Management and Operations projects. In addition, the account 
contains Center-wide civil service personnel costs, such as 
institutionally-funded training.
    NASA's FY 2012 budget request includes $789.1 million for Agency 
Management and Operations, which funds the critical management and 
oversight of Agency missions, programs and functions, and performance 
of NASA-wide activities, including five programs: Agency Management, 
Safety and Mission Success, Agency Information Technology Services, 
Strategic Capabilities Assets Program, and Agency Management and 
Operations Civil Service Labor and Expenses. Agency Management supports 
executive-based, Agency-level functional and administrative management 
requirements, including, but not limited to: Health and Medical, 
Environmental, Logistics, General Counsel, Equal Opportunity and 
Diversity, Internal Controls, Procurement, Human Resources, and 
Security and Program Protection. Agency Management provides for the 
operational costs of Headquarters as an installation; institutional and 
management requirements for multiple Agency functions; assessment and 
evaluation of NASA program and mission performance; strategic planning; 
and, independent technical assessments of Agency programs.
    Safety and Mission Success activities are required to continue 
improving the workforce, and strengthening our acquisition processes, 
including maintaining robust checks and balances, in order to improve 
the safety and likelihood of mission success for NASA's Programs 
throughout their lifecycles. The engineering, safety and mission 
assurance, health and medical independent oversight, and technical 
authority components are essential to NASA's success. They were 
established or modified in direct response to several major Government 
accident and mission failure investigation findings in order to reduce 
the likelihood of loss of life and/or mission in our human and robotic 
Programs. The budget request also supports operation of three 
activities that each provides a unique focus in support of the 
independent oversight and technical authority implementation: the 
Software Independent Verification and Validation (IV&V) program; the 
NASA Engineering and Safety Center (NESC); and the NASA Safety Center 
located at the Glenn Research Center.
    Agency Information Technology Services (AITS) encompasses Agency-
level cross-cutting services and initiatives in Information Technology 
(IT) innovation, business and management applications, and 
infrastructure necessary to enable the NASA Mission. AITS includes 
management of NASA's scientific and technical information; identity, 
credential and access management services; overarching information 
security services; enterprise-level business systems; and, other Agency 
operational services, such as e-mail, directory services, and 
enterprise licenses. NASA's Security Operations Center (SOC) will 
continue to mature capabilities to improve security incident 
prevention, detection, response, and management. NASA will continue 
implementation of major Agency-wide procurements to achieve: (1) 
consolidation of IT networks leading to improved network monitoring, 
management and reliability; (2) consolidation of desktop/laptop 
computer services and mobile devices to achieve improved security and 
enable NASA Centers and programs to realize improved efficiencies; (3) 
consolidation of Agency public website/application management to 
improve the Agency security posture and to facilitate access to NASA 
data and information by the public; (4) minor enhancement and 
maintenance of integrated Agency business systems to provide more 
efficient and effective Agency operations; and, (5) reduction in 
overall Agency data centers and related infrastructure currently funded 
outside the AITS budget.
    The Strategic Capabilities Assets Program (SCAP) funds key Agency 
test capabilities and assets, such as an array of flight simulators, 
thermal vacuum chambers, and arc jets, to ensure mission success. SCAP 
ensures that assets and capabilities deemed vital to NASA's current and 
future success are sustained in order to serve Agency and national 
needs. All assets and capabilities identified for sustainment either 
have validated mission requirements or have been identified as 
potentially required for future missions, either internally to NASA or 
by other Federal entities.
    The Agency Management and Operations Civil Service Labor and 
Expenses funds salary and benefits for civil service employees at NASA 
Headquarters, as well as other Headquarters personnel costs, such as 
mandated training. It also contains labor funding for Agency-wide 
personnel costs, such as Agency training, and workforce located at 
multiple NASA Centers that provide the critical skills and capabilities 
required to execute mission support programs Agency-wide.
Construction and Environmental Compliance and Restoration
    The FY 2012 budget request includes $450.4 million for Construction 
and Environmental Compliance and Restoration. NASA Construction and 
Environmental Compliance and Restoration provides for the design and 
execution of all facilities construction projects, including discrete 
and minor revitalization projects, demolition of closed facilities, and 
environmental compliance and restoration. The FY 2012 budget request 
includes $397.9 million for the Construction of Facilities (CoF) 
Program, which funds capital repairs and improvements to ensure that 
facilities critical to achieving NASA's space and aeronautics programs 
are safe, secure, sustainable, and operate efficiently. The Agency 
continues to place emphasis on achieving a sustainable and energy-
efficient infrastructure by replacing old, inefficient, deteriorated 
buildings and horizontal infrastructure with new, efficient, and high 
performance buildings and infrastructure that will meet NASA's mission 
needs while reducing the Agency's overall footprint and future 
operating costs. The CoF program prioritizes this budget based on risk 
of impact to NASA and Center missions, safety issues and accessibility. 
The FY 2012 budget request includes $52.5 million for the Environmental 
Compliance and Restoration (ECR) Program, which supports the ongoing 
clean up of sites where NASA operations have contributed to 
environmental problems. The ECR Program prioritizes these efforts to 
ensure that human health and the environment are protected. This 
program also supports strategic investments in sustainable 
environmental methods and practices aimed at reducing NASA's 
environmental footprint and lowering the risk of future cleanups.

    Senator Nelson. I want to start with you, Dr. Whitlow. I 
want you to tell us if a budget or continuing resolution were 
to be passed with the $298 million cut that would come off of a 
cross-agency support account, which is what passed the House of 
Representatives, how many jobs would that be that would be 
lost?

STATEMENT OF DR. WOODROW WHITLOW, JR., ASSOCIATE ADMINISTRATOR, 
               MISSION SUPPORT DIRECTORATE, NASA

    Dr. Whitlow. With a cut of that magnitude, coming this time 
of year, which is halfway through the Fiscal Year, we estimate 
that it would require us to reduce about 4,500 contractor jobs 
across the agency. And that's about half of our onsite 
contractor work-year capability.
    Senator Nelson. And do you recall, out of those 4,500, how 
many there would be cut from the Johnson Space Center?
    Dr. Whitlow. It's over 800; it's approximately 850.
    Senator Nelson. And how many from the Kennedy Space Center?
    Dr. Whitlow. Somewhere--a little smaller than that, but I 
could take that for the record and get you an exact number.
    [The information requested follows:]

    The FY 2011 Full-Year Continuing Appropriations Act (P.L. 112-10), 
which was enacted on April 15, 2011, funds NASA Cross Agency Support 
(CAS) at the FY 2011 President's Request level. If the provision 
included in H.R. 1--directing a $298M reduction to NASA's Cross-Agency 
budget--had been enacted, the reductions would have occurred so late in 
the operating year that they would have resulted in thousands of 
layoffs to on-site contractors, with 50 percent of NASA's contractor 
workforce at risk. That level would equate to over 4,500 layoffs across 
all of NASA's Centers. The number of impacted jobs at KSC would have 
been approximately 730. As the reduction was not included in enacted 
legislation, the Agency did not proceed to make specific determinations 
for implementing such direction and no NASA Centers were identified for 
such an action.

    Senator Nelson. Somewhere close, you said----
    Dr. Whitlow. Yes.
    Senator Nelson.--to the 800 that would be lost----
    Dr. Whitlow. Correct.
    Senator Nelson.--in the Johnson Space Center.
    Dr. Whitlow. Correct.
    Senator Nelson. And explain that--since there are only 6 
months left in the fiscal year, what would be the impact of 
implementing that cross-agency support cuts so late in the 
fiscal year?
    Dr. Whitlow. Well, the cross-agency support budget provides 
for the maintenance operation and management of our field 
centers and the associated installations across the agency. We 
have been spending at a rate that assumed no reductions to the 
cross-agency support budget this fiscal year. So, we now would 
have to take that full cut in half of the year, a cut of that 
magnitude would be equivalent to shutting, say, two of our 
smallest centers, and we would not be able to provide the 
capabilities to operate our facilities across the agency.
    Senator Nelson. And what are the two centers that would 
shut down?
    Dr. Whitlow. Well, it's the equivalent to, say, two small 
centers. I have not considered any two specific centers, but 
just two smaller centers. Yes.
    Senator Nelson. But, it could be something like Dryden? 
Could be something like Ames?
    Dr. Whitlow. It would be----
    Senator Nelson. Could be something like Stennis?
    Dr. Whitlow. Yes, two of the smaller centers. But, we have 
not identified any two centers.
    Senator Nelson. OK.
    Mr. Cooke and Mr. Gerstenmaier, you heard what Senator 
Hutchison said. And there have been too many headlines recently 
that said that NASA can't, and won't, build a heavy-lift 
launcher. Now, that, of course, is not what the authorization 
law says. What is it that you understand the NASA authorization 
law to require? Either one of you.

                 STATEMENT OF DOUGLAS R. COOKE,

     ASSOCIATE ADMINISTRATOR, EXPLORATION SYSTEMS MISSION 
                       DIRECTORATE, NASA

    Mr. Cooke. Thank you, Senator Nelson.
    Also, before I get started, I would like to thank you for 
your very kind remarks. I certainly appreciate your leadership 
and incredible efforts to work with your colleagues and staff 
and the administration to pass the Fiscal Year 2010 
Authorization Act.
    The Authorization Act laid out an approach to a heavy-lift 
vehicle and a crew vehicle, which we, honestly, have taken very 
seriously with an expiration, and have been working on it since 
the Act was signed. We have decided on a reference design 
vehicle that was called out for in the Act, which are Ares and 
Shuttle-derived, for the launch vehicle. The crew vehicle, the 
MPCV, or multipurpose crew vehicle, reference design vehicle 
was chosen to be the Orion spacecraft that we have under 
development at this point. So, those are our reference design 
vehicles. We are working with those in, I believe, accordance 
with the Authorization Act. We have teams in place that are 
putting more detail on those designs.
    We're looking at alternative designs to challenge and/or 
validate those concepts. We think that's appropriate, in order 
to be able to answer the hard questions that we'll undoubtedly 
have to answer, in terms of our final selections.
    So, we are moving ahead. We actually have sent up 
notifications now for program offices for the crew vehicle, 
MPCV, at Johnson Space Center; and the heavy-lift vehicle, at 
Marshall Space Flight Center; and a commercial crew office, at 
Kennedy Space Center. So, we are moving it out. We also have 
procurement teams that are looking, in detail, at the contracts 
that we currently have for Ares-1 and for the Orion Spacecraft, 
and mapping those requirements to understand the scope of those 
contracts and how our existing work fits, or doesn't. We have 
been through, on the crew vehicle, working with procurement and 
legal, and have a procurement determination that the MPCV is 
within scope of the Orion contract.
    So, I would say that we are moving with all haste, in my 
view, to try and get to final decisions and designs, making 
sure we have efficient contracting approaches, making sure that 
we are looking at efficiencies down the road. It is a 
constrained budget environment, so it's important that we look 
at all the possibilities for gaining efficiencies in our 
programs and projects. We're looking at the oversight models 
for these contracts, so that we don't have more people 
overseeing the contractors than necessary. It's going to be 
more of a risk-based approach.
    Senator Nelson. OK, let me just stop you here. I want to 
get to more specifics.
    Mr. Cooke. OK.
    Senator Nelson. Do you understand the authorization law to 
say that you should start designing in the range of 70 to 100 
tons that is evolvable to 130 tons?
    Mr. Cooke. Yes, sir.
    Senator Nelson. OK.
    Mr. Cooke. And----
    Senator Nelson. Then why do we hear commentary--and is it a 
misstatement--that NASA cannot afford to build a rocket with 
the capability of 130 tons, when, in fact, that's not what the 
law says? The law says that you start and that becomes 
evolvable, which is what you've just testified.
    Mr. Cooke. Yes. Our approach is that we are looking at an 
evolvable design, starting in the 70- to 100-metric-ton range, 
that's called out in the Authorization Act, which is 
appropriate for first steps. That is evolvable, ultimately, to 
130 metric tons. We are working through understanding how that 
fits, in terms of cost-phasing over the years, in order to 
develop that initial capability and then evolve it. Based on 
our own studies, a fairly natural progression, in terms of 
developing that capability. So, I can tell you that our teams 
are approaching it that way.
    Senator Nelson. Well, it's been reported to have been said 
by the agency Chief Technologist, Bobby Braun, that the 
development of a heavy-lift capability will not be available 
for a decade. Now, that's not consistent with what you've said 
right here, nor is it consistent with discussions with the 
Administrator.
    Mr. Cooke. I can tell you what the teams are doing, that 
are actually doing the work on this, they are working within 
the budget guidelines that we have, in an integrated way, 
between the crew vehicle and the heavy-lift vehicle, to map out 
a program plan of budget and schedule to develop these 
capabilities, both of them, in an evolvable way, to get to the 
earliest possible dates on flying. They're not finished with 
that work, so I don't have a date to give you. But, I can tell 
you that they are working in an integrated fashion to come up 
with that earliest possible availability.
    Senator Nelson. Mr. Gerstenmaier, do you have anything to 
add?

  STATEMENT OF WILLIAM GERSTENMAIER, ASSOCIATE ADMINISTRATOR, 
               SPACE OPERATIONS DIRECTORATE, NASA

    Mr. Gerstenmaier. I think Doug described it pretty well.
    We're working very hard to make sure we have a credible 
plan to go forward. It's taking us a little time for the teams 
to get together and integrate, to make sure that we've got a 
program that can deliver and meet the budget constraints that 
we understand that are out in front of us. So, we're not doing 
this lightly. We understand the Authorization Act. We think it 
gives us a good guidance. The teams are fully moving in that 
direction, and will be ready to update the report in the 
spring/summer timeframe, and give you the latest outcome from 
the report or from what the teams have done over the past 
several months.
    Senator Nelson. Well, let me ask you this. Now, we've 
talked in more generalities here. I want to know how soon can 
you be testing the initial heavy-lift capability with the 
proposed funding levels?
    Mr. Cooke. That is the subject of our current studies. They 
are working toward getting a date. They are trying to get test 
flights as early as 2016, but that remains to be finalized and 
worked in a integrated fashion. But, they are trying to get to 
a date of that timeframe.
    Senator Nelson. When do you think you'll have that answer?
    Mr. Cooke. We plan to update our report as Bill said, in 
the spring/summer timeframe. We have to get through a series of 
decisions and our procurement approaches in the next couple of 
months to be able to do that.
    Senator Nelson. Senator Hutchison?
    Senator Hutchison. Let me just put a fine point on the 
first series of questions that the Chairman asked. And that 
is--one of the things I said in my opening statement, is that 
it doesn't seem like the contracts are being modified to 
address the law that uses the technologies that we have, taking 
the next step forward. But, it is our understanding that you 
received a general counsel opinion from NASA that said that you 
could, without violating any prohibitions on new starts, move 
forward, setting up the program offices and starting the 
implementation of the law. And it is further my opinion that 
you now are setting those offices up.
    This is my question: Are there any legal impediments, in 
the minds of those of you who are running the operations at 
NASA, to your moving immediately to the modification of useful 
contracts, initiation of aggressive vehicle design efforts for 
the heavy-launch vehicle, and other requirement of the Act?
    Mr. Cooke or Mr.----
    Mr. Cooke. As you said, we are setting up program offices, 
and we have the notifications up here. I think the time is 
almost up for that timeframe. In terms of the specific 
contracts that we have, for instance, on the crew vehicle, 
MPCV, we have changed and scaled back some work on that, 
partially due to budget, but also, as we do that, we are 
focusing it toward where the future lies, in terms of the 
Authorization Act.
    In terms of the existing contracts for Ares-1, which 
includes the first stage, upper stage, and avionics unit, and 
J2X engine, we are progressing on those and focusing that work 
on work that would apply to heavy-lift vehicles. It is a little 
different, in that it was going from a lower-performance 
vehicle to a heavy-lift vehicle. But, we have focused efforts 
on those contracts to be as specific as possible to this future 
of a heavy-lift vehicle.
    Senator Hutchison. Am I to take, then, from your answer 
that you are--where the contract is one that will be ongoing, 
but with modifications, that you are beginning to make those 
modifications, so that you will keep your experienced workforce 
going to the next transition vehicle or launch system?
    Mr. Cooke. We are, at this point, focusing those in that 
direction. We still have to come up to agency decisions, in 
terms of final procurement regulations on how we would make the 
set of acquisition decisions for a heavy-lift vehicle, and 
would then have to apply those specific contracts for Ares-1, 
if they can apply to that vehicle, provided that that is where 
we get to in those decisions.
    There are a number of things feeding that decision. And 
that is that we are assessing those contracts for whether or 
not the current contracts have this new capability within 
scope. So, there is a significant effort on understanding that.
    There are also studies that we have at Marshall Space 
Flight Center looking at alternate concepts that will either 
validate or challenge this approach, one of which is looking at 
LOX-Rp engines, one is looking at what we call a modular 
approach.
    We also have industry participation and study contracts 
that we have had out on the street and that they have been 
working to over the last few months. They're 6-months contracts 
that will help advise us to make sure that we get to a decision 
of cost-effective vehicle, making sure that we have the input 
and assess those inputs from, not only our internal teams, but 
industry teams, as well.
    So, we have not gotten to final decisions on the 
acquisition on the heavy-lift vehicle or the crew vehicle, 
because we need to understand how these current contracts 
apply, whether that is the best value for the American people 
and the government; and we need to understand the phasing of 
those contracts, in an integrated sense, within the budget 
constraints that we see.
    So, I hope that is----
    Senator Hutchison. Well----
    [Laughter.]
    Senator Hutchison. I'm trying to get a--just a clear answer 
to whether you are going in the direction that the law asked 
you to go, or actually told you to go.
    [Laughter.]
    Senator Hutchison. And are you doing that? And are you 
doing it in a timely way?
    Mr. Cooke. I believe that the work that we have ongoing is 
headed in that direction, for those specific contracts we have 
underway. We have not gotten to the final decisions on the 
final design of the heavy-lift vehicle.
    Senator Hutchison. But, you're moving along the----
    Mr. Cooke. Yes.
    Senator Hutchison.--lines that the law requires. I'm not--
--
    Mr. Cooke. Yes.
    Senator Hutchison.--saying you have to----
    Mr. Cooke. I believe so.
    Senator Hutchison.--have designated----
    Mr. Cooke. Right.
    Senator Hutchison.--who your final contract is going to be 
with. Obviously, you have all the procurement issues there.
    Mr. Cooke. Right.
    Senator Hutchison. But, are you moving toward the type of 
use of present technology, but with the further mission, beyond 
the present one, of using our technology but also being able to 
adapt it later for beyond-Earth orbit, and all of the relevant 
pieces of that?
    Mr. Cooke. As I understand your question, I believe we are.
    Senator Hutchison. Thank you.
    My time is up, Mr. Chairman. Let me ask one other question.
    And that would just be: Are you satisfied that--after the 
April Shuttle, that we will then move on to the last one, that 
is now scheduled for June, to finish the delivery of everything 
that we believe will be needed for the International Space 
Station? And the equipment that we will need for it, and any of 
the other pieces, in that June mission, that we're going to 
need for repair and whatever it will take, over the period that 
we are not going to have Americans being able to go in 
shuttles?
    Mr. Gerstenmaier. Yes. We're moving out fully to support 
STS-135, as you've described, from a manifest standpoint. We've 
identified all the cargo that we need to carry on that flight. 
We're starting to identify what cargo we might return from 
Space Station, because that's a critical capability we'll lose 
temporarily, when the Shuttle goes down, until the new 
commercial providers come online. So, we're moving out for that 
mission. The only concern is that, if we got a significant 
budget cut somewhere here in the CR activity, that could 
potentially cause some concerns for us to execute that flight, 
just from a budget standpoint. Unless we get a pretty dramatic 
budget cut, we plan to go execute that mission.
    We see that mission as extremely critical to us. What that 
mission provides for us is, it gives us some margin that, if 
the commercial providers are a little bit late, and they don't 
fly in late 2011 and in 2012, as they've been planning, then 
we've got some time, through 2012, that we'll have enough 
supplies pre-positioned on Space Station that we can continue 
to do quality research, we continue to keep our crew size at 
six onboard, stationed through that period of 2012 all the way 
until 2013. If we don't have that Shuttle flight, then it's 
absolutely mandatory that the commercial cargo providers come 
online at the end of this year and early into 2012. I don't 
think that's a prudent strategy. We need some margin.
    Even in a shuttle world, we thought we understood where we 
were going to go fly, then we had the tank problem that slowed 
us down a couple months. I would expect small problems to show 
up in a commercial provider's side, as well. We need some 
margin to do that, and that's the criticality of STS-135 for 
us. It provides us, essentially, that 1 year of margin that can 
really make or break the critical research onboard Space 
Station.
    We really want to get to where we're utilizing the Station 
as a full-up research facility, getting the most out of the 
crew, the most out of the research we've got on orbit. And to 
do that, we need to get the Station resupplied with the Shuttle 
while we can use that asset, and then we can let the commercial 
providers come online throughout the period of 2012 and into 
2013.
    Senator Hutchison. Well, thank you very much, because that 
allays my concerns, to a great extent. Because this--if we 
aren't going to use the Space Station, we have thrown a whole 
lot of money away and we have let down our allies, who have 
made significant contributions to the Space Station. And it was 
a concern of the Chairman's and myself, both--that we weren't 
going to fully stock it. And, in fact, the payload that we're 
taking up in April, the spectrometer, was something that we 
insisted on, in the previous administration, with the previous 
Administrator. And so, I'm very pleased that we're going to 
take that, because I think it has great potential for research. 
And then, beyond that, we just have to stock so that we do 
address the eventuality that you have addressed. It's just not 
good policy not to.
    Let me just end by saying that, I believe that the 
sentiment on the Hill now is that this would be the last 
temporary continuing resolution that we will pass, and that we 
must go to the long-term continuing resolution that takes us 
through the end of the Fiscal Year, so that you know what 
you're going to have to spend, so that the Department of 
Defense knows what it has to spend. And I think there are 
certain areas of our budget that we cannot allow to continue to 
go in 2-week increments. It's just not feasible. And certainly, 
NASA is one of those that, I have been bringing up repeatedly, 
must be in a long-term CR. And that must be the next one, after 
this 3-week one that is before us.
    So, I do thank you very much.
    And I thank you for indulging me a little beyond my time.
    Senator Nelson. And again, Senator Hutchison, thank you for 
your continued vigilance throughout this process.
    And thank you, Mr. Gerstenmaier, for a very clear answer 
about the cargo of STS-135 and the importance of that last 
Shuttle flight.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    And again, thank you, Mr. Cooke, for your service to your 
country in so many different ways.
    I'm a little confused that in talking about this, we're 
talking about long-range plans in reference to the budget. Are 
you referring to the administration's budget, or are you 
referring to the guidelines that were submitted by the 
authorization bill that became law that everyone worked so hard 
to get done?
    Mr. Cooke. Actually, we are looking at the budget request 
that came out this year, as we study these approaches. We're 
also looking at a more unconstrained way, in terms of budget, 
to show more or less how early these kind of capabilities could 
be brought online.
    Senator Boozman. But, in the questions that you answered, 
again, were you talking about the President's budget or the 
proposed authorized budget that's in law?
    Mr. Cooke. We are looking, in these studies, at the 
President's requested budget. We are looking more broadly than 
that, at what it takes beyond that in an unconstrained sense, 
in terms of dates and that sort of thing.
    Senator Boozman. So, again--so, you're looking at it in 
terms of the President's budget, versus what the authorization 
is, in regard to my hearing the answers to your questions.
    Mr. Cooke. That is a primary objective of these studies, 
yes.
    Senator Boozman. So, who changed the budget? Who made that 
decision?
    Mr. Cooke. Obviously, the budget that is in the request is 
in request and we have the Authorization Act. And I think the 
answers that we'll have will answer to each.
    Senator Boozman. When was it changed?
    Mr. Cooke. The point at which we started to study the 
President's request was when we received that, when it was 
rolled out.
    Senator Boozman. Well, I assume that you guys had input 
prior to that.
    Mr. Cooke. We did work back and forth in terms of impacts 
of various approaches. So, yes, we were aware of that process.
    Senator Boozman. In recent testimony before the House, 
Administrator Bolden stated that--meeting the 2016 deadline for 
less--for the space-launch system and the multipurpose crew 
vehicle, was difficult to get done. But, then he went on to say 
that he wasn't saying he couldn't do that. For the Fiscal Year 
2012--2012 request, it has $1.3 billion less than the amount 
authorized for the two systems. It seems to represent a self-
fulfilling prophecy. Is there any way that you believe that you 
could actually meet the 2016 contingency availability of the 
systems at the funding levels projected in the Fiscal Year 2012 
request?
    Mr. Cooke. We are still working that, sir. That is what 
will be a part of our results later this spring and summer. As 
a part of that effort, in terms of stating whether we can or 
can't meet the 2016 date, the wording that we had in our 
initial report talked to whether or not we thought we could 
meet that date. When we talked about it there, we also 
qualified that by saying that we realize that it was important 
that we--let me just step back. When we talked about that, that 
was our initial study, based on conventional development 
approaches and costing methods, and we said that in the report. 
We realize that, in moving forward, we need to come up with 
more efficient approaches to how we develop these space 
vehicles than we have in the past.
    We have significant efforts in understanding oversight 
models, supporting infrastructure needs, the right level of 
requirements to put on contracts, a number of other areas 
specific to trying to get costs down. So, that would lead you 
to, probably, a different estimate, in terms of availability 
date. If we can get efficiencies, that tends to bring the date 
back to the left.
    So, those are the kind of things that we put a lot of 
effort into understanding. And we don't have the results of 
that yet, but we're trying in earnest to get dates as early as 
we can with those approaches.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Nelson. Senator, those were excellent questions.
    You all are constrained, you're conflicted because you've 
got to defend the President's request and yet there's a law, 
and it's called the NASA Authorization Act of 2010. And the two 
are in conflict. And the President's budget is not going to be 
enacted. And we're trying to get from here to there, and stop 
this $600 billion cut that the House came forward with, which, 
as you said Dr. Whitlow, was over 800 jobs, it's a little 
less--that was at Johnson--cut; Kennedy, almost the same 
amount. We even missed the 816 jobs cut at Goddard Space Flight 
Center. We're trying to get from here to there, and the two are 
in conflict. And the President's budget is not going to be 
passed in this Congress. So, you all have got to help us get 
there.
    Senator Rubio.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. I just want to build on what the--what 
Senator Boozman's asked already, and maybe phrase it a 
different way; but, it's the same question. I think what the 
Senator was getting at, we have this interim report that 
basically says, ``Look, with the amount of money you guys have 
given us or the amount of money that we have, we're not ever 
going to be able--we don't think we can build this by 2016, 
although everyone's saying that we want to build this by 
2016.''
    And then we get a recommended budget, from the President, 
that actually cuts it even more. So, I think what, one a bigger 
level, what we're really--I think the question really is, you 
know, what is the level of commitment to getting this done at 
anytime in the near future? Because, certainly these budget 
requests are statements of vision, or lack thereof. And so, 
my--I mean, the--and obviously, you're in a difficult position, 
or you're in a unique position, I suppose, of having to both 
speak on behalf of what the agency's vision is and, at the same 
time, having to explain the President's budget. But, we look at 
it, at least I do--I mean, this is--I've only been here a few 
weeks, but it didn't make a lot of sense to me that you're 
saying you're trying to get something done by a certain period 
of time, and the money you already have dedicated to it is now 
not enough, but we're going to cut it even further.
    And I think that's really what the question goes to the 
heart of. And so, I mean--I guess my question is, How serious 
is NASA, and is this administration, about building these 
programs?
    Mr. Cooke. I believe NASA is serious about building these 
programs. The questions that you ask end up being questions of 
priority and policy that are decided at different levels. I can 
tell you that the people that work at NASA are amazing in their 
drive to implement under the constraints and direction they're 
given. We have a tremendous workforce that will work tirelessly 
and commit to doing these programs within budgets, and they'll 
find the best ways to do it. So----
    Senator Rubio. But, you would agree that----
    Mr. Cooke.--that's where we are.
    Senator Rubio.--I mean, you would concede that we get a 
report saying, ``The money we have is not enough to finish it 
by 2016,'' and then a budget comes out that says, ``We're going 
to cut that inadequate budget even further''--you would concede 
that there is a conflict there, at least certainly in terms of 
what it would appear like.
    Mr. Cooke. Well, there's certainty in what you say, the 
budget request, it is less. There's no doubt about it. It's 
numbers that are written down. This is a matter of balance and 
priorities, and it's a NASA priority to develop commercial crew 
transportation to and from Earth orbit. So, it's a question in 
policy, I believe, of where you draw that balance. All I can 
tell you is that the folks that work for ESMD in human 
spaceflight will endeavor to develop the systems, and want to 
develop these systems, within constraints that we have. We 
always do that.
    Senator Rubio. Well, again, I don't--never question the 
professionalism of the folks at NASA, who do a phenomenal job. 
I would just say that, from our vantage point, priorities on 
paper is one thing, what an administration is willing to put 
its name behind is something else. And when they issue a budget 
that cuts the funding of a so-called priority, obviously people 
are going to ask questions.
    I wanted to--quite frankly, people are going to doubt--I 
mean, that's the bottom line--that that truly is a priority, 
when you're cutting funding to it, like this President's budget 
does.
    Kind of an unrelated topic, something I was asked about 
earlier today, minutes before coming here. There was a 
Government Accountability Office report from 2007 and 2009 that 
cited NASA losing track of its equipment, more than $8.7 
million of equipment, in the past 5 years. Could--can you 
comment, or anyone comment, on what's been done to--are you 
familiar with that news account? And, if so, can you comment at 
all what steps that have been taken to prevent that from 
happening in the future? If you haven't read that news report, 
or what have you, (a) that's problematic, and (b) I probably 
need to share it with you. I was just asked about it. Moments 
ago, I was handed a copy of it. Is anyone familiar with that?
    Dr. Whitlow. Yes, we are familiar with the study that's 
been done to track our equipment. $8.7 million is a significant 
amount; a very relatively small percentage of our total assets, 
though. So, what we're doing is, we have been implementing 
programs and efforts to do better tracking of our equipment, 
and know who signs them out, who owns them, who they're 
assigned to. We're making every effort that we can to reduce 
that.
    Senator Rubio. What kind of equipment more or--because it 
didn't specify--what kind of equipment are we talking about?
    Dr. Whitlow. Some of it includes----
    Senator Rubio. Obviously, not a rocket. But, I mean, you 
know.
    Dr. Whitlow. No. Some of it includes computer equipment and 
other relatively small things. But, over an agency our size, 
they add up to a number of the size that you mention.
    Senator Rubio. So, there's--have steps been taken, 
specifically in--as a result of this report, to prevent that 
from happening in the future?
    Dr. Whitlow. I'd have to take that for the record and get 
you specific steps that are being taken across the agency.
    [The information requested follows:]

    NASA is strongly committed to its responsibility to the American 
taxpayers for the stewardship of government property. While the Agency 
consistently stays below its own internal property Joss benchmark of 
0.5 percent property loss and well below the accepted ASTM 
International commercial industry standard of 2 percent, NASA 
continuously assesses people, process and technology improvements to 
minimize property losses. Some of these recent efforts to help improve 
our property management accountability include revisions to NASA's 
Equipment Management Policy; establishment of monthly meetings with 
Center equipment managers to monitor recoverability and corrective 
actions plans; upgrades to the property management system to enhance 
the computation and rationale behind an identified loss; educational 
outreach initiatives for the workforce regarding property 
accountability awareness; and logistics reviews at NASA Centers to 
monitor equipment accountability processes and procedures.
    NASA is also implementing a new policy that will strengthen and 
enforce user accountability for equipment loss to include: (1) 
providing guidance on the minimum level of care NASA expects employees 
to exercise over equipment and the circumstances under which employees 
will be held accountable for equipment loss; (2) strengthening NASA's 
accounting for electronic storage devices that contain NASA information 
or other electronic devices costing less than $500; (3) requiring that 
all packages sent through central receiving are opened and tagged 
accordingly-regardless of whether they are procured through a purchase 
card or purchase order; and (4) establishing and enforcing property 
management training requirements for all personnel involved in the use, 
stewardship, and management of equipment, including end users, central 
receiving warehouse personnel, purchase card holders, and property 
custodians.
    NASA has taken specific actions to mitigate the risk of property 
loss across the Agency. The following specific actions focus on the 
areas of people, process and technology:
People
    Pursue the availability and application or mission funds to endorse 
the training and education of equipment management personnel across the 
agency. This successful approach enabled stakeholders to enroll in 
webinars hosted by the National Property Management Association, NPMA. 
Over 150 personnel attended courses such as: Actions to Reduce Lost 
Property, Managing Electronics Disposal, Applying Industry Leading Best 
Practices, and lately, the enrollment of 7 personnel to attend a 
National Education Seminar hosted by NPMA.
    Development of a quarterly Equipment Management Newsletter to 
provide the latest business practices on equipment management, from 
acquisition to disposal, and to keep stakeholders across the agency 
informed of the latest innovations and initiatives affecting the 
equipment management program, i.e., physical inventory procedures, the 
calculation of equipment loss rate, updates to GAO recommendations, 
trading-in equipment, pre-inventory activities, etc.
    Development of an Equipment Management Training Video. NASA has 
reinforced efforts to achieve equipment control through enhanced 
viewing of our newly developed property management video which stressed 
the importance of property accountability and the day-to-day management 
of NASA property. The 14 minute web-based video is available in SATERN 
and was broadcasted via internal NASA television. The video introduces 
the ability to provide visibility of total property assets and 
encourages the use of the property management system. In addition to 
the video, continued communication with property personnel occurs via 
video conferencing and teleconferences. All forums stress the benefits 
to NASA of personal property reutilization and the value of the 
Personal Property & Equipment system.
    Development of the Equipment Management Program Website. This 
website, within LMD, provides a description and/or definitions of the 
purpose, program objectives, program and individual responsibilities, 
as well as links to governing NASA policies and other functional links 
that offer useful guidance and information on training opportunities to 
the equipment management community across the agency.
Process
    Compensating Controls Review Program (CCR) which evaluates the 
performance of NASA Logistics Operations and provides an assessment of 
center compliance with Agency policy and procedures. The current review 
approach was established as a direct result of General Accounting 
Office (GAO) and NASA's Inspector General (IG) audits. These external 
audits identified some of NASA's property and equipment management 
areas lacking sufficient controls and requiring corrective actions. 
Therefore, the CCR process was instituted to evaluate the adequacy and 
consistency of Agency policy execution and procedural compliance with 
NASA guidance on equipment, disposition, and contractor property, among 
other areas.
    Baseline Performance Review (BPR) is the Agency's forum for 
performance management of its programs/projects and mission support 
functions and is results-oriented. The BPR serves as NASA's senior 
management monthly review of performance integrating vertical and 
horizontal Agency-wide communication of performance metrics, analysis 
and independent assessment. The BPR encompasses all mission activities 
including the equipment management program and other logistics 
functions. The forum is designed to be actionable, supporting the 
Agency decision-making councils.
    Continuously review applicable governing NPDs and NPRs to 
strengthen or update current business practices. The continuous review 
of equipment management regulations aims to reinforce existing policy 
and to ensure adherence to Federal regulations. For instance, the 
Logistics Division will strengthen and enforce NASA's policy on 
equipment wall-to-wall physical inventory by transitioning from 
triennial to annual inventory campaigns starting in FY 2013, as well as 
the revision of the annual walk-through inspection, and the policy 
regarding retention of inactive equipment, among other areas.
Technology
    Completed a Case Analysis on the potential application of Radio 
Frequency Identification technology (RFID). The Agency investigated the 
potential application of RFID technology to manage its personal 
property. LMD staff contacted various Federal Agencies to gain from 
their lessons learned and engaged in a research concluding that an RFID 
implementation has the potential to reduce inventory cost, reduce 
equipment loss, and enhance equipment accountability. The study was 
completed on March 31, 2011, and, based upon this research; the 
assessment also identified areas of concern regarding the 
implementation of RFID technology.
    Enhancements to the Personal Property and Equipment (PP&E) System. 
The continuous review of system capabilities and features enables 
stakeholders to identify system shortfalls and develop remedies to 
better support policy changes, enhance data accuracy, and to accurately 
generate reports, i.e., equipment loss rate formulas, equipment 
recoverability reports, etc.
    Development of the Personal Plant and Equipment (PP&E) Executive 
Dashboard. The Dashboard will provide the oversight of data elements 
extracted from the PP&E system and Business Warehouse databases. The 
Dashboard will allow senior officials and the Equipment Program Manager 
access to total asset visibility and the generation of Ad Hoc real-time 
reports with the purpose to identify trends, strengths and weaknesses 
in the performance of equipment management functions across the agency.

    Dr. Whitlow. But, we take it very seriously, and we are 
starting to implement different efforts as I mentioned, to 
reduce that number toward zero.
    Senator Rubio. OK, thank you.
    Thank you.
    Senator Nelson. Mr. Gerstenmaier, let me ask you a softball 
question.
    [Laughter.]
    Senator Nelson. I've heard it characterized a lot that 
commercial capabilities and the heavy-lift development have 
been portrayed as an either/or capability for NASA. The 
authorization law says that we need both. Do you think we need 
both?
    Mr. Gerstenmaier. Yes, I think it's clear that we need 
both. We need the expiration larger-class rocket to do the 
things beyond low-Earth orbit, to build and launch the 
spacecraft to go to the further destinations well beyond low-
Earth orbit. Then, we're looking to use both commercial cargo--
as I described, we have existing service contracts in place to 
resupply the Space Station as the Shuttle is retired, so those 
commercial cargo contracts are in place with two companies, 
SpaceX and Orbital Sciences Corporation--and then we're looking 
at a new commercial crew transportation capability which would 
also augment the capability we lost from the Shuttle. We need 
that, again, to reduce our reliance upon the Russians for crew 
transport.
    So, the answer to your question is, really, we need both. 
That's the struggle we have in the budget is how we balance 
those two back and forth, and how we get that right mix between 
what we need in the commercial activity and what we need to do 
the exploration, to meet the priorities that we're being asked 
for both of those. Both of those have near-term desires to fly 
as early as we can. That would imply moving money back and 
forth. What we're trying to do, and what Doug tried to describe 
to you, is how we try to balance those with the programmatic 
guidance we get through the Authorization Act and here, through 
the administration.
    Senator Nelson. Well, that is a very well-stated answer. 
And I think that that's genuinely the policy that was set out 
in the authorization law. And I think that's genuinely the 
policy that NASA is trying to implement. And yet, the report 
that came in January is interpreted by some as saying that NASA 
cannot build a new heavy-lift launcher and the capsule, as 
prescribed in the law. And much of the time has been discussed 
about what NASA can't do. And I'd like to hear your thoughts on 
what NASA can do and what you're already doing toward the 
implementation of the authorization law.
    Mr. Gerstenmaier. Earlier, I think Doug described that 
pretty well. We've got some teams set out with a base 
configuration and at least two other configurations to go look 
at alternate concepts of achieving the goals we just described, 
the heavy-lift launch vehicle and to maximize, as you discussed 
earlier, what we've already done in the Orion capsule, to make 
sure that that carries forward. So, we've got those teams off, 
working.
    We also, Doug's team, put out some requests from industry 
to get their ideas that were not constrained by any of our 
previous thoughts so we can get the best ideas from industry. 
Doug's teams are sitting there, as Doug described, trying to 
integrate all those activities.
    We're trying to take a look at the existing contracts we 
have in place to see if those contracts are applicable in the 
new work that we want to go start. We have certain legal 
requirements. We can't take a contract that was issued for one 
purpose, and apply it to a different purpose without going 
through all the right legal checks to make sure that's an 
appropriate use to extend that contract. As Doug described 
pretty clearly, we need to get the best value out of that to 
show that that is the most effective manner to do this 
procurement activity.
    The teams are working through all those things. Our intent 
is that, by the time we get to late spring, early summer, we 
will have enough of this completed that we can give you a 
definitive answer in our follow-on report about where we head 
with this and what we understand is available and what's 
possible as we move forward.
    So, I will tell you that, as Doug's described and you've 
all described to us, is the NASA team definitely has a can-do 
attitude, if we lay out the right constraints. The 
authorization law gave us those constraints. We understand the 
President's budget, as well. We can factor both of those in as 
considerations. And the teams are fully running and 
implementing, as fast as they can, to put together a sound plan 
that's affordable and sustainable and realistic that we can 
present to you in the late spring, early summer.
    Senator Nelson. Well, with the new heavy-lift capability, 
you're the expert, tell us: What about the new destinations 
that are enabled by the evolvable new heavy-lift capability? 
What does the Nation stand to gain from that exploration?
    Mr. Cooke. I can address that.
    With the kind of capability that's laid out in the 
Authorization Act, 70- to 100-metric-ton evolvable to 130 
metric tons, we can incrementally be able to go to numerous 
destinations that are of high interest.
    It could be cislunar space. It can be at LaGrange points 
between the Earth and Moon, where we could repair telescopes; 
we can stage missions to the Mars vicinity, potentially. It 
would get us missions to the Moon, with additional 
capabilities. We can go to near-Earth asteroids. We can go to 
the moons of Mars, which may be an interesting step in this 
progression.
    All of these places hold incredible information that we 
probably don't even have a clue as to what we'll find. Every 
time we go explore, as great nations do, we learn, and we learn 
things we didn't expect. And those are certainly all incredibly 
interesting destinations.
    The Moon, itself, is a place that we know much better, now 
that we've flown the lunar reconnaissance orbiter, that our 
organization put up and now is being run by the Science Mission 
Directorate. But, we've learned more about the Moon than we 
knew during Apollo. Mars has always been a premier destination 
for our future human spaceflight. And there's incredible 
science and understanding that we can bring back, in terms of 
evolution of that planet, whether or not there's life on that 
planet. The opportunities are incredible.
    And the heavy-lift vehicle that we've talked about, and the 
crew vehicle, are the critical first two steps to any of those 
destinations. Those are incredibly important for where we go 
from here. There are additional capabilities that will need to 
be developed to do these missions, but those are two essential 
steps that are laid out for us and that we're interested in 
developing and pursuing.
    Senator Nelson. Thank you for that answer. I think that 
gives everybody a vision. You've got to get up there, with 
humans and components. Who knows what the technology--by the 
time we're ready to go to Mars with humans, we might have new 
technology that takes us there in 39 days, instead of the 9 or 
10 months, which could redo the whole mission.
    So, thank you for that comment.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chair.
    In the past year, there have been two failures of the 
payload faring mechanism for the vehicles launching the 
orbiting carbon observatory, and recently, the Glory mission. 
This has resulted in the loss of these important payloads, both 
expensive and highly capable satellites.
    Two things, Mr. Cooke: Do those losses impact your view of 
the maturity of the commercial companies currently involved in 
the commercial orbital transportation system program to deliver 
cargo to the International Space Station? And are these 
failures viewed as normal growing pains, or do they potentially 
affect the design, manufacturing, or vehicle processing 
failure?
    Anybody. Whoever's most qualified.
    Mr. Gerstenmaier. Yes, I think I'll answer those. I'm 
responsible for the launch services program.
    First of all, the failure was something we didn't expect, 
on the Glory spacecraft. When we lost the OCO spacecraft, we go 
into a very rigorous mishap investigation board to understand 
exactly what happened on that loss, why the fairing didn't 
separate. We chartered an independent team that went through 
all the potential failures that could have led up to that.
    They gave us a series of recommendations. One of the areas 
that was the most likely cause of that failure, on the OCO 
spacecraft, was a system that pushes the fairings apart. It was 
a hot-gas system. Essentially, you ignite a solid propellant; 
it generates gas and pushes the two halves of the fairing 
apart; you know, much like an airbag expands in your car.
    We replaced that system with a cold-gas system on the Glory 
spacecraft. That was a much more reliable system that we 
thought would operate much better. We went back and the mishap 
board had a series of recommendations, probably 50 or so 
recommendations of things that needed to be changed in the 
fairing system. We went through methodically and made all those 
changes. So, when we had this Glory failure, it was a total 
surprise to us. We worked as hard as we could to make sure that 
this failure would not repeat, and, for some reason, it 
repeated.
    We now have a new mishap board looking at it. It's too 
early to speculate on what the failure was the second time. 
But, we need to go through it methodically, understand what 
failure occurred, and then, more importantly, understand what 
we missed in our process. What did we miss from the first 
failure to this second failure that caused us to have a repeat 
failure? This is unacceptable to us, to have a repeat failure. 
You know, we spent a lot of time and effort making sure it 
wouldn't occur. And we obviously missed something. It shows how 
difficult our business is. I think it shows you how much we 
push the envelope, in terms of spaceflight, that things appear 
simple, and they're not simple. You know, we're using the 
state-of-the-art engineering, state-of-the-art systems that are 
really at the limits of what we can do, and we need to be 
extremely careful.
    So, that implication doesn't cast any doubt on the 
commercial providers for ISS, but it tells us that we need to 
be mindful that it's not an easy industry. As I described to 
you earlier, when I wanted the STS-135 mission for extra cargo, 
that is specifically to provide some margin so we're not 
putting too much pressure on that commercial industry, forcing 
them to deliver on a schedule that's not realistic, forcing 
them to cut corners to try to deliver on a certain data, and 
then have a failure which loses cargo to us. That would be 
totally unacceptable.
    So, this Glory failure, to us, is an example of how hard 
our industry is, how tough it is, no matter who's doing the 
work, whether it's NASA or whether it's a commercial company, 
whether we're following oversight of a company, like Orbital, 
that manufactures the two vehicles for OCO and Glory. We just 
need to watch that process and do due diligence to make sure we 
deliver quality spacecraft when we do that.
    Senator Boozman. In closing, Mr. Chairman, I appreciate 
your leadership in this area. And again, as Senator Rubio said, 
being new to the process this has been a good hearing.
    But, I think the thing that concerns me is that, last year, 
as a Member of Congress and not directly one that was at the 
negotiating table, to get an authorization bill that, at the 
end, I think most people felt like was a fair compromise, to go 
forward, that would put us in a good position. And you all were 
very much involved in that process, through your expertise. And 
now we have a budget that's come back that simply does not 
reflect that negotiation, that authorization bill. And so, you 
have, in a very bipartisan spirit, much concern about that.
    And my concern is, is that we're going to mess around, and 
the President's Budget bill will not get done. Senator Nelson 
made that statement. I agree with that. And then we have a 
situation where we muddy the waters and then nothing gets done 
and we're in limbo, now, for another period of time. So, I hope 
that we can reach agreement and then get back on track with the 
authorization that we agreed to, as we go forward.
    Thank you, Mr. Chairman.
    Senator Nelson. Senator Rubio.
    Senator Rubio. Thank you.
    Before my final question, I--and I don't know if you've 
talked about Mr. Vanover. You know, we've had a--Mr. James 
Vanover was a 53-year-old swing-arm engineer for NASA, for 
contractor United Space Alliance. And he fell from launch pad 
39-A at the Kennedy Space Center, in Cape Canaveral, while 
working on the Space Shuttle Endeavor, and died. And so, our 
condolences to him and to his family. I know Senator Nelson 
shares in that, as well as Senator Boozman. He worked at the 
Kennedy Space Center for 28 years. And his service to our 
country doesn't go unnoticed. I did want to say that today, for 
the record.
    But, let me ask again--all of this, this is an enormously 
important agency and program for our State. And it's our 
first--my first hearing as a member of the U.S. Senate, with 
regards to these issues, so I wanted kind of summarize, in my 
mind, the status of where we are and ask what I think is an 
important question, and maybe it's already been answered. And, 
if it has, I apologize. But, clearly we're closing down the 
Shuttle Program. We walked away from Constellation. And no one 
can tell us when we're going to have a replacement for any of 
these things, but we know it's not going to be 2016, so it'll 
be sometime after that, whenever that is. And so, we'll be 
totally dependent on the Russians, basically, at the tune of--
what is it--$16 million per seat, to be able to access our 
investment in the International Space Station. I think it's 
probably the first time in four decades--am I wrong--in--first 
time in four decades that the United States--and maybe longer--
will have the capability of launching, in a short amount of 
time, human space travel.
    Has there ever been discussion about what contingencies 
there are available to us to access the Space Station if 
somehow the Russians are no longer available to us or no longer 
want to cooperate with us on--is there thoughts about that? Is 
that something that's been discussed within the agency? What we 
would do if we have this massive investment and need to service 
the Space Station, but somehow we weren't to access Russian 
travel any longer?
    Mr. Gerstenmaier. I would say that, from a technical 
standpoint, the concern is real. If you remember back when we 
had the Columbia tragedy on the Shuttle, and we lost the 
ability to transport crew for a period of time while we got the 
Shuttle back to flight, we were dependent upon the Russians, at 
that point, to deliver our crew to the Space Station. And that 
allowed us to keep a crew--and we had to reduce the crew size 
from three, at that time, down to two during that period, but 
that allowed us to continue. So, it's extremely important, in 
our business, to have dissimilar redundancy or have different 
transportation systems to get to Space Station. I think that's 
our biggest risk as we go into this period.
    I don't worry about the Russians withholding services from 
us, because, in a sense, they're dependent for us also on Space 
Station. We have a mutual dependency. We provide attitude 
control for the Space Station for the Russian elements that are 
up there. So, they need us to do that. Our systems also provide 
power now to the Russian segment, to give them power to their 
modules. So, they need our expertise and they need our 
astronauts to provide the maintenance of that--those systems, 
to keep those Russian systems functional. So, we have a mutual 
dependence. So, it's to their advantage to have U.S. crew 
members on board Space Station to help keep their facilities 
operating and keep the overall complex operating.
    So, it's truly an International Space Station, with 
interdependencies between us. So, I don't worry about the--
``political'' may not be the right word, but the withdrawal of 
transporting astronauts, for whatever political reasons. We 
need each other.
    What I worry about more is, Could we have a technical 
problem in their systems that take the Soyuz down for a period 
of time, that we would not be able to have access to the 
Station. So, it's clearly to our advantage to get a redundant 
transportation capability available, as soon as we can, to help 
with that robustness.
    Senator Rubio. So, your testimony sounds like you're less 
concerned about--and I think ``political'' is the right--that 
somehow some political conflict could somehow evolve into 
something that would affect our ability to work with them. 
You're more concerned about them encountering problems in their 
own system, them having some sort of technical inability to 
launch, the way we did, and therefore neither one of us could 
get there, basically.
    What--how would you characterize the--and this, I guess, is 
to everyone--how would we characterize the capabilities--the 
Russian capabilities, from a technological standpoint? I mean, 
are they--is your concern one that is--obviously, anytime 
you're dealing with something of this magnitude and of this 
complexity, there's always the opportunity for a breakdown. 
But, do they have sufficient investment, and do we have 
sufficient confidence, in their systems to think that something 
like that is unlikely? Or----
    Mr. Gerstenmaier. You know, they are very committed to what 
they do in space. And they have a different approach to 
spaceflight than we do, I would say. But, they have a very 
robust approach to spaceflight.
    When we increased the crew size on Space Station from three 
crew to six, which we did about a year ago or so, that required 
more Soyuz vehicles to be launched. So, they had to step up 
their production rate of Soyuz vehicles. And they were able to 
meet that challenge and continue. Also, when we increased the 
crew size--for them, they needed additional Progress vehicles, 
which are their cargo resupply vehicles; and they were able to 
step that up. They're also in the process of upgrading the 
Soyuz vehicles to a digital Soyuz. They were predominantly 
analog, an analog system to control the vehicle. Now, they're 
stepping up to a digital. So, they're making incremental mods 
and upgrades.
    They work with us quite a bit; we share data back and 
forth, from a technology-understanding standpoint. They give us 
good insight into what they're doing. And I think they're very 
capable and very resourceful. And they're a good partner to 
have in space with us.
    So, I don't doubt their technical capability; they're 
robust. But, I think, as you described and I tried to describe 
earlier, the business we're in is very technologically 
demanding. We operate on the edge in many areas. We're not like 
an aircraft that has extra performance and has engine-out 
capability, in some situations. We really need the most out of 
our rockets and our spacecraft. So, we've just got to stay 
vigilant. And they're doing a good job at that, but we could 
potentially have some breakdown that might interrupt service 
for a period of time.
    Senator Nelson. Don't worry, we're going to get to the rest 
of you in a minute.
    [Laughter.]
    Senator Nelson. Mr. Gerstenmaier, the Inspector General has 
indicated that NASA is not making the best use of appropriated 
funds, given the continued restriction from canceling 
Constellation contracts, which besieges us in language that 
we're trying to get out of the continuing resolution. Is this 
prohibition compromising your implementation of the 
authorization law?
    Mr. Cooke. I'll answer that.
    Certainly, we would be happy, and less constrained, without 
the restrictions; however, as I had mentioned earlier, we are 
tailoring the work on our contracts right now, whether it be 
the Orion spacecraft or the Ares-1 rocket and its various 
contracts. We're tailoring that work to be as closely in line 
with the Authorization Act as we possibly can.
    So, I think that we're doing a very good job of spending 
money wisely. We're making careful choices. That's being done 
down at the project levels and program level. When we get to 
the point of making final design decisions, I think it will be 
important to have flexibility to make the next moves. But, up 
to this point, I believe that we've been managing this pretty 
effectively. For instance, an example would be, if there's work 
that is a long-lead item for a heavy-lift vehicle, as well as 
what it would have been for Ares-1, we would continue that 
work. And if there's a new task that would be Ares-1-specific 
on an Ares-1 contract, we wouldn't do it or start it. So, we're 
making those choices.
    Senator Nelson. How much money would you say that NASA has 
had to spend, since the authorize bill became law, by virtue of 
that provision in the appropriations bill requiring the 
continuation of Constellation? How much money has NASA spent 
since that authorization law that, otherwise, it would not have 
spent? In other words, how much has NASA wasted?
    Mr. Cooke. I would have to take that for the record.
    [The information requested follows:]

    Providing a monetary estimate about how much work will feed 
forward, or providing an estimate about how much funding NASA spent 
since the passage of the NASA Authorization Act of 2010 that otherwise 
would not have been due to the prohibition on cancelling Constellation 
contracts in the FY 2010 Consolidated Appropriations Act is not 
possible, largely because the Administration has not made final 
decisions with regard to the design and acquisition plans for the new 
Space Launch System (SLS), as well as support elements for both the SLS 
and the Multi-Purpose Crew Vehicle (MPCV). Therefore, NASA cannot 
specifically say, at this time, which Constellation elements will or 
will not feed forward into the new SLS and MPCV programs, and as such, 
we cannot accurately estimate how much money could have been saved if 
not for the funding restriction.
    We would like to note, however, that during this time period, NASA 
was making efforts to focus existing Constellation contracts on work 
that would likely feed forward to the SLS and MPCV programs--a fact 
that was recognized by the NASA Inspector General in a letter to 
Congress on February 2, 2011.

    Mr. Cooke. But, I will tell you that I believe that's a 
small amount, for instance, we probably would have canceled the 
Constellation Program office work, for instance, but, honestly, 
they have reduced their support contractors, they have scaled 
way back. And actually, most of their work right now is aimed 
at helping to transition Constellation to what comes next. So, 
I don't have a number, but everything that we're doing is to 
spend our money efficiently.
    Senator Nelson. Mr. Gerstenmaier, back on Senator Rubio's 
question. Could you quantify what you think is the likelihood, 
in numbers, that--once the Shuttle has flown and we're entirely 
reliant on Soyuz, the chance that Soyuz would not fly?
    Mr. Gerstenmaier. I can't give you a quantified number. I 
could work with our experts and try to get some kind of 
calculated number, but I don't have one that I could give you.
    Senator Nelson. But, whatever it is, it clearly is in the 
interest of the U.S. Space Program--for that matter, for the 
Russians, as well; for anybody participating on the Space 
Station--it's clearly in the interest of getting an American 
launch system, not only for cargo, but crew, as well. And 
that's another reason that we're pushing so hard, in this NASA 
authorization policy that's been set into law, to go on and get 
it done. Get first done, under that law, the commercial 
capability of taking cargo and crew. And we'll see, at the end 
of the year, if we've got capability of cargo. And then, of 
course, to have the other--the heavy-lift, which is for a 
different purpose--but to have that as a backup, which was part 
of the stated policy in the authorization law.
    Let me ask you, more specifically, with regard to the 
Kennedy Space Center, that the 21st Century Launch Complex 
improvements in the President's request were reduced when 
compared to the levels that were authorized in the NASA 
authorization law. And you all have been explaining that you've 
been moving some of your money around in order to take care of 
that. The GAO reported that NASA facilities, clearly, are in a 
degraded condition and in need of improvements, not just at 
Kennedy, but every place. So, if you would, please, explain the 
need to upgrade those facilities, specifically Kennedy's launch 
infrastructure, to enable the long-term exploration program to 
be optimized in order to reduce future operations cost. Can you 
share that with us, Mr. Gerstenmaier?
    Mr. Gerstenmaier. Yes. The plan with the funds to do the 
facility work down at the Kennedy Space Center are--we're 
looking, kind of, now at doing those as part of the--or heavy-
lift launch system or the space launch system. So, we're 
looking to put some facility upgrades that will have to occur 
for the new vehicles we're going to fly out of the Cape, that 
Doug's teams are reviewing and analyzing. And that's a piece of 
it.
    But then, we don't want to just make the facilities unique 
to that particular rocket. In the past, in the Vertical 
Assembly Building, the platforms that sit in there are at 
certain heights for one specific rocket that goes into the 
Vertical Assembly Building. They're not generic, and you can't 
bring another vehicle in to go be processed there, without a 
dramatic change to the Vertical Assembly Building. So, the idea 
of these funds was to, not only upgrade the facilities, from a 
maintenance standpoint, but also make them more flexible for 
the future, that allows them to be used for multiple purposes.
    Same kind of thing in the launch complex. Many of our 
control consoles and systems are geared to an individual rocket 
that is launching. They're not generic in nature. So, then, 
when you want to bring in another launch vehicle, you have to 
standdown range interfaces, reconfigure slowdown, it takes more 
time to bring the next rocket in. We can only launch about 
every 48 to 78 hours, because of range activities. We want more 
generic capabilities in place so that turnaround, from one 
rocket launch to the next rocket launch, is much faster. That 
helps the throughput, through the Kennedy Space Center.
    So, we're looking forward-looking and doing what Doug needs 
for those near-term rockets, but we're not doing it solely 
focused on those near-term rockets. We're taking a broader 
look, to make sure that these facilities we put in place at 
Kennedy support a broader range of rockets, which ultimately 
allow a higher throughput, which allows a lower cost-per-rocket 
launch at the Kennedy Space Center, which is where we want to 
be in the future.
    So, that's how we're using those funds to try to upgrade 
the facilities and modernize, posture ourselves for the future, 
and, by posturing ourselves for the future, support what Doug 
has on the books today, but as well as the future programs we 
see coming forward.
    Senator Nelson. And, of course, some of the expenditures 
that have already been made, you can take advantage of. For 
example, how you've already reconfigured Pad 39-B. And that can 
be utilized for the future heavy-lift vehicle.
    Dr. Whitlow, a flat-line budget is what we looking like, 
over the next several years, realistically, given this 
financial environment. And it's going to be critical, in that 
kind of budget, for NASA to change the ways of doing business 
that it has done in the past. And it's going to have to 
actively reduce cost.
    Now, the authorization law requires a study that, and I 
quote from the law, ``carefully examines NASA's structure, 
organization, and institutional assets, and identifies a 
strategy to evolve toward the most efficient infrastructure 
consistent with NASA's missions and mandates.''
    So, share with us what NASA is doing to reduce the fixed 
and operating base cost of the agency.
    Dr. Whitlow. Well, one of the things, as outlined in the 
authorization law, is we're supposed to come forward, within a 
year, with an integrated facilities master plan for the agency. 
We have already received the master plans for the centers, and 
we are integrating those so that we can provide the 
capabilities that the agency needs as we move forward. And our 
investments that we will make are consistent with NASA's 
strategies and plans. We're using these facility master plans 
to guide our investments.
    Currently, there's a lot of Apollo-era infrastructure in 
the agency. Eighty-three percent of our facilities are over 40 
years old, and a typical design life is about 30 years. And so, 
our facilities are older, they're inefficient, and they're 
expensive to operate.
    So, we have a strategy where we're going to become more 
flexible with our facilities, as Mr. Gerstenmaier said, become 
easier and more efficient to operate. We're going to modernize, 
over a 40-year period, so that, at the end of 40 years, we will 
have an in infrastructure set where 63 percent is less than 40 
years old and, therefore, more reliable and less likely to have 
emergencies that could impact our mission.
    Senator Nelson. So, your answer is, we're going to have a 
study?
    Dr. Whitlow. No.
    Senator Nelson. And the study----
    Dr. Whitlow. Our answer----
    Senator Nelson.--is going to be ready at the end of the 
year?
    Dr. Whitlow. The study will be ready at the end of the 
year. But, we are already using the elements of that study to 
guide our investments. And so----
    Senator Nelson. OK. Give me some specific examples.
    Dr. Whitlow. Say, I'll tell you, between 2005 and 2010, we 
have disposed, either through demolition of old, unneeded 
facilities, or through excess of our facilities, approximately 
750 facilities, valued at over a billion dollars. We're 
starting to replace our facilities with newer facilities, more 
efficient, more flexible, more energy efficient, and cheaper to 
operate. So, we are starting to have the strategy to build out, 
across the agency, an infrastructure that is more suitable to 
our mission needs, it's more efficient to operate, cheaper to 
operate, given----
    Senator Nelson. OK. And the question is----
    Dr. Whitlow.--what everybody is saying.
    Senator Nelson.--give me an example.
    Dr. Whitlow. I can tell you, for example, at the Glenn 
Research Center, we're excessing two older buildings on a plot 
of land across from the main campus, and we're moving those 
civil servants, who actually are outside of the main perimeter, 
inside the perimeter at the Glenn Research Center, and building 
a more efficient office building. We've recently opened a 
building at the Kennedy Space Center that actually produces 
more energy than it uses. We have a LEED Platinum Building, we 
recently opened at the Ames Research Center, that's energy 
efficient and cheaper to operate than our older infrastructure.
    Senator Nelson. What are you all going to do with the 
facilities that have extremely low utilization rates?
    Dr. Whitlow. We currently have a process in place--our NASA 
Capabilities Forum--we're working with the mission 
directorates--Dr. Weiler, Dr. Shin, Mr. Gerstenmaier, and Mr. 
Cooke--where we're looking at NASA's plans and we're 
identifying those capabilities. And that--and capabilities of 
people as well as laboratories and facilities--that either we 
need for the future or we don't need for the future. If we 
don't need a capability for a long period of time, then the 
people will be retrained and/or reassisgned, and the bricks and 
mortar will be eliminated.
    Senator Nelson. Well, NASA has some extraordinary, unique 
facilities, but a number of these facilities are not being 
utilized very heavily. And from the standpoint of NASA, say, 
for your local politics of closing some facilities at a 
particular center, since NASA's going to have to do as much as 
it has in the past, if not more, with flat line funding, you 
all are going to have to make these choices.
    Dr. Whitlow. Correct.
    Senator Nelson. And that's going to be, in some cases, 
uncomfortable. And where it is a unique facility, you've got to 
prepare to carve out that unique facility, but it's got to be 
utilized more.
    Things like wind tunnels. You know, the Air Force 
aeronautics--we're going to get to you all in just a second--
aeronautics, so much is dependent on that. But, is it being 
utilized?
    Dr. Whitlow. For example, in aeronautics, we have, over a 
period of time, eliminated some of our wind tunnels. There's a 
wind tunnel at the Langley Research Center--and I think it's 
their 16-foot wind tunnel--we're in the process of taking down. 
We've got the full-scale wind tunnel at the Langley Research 
Center off of NASA's books. The Propulsion Systems Laboratory, 
at the Glenn Research Center, we took down within the last 
year. The altitude wind tunnel, we no longer needed; we got rid 
of that facility. So, we are aggressively looking at our 
infrastructure, because we have to become more efficient and 
cheaper to operate. Those things that we don't need we are and 
will get rid of.
    Senator Nelson. Mr. Gerstenmaier, you're going to be 
assuming leadership for all of the human spaceflight efforts. 
What management or cultural changes do you feel are necessary 
to accelerate the goal of moving forward the goals of the NASA 
authorization law?
    Mr. Gerstenmaier. Again, I think we have two very talented 
directorates. You know, Doug's directorate, the Exploration 
Systems Mission Directorate, has done an amazing job of doing 
the new development activities and in leading those activities, 
doing the studies we described earlier. My directorate's been 
more focused on operations kind of activities--flying the 
Shuttle, flying Space Station, doing rocket propulsion tests, 
doing launch services, providing space communications, those 
kind of things.
    I think my directorate has more of a kind of immediate 
focus, more of an operations focus of doing things. Doug has 
much more of the developmental focus. So, I think we can take 
the strengths of both of those directorates and put them 
together into a very effective organization. Because we want to 
make sure the things that we're developing are really going to 
be able to be operated in the most efficient manner in the 
future. Our folks understand how to operate those; Doug's folks 
know how to develop. We can take the best of both of those, 
from the two directorates, combine them into a strong 
directorate, with a sense of urgency, as called out in the 
authorization law, and we've discussed, to try to move forward 
to meet the time lines that we talk about.
    We also know we are in a very budget-constrained 
environment. That will be tough for us to go manage. We need 
clear direction in the budget. We need to make sure we've got 
flexibility in our programs and flexibility in our development, 
so when the inevitable budget swings come, that will come, it 
doesn't totally upset the program. So, we'll build some, I call 
it, ``agility,'' some ability to react to what we see from the 
outside, so we don't have a perfect plan that is optimized to 
just one set of constraints, that if we get a slightly 
different set of constraints, there's enough resilience, enough 
agility in the system, we can continue move forward and 
ultimately deliver what you've asked for us to in the 
authorization law.
    So, I think, in simple terms, what I'm going to try to do 
is take the strengths of both the directorates that are there, 
both of the strong cultures that are there, forward, blend 
those together into a new directorate that will meet the intent 
of what we've been asked to go deliver to this country.
    Senator Nelson. What about the program offices for heavy-
lift launch system, MPCV, and commercial crew development?
    Mr. Gerstenmaier. Doug's already taken steps, and you'll 
see that we've put the MPCV and the SLS and the 21st Century 
groups together. And the idea there is, we think there is 
enough commonality between all of those that they need to be 
worked together. And Dan Dumbacher, Doug has picked and I agree 
with, to lead that activity, from a headquarters perspective. 
And that's to make sure that we get an integrated look at those 
activities, that they're not done in isolation, that they're 
all moving forward, because they have to all occur in that same 
direction.
    Doug also has a commercial organization, which we're going 
to get set up. We're trying to select someone for that 
position, to do the new commercial crew activity.
    The commercial cargo activity, we've left that pretty much 
more at the center-director level. We haven't done much--we 
haven't really elevated that to the level at headquarters. I 
think that's appropriate for cargo. We can stay fairly lean in 
the cargo side, but the crew side, we clearly need some 
direction and some guidance from up here. They will do that.
    And, as you're well aware, the Kennedy Space Center will be 
the Center that manages and oversees that commercial crew 
capability down in Florida. And we're looking to the folks down 
there to lead that activity with a deputy from JSC. And Doug 
has set all that up, and we'll leave that pretty much set the 
way it is right now.
    Senator Nelson. Why don't you flesh that out? What's that 
going to mean to Kennedy for the Commercial Crew Program 
Office?
    Mr. Gerstenmaier. It'll be a Civil Service Project Office 
or Program Office set up at Kennedy Space Center to manage that 
activity. They will oversee the procurements associated with 
that activity. They're in the process right now--and Doug can 
elaborate--they're ready to do a Commercial Development II 
procurement activity. They will kind of oversee that activity. 
Or, excuse me, they're getting ready to award that now. That'll 
be there. They're, kind of, wrapping up the CCDev I activity--
Commercial Crew Development I activity. And that office will do 
the day-to-day management of kind of overseeing that, with some 
guidance from headquarters, from kind of a top-level oversight 
and level-one requirements standpoint.
    And Doug may want to add something.
    Senator Nelson. Please.
    Mr. Cooke. Right. The office has been a planning office, 
but has been doing all the work in setting up these 
procurements. They are working on the CCDev II procurement 
right now. That went out in October, with proposals back in 
December. And they're going through the evaluation process 
right now. That's being led at KSC by Ed Mango's team.
    That team will become the Program Office, when we're freed 
up to do that, which should be shortly. But, they're laying it 
out. That and finishing up that procurement exercise. They are 
laying out the steps for the follow-on procurements that would 
lead to commercial crew ultimate capability. They would be the 
oversight center for that development capability. They are 
getting support from JSC, in the areas of crew systems--and 
Brent Jett, from the Astronaut Office, is a deputy to Ed 
Mango--and they're providing the expertise that they need from 
JSC, but it is being led at Kennedy Space Center, and they are 
being very methodical and doing a great job of moving that 
forward.
    Senator Nelson. Do you want to venture any numbers of the 
jobs in that office?
    Mr. Cooke. I will have to take that for the record.
    [The information requested follows:]

    The current total number of Full Time Equivalents (FTE) for the 
Commercial Crew Program across all NASA Centers (not including NASA 
Headquarters) is 74. Of that number, 46 FTE are located at the NASA 
Kennedy Space Center. When fully staffed (anticipated for some time in 
FY 2012), the total number of FTE for the Commercial Crew Program is 
expected to be approximately 200, with the highest concentration of 
civil servants located at NASA Kennedy Space Center.

    Mr. Cooke. I'm not sure what the current plan is. It's not 
a large office. But, they have a setup that they have laid out; 
it's been based on what they see they need, in terms of 
developing the requirements for these providers, as well as 
doing the oversight.
    Senator Nelson. Dr. Weiler, with the loss of Glory, do you 
anticipate any changes in the Earth Science projects that are 
currently underway?

  STATEMENT OF DR. EDWARD J. WEILER, ASSOCIATE ADMINISTRATOR, 
               SCIENCE MISSION DIRECTORATE, NASA

    Dr. Weiler. It was a great loss, Senator. We're trying to 
look forward to the next step.
    Basically, there were two instruments on Glory. One was a 
total solar irradiance instrument. The purpose of that is to 
continue our decades-long study of the sun and how much 
radiation's actually coming to the Earth. That was going to be 
a new instrument on Glory. We've now lost that. There are two 
currently flying solar irradiance instruments. Regretfully, 
they're very old. One's 7 years old and I think one's 11 years 
old, on different satellites.
    We do, however, have a backup instrument being built, for 
NOAA, called the TSIS, that's a Total Solar Irradiance Sensor. 
We've been in contact with NOAA. We are accelerating that 
development. We should have that ready to fly sometime in the 
2012 timeframe. And we'll be working with NOAA to see what kind 
of satellite we might be able to put that on in the near term. 
We're hoping that the two instruments up there will continue 
the measurement of that in the near term.
    The other instrument on Glory was a polarimeter. That was, 
for the first time, going to give us some very indepth 
information on the nature of pollution particles, so-called 
aerosols. We can get information like that by piecing together 
many other satellites, but not so cohesively and excellently as 
we could have with the Glory instrument. We do not have a 
backup instrument for that ready, so what we have done, the 
Earth Science Division--is commissioned two 100-day studies to 
look at the feasibility of developing a new backup instrument, 
and also the scientific necessity for building a backup 
instrument, or whether we can wait for a new satellite that's 
even more sophisticated, I believe, which is planned, in the 
current budget environment, for about 2019 or so.
    So, that's where we are right now. We'll have a lot more 
information--we'll be happy to share it--perhaps in about 2 or 
3 months.
    Senator Nelson. So, with regard to the first part of the 
instrument, as long as the two up there are going, you can keep 
that data coming. With regard to the second part of Glory, 
there's going to be a gap for how long?
    Dr. Weiler. Well, again, this instrument was filling a gap, 
in the sense that there's a certain air bar we have on our 
climate models, because we don't really know the absolute size 
and nature of these aerosol particles. We can model them, and 
we can get a pretty good estimate of it, but it leaves a 
certain size air bar. Glory was going to reduce the size of 
that air bar.
    So, it's not as if it was filling a gap that didn't exist--
I mean, filling a data gap that didn't exist; it was making our 
air bar smaller. We'll continue to do the work we've been 
doing. And we'll either decide that it's so scientifically 
important that we'll delay other missions to try to replace 
this instrument quicker, or we'll wait for this newer 
instrument that's going to be launched in the time-frame of 
about 2019.
    Senator Nelson. Is there any thought that you're going to 
rebuild Glory?
    Dr. Weiler. Again, we can't really do what we did on OCO, 
because Glory was flying on a very old spacecraft that was 
originally developed for something, I think, called Vegetation 
Lidar Mission, about 10 years ago. So, we reused that 
spacecraft. It wouldn't make any sense to rebuild a spacecraft 
that's, basically, obsolete now. So, it's not as simple as OCO, 
where you could just--really, just take the diagrams and build 
a new one very rapidly. So, we'd have to evaluate what it would 
cost to go out to get a new spacecraft and build a new 
instrument, and cost that versus the value of doing that. And 
again, we'll know that in about 100 days.
    Senator Nelson. The review of the James Webb highlighted 
deficiencies in management and budgeting practices at NASA, 
leading to the schedule delay and also the cost overruns. And 
that's not going to sit well around here, in this budgetary 
environment. So, why don't you, for the record, justify the 
importance of James Webb's telescope.
    Dr. Weiler. That's actually easy, because I've spent most 
of my career on the Hubble Space Telescope--more than 30 years; 
I was a chief scientist for about 20 of those years.
    Where we are on James Webb now reminds me of where we were 
on Hubble in the mid-1980s. A lot of people don't remember, 
because Hubble is such a great success now that it actually 
overran, 300 percent, and was delayed 7 years. When I joined 
the Hubble team in 1978, the launch was scheduled for 1983, at 
a cost of $400 million. It wound up getting launched in 1990, 
for a cost of $1.6 billion. But, we stuck with it, despite a 
lot of people who wanted to see it canceled. There were a lot 
of management problems, a lot of cost problems, there was a lot 
of blame all over the place. But, we stuck with it and we 
launched it. And, today, of course, Hubble, I would call the 
biggest scientific success in NASA history.
    Senator Nelson. And no sooner had you launched it than you 
realized that it had deficient lens. And you had to go up and 
correct those.
    Dr. Weiler. I was telling somebody, I remember sitting in 
this room, Senator, in 1990, defending--collaboration problem. 
I believe the chairman of this committee then was Senator Gore. 
So, I've had some experience in this room.
    But, we did fix it. A lot of people didn't believe we could 
fix it. But, again, the NASA teams stuck together, at Johnson, 
Kennedy, Goddard, the contractors, et cetera, and we fixed it, 
utilizing the Space Shuttle mission in December 1993.
    How is that relevant to James Webb? James Webb, for about 
the same cost in real--in constant dollars that Hubble cost in 
constant dollars, is going to be about 50 to 100 times more 
sensitive. James Webb will enable us to see the universe when 
the lights first came on, the first stars, the first galaxies, 
going all the way back to maybe 100/200 million years after the 
Big Bang. That's what we know James Webb will do.
    As we learned from Hubble, I can sit here and expound on 
all the things we expect James Webb to do: It's going to look 
for extraterrestrial planets; it's going to study star 
formation, galaxy evolution. That's all very interesting and 
exciting. But, what was most exciting about Hubble were the 
things we didn't know, the questions we didn't know how even to 
ask. When we launched Hubble, there was no such thing as ``dark 
energy.'' When we launched Hubble, there were no extrasolar 
planets.
    The universe is a big place. And, even though we write 
textbooks about it, the universe out there doesn't always read 
our textbooks and sometimes surprises us. And I think James 
Webb is going to be that kind of mission for this country, if 
not for the world.
    James Webb, as some people forget, is not just a U.S. 
mission. The Canadians are deeply involved, and a major partner 
is the Europeans, just as the Europeans worked on Hubble. It's 
an international mission.
    The potential for James Webb to give us excitement to 
explore the universe, perhaps excite some of our school kids in 
middle school to perhaps do something unheard of--consider a 
career in science, engineering, or math--it's something I 
deeply feel. I was excited. I'm sitting here today, Senator, 
watching, as a young boy, John Glenn and Alan Shepard take off 
from the Kennedy Space Center. That inspired me to decide I 
wanted to be an astronomer, I wanted to go to Northwestern 
University, and I wanted to work for NASA--when I was 13 years 
old. I hope that things like James Webb, our Mars missions, can 
do that kind of thing to our 12- and 13-year-olds today, 
because this country needs scientists and engineers and 
mathematicians in the future.
    I'm sorry for going on and on, but you asked me to expound.
    Senator Nelson. Amen. How about the Alpha Magnetic 
Spectrometer?
    Dr. Weiler. That's not a mission that's funded by my 
organization, so I'm really not too familiar with it. I believe 
the physics involved is a search for antimatter particles. It's 
a really exciting experiment. I hope it works, and I hope it 
finds some antimatter particles. But, we don't fund it, so it's 
not under my jurisdiction. It's really under Bill 
Gerstenmaier's jurisdiction.
    Senator Nelson. Any comment?
    And then I'm going to turn to you, Senator.
    Any comment?
    Mr. Gerstenmaier. DOE is supporting most of the actual 
science on AMS. We're doing some of the integration activity, 
and launching it.
    Senator Nelson. Senator.
    Senator Boozman. Thank you, Mr. Chairman.
    Just real quickly, Mr. Melvin. The funding levels requested 
for education programs are less than those authorized for 
Fiscal Year 2012. And I think Congress would like to see 
increased educational activity at NASA. In Fiscal Year 2010, 
it's being stated that nearly 21,000 spacecraft-supported 
undergraduate and graduate students participated in authentics 
hands-on research. Do you believe/anticipate that we will be 
able to sustain that level of participation under the budget 
request?

                STATEMENT OF LELAND D. MELVIN, 
            ASSOCIATE ADMINISTRATOR, EDUCATION, NASA

    Mr. Melvin. Senator Boozman, I think we're going to have to 
use our strategic partners to help us continue with the numbers 
of students that we reach at higher-ed and even in the middle 
schools.
    We just came through a design team, where we had Norm 
Augustine and a number of other people looking at, What is 
NASA's contribution--or what should NASA's contribution be to 
helping motivate, inspire, and train students? And one of the 
things that they recommended we do was to help with middle 
school teachers, to basically help grow our seed-corn, so that 
we'll have more people in the colleges and being able to do 
higher-ed. That was one recommendation. Another recommendation 
was to ensure that we get new partners on board that can maybe 
take over some of the things that we're doing, supply the NASA 
content that we have, the rich resources of content, to better 
leverage the resources that we have, so we can then maybe 
increase the pool even bigger.
    Senator Boozman. Very good. And that's good.
    I think that goes along with you, Dr. Weiler, in the sense, 
those things are so important: exposing young people.
    Dr. Shin, can you briefly describe the NASA aeronautics 
research contributions to the aviation industry, such as the 
Boeing 787?

                 STATEMENT OF DR. JAIWON SHIN,

     ASSOCIATE ADMINISTRATOR, AERONAUTICS RESEARCH MISSION 
                       DIRECTORATE, NASA

    Dr. Shin. Yes. Thank you, Senator.
    Boeing 787, as you know, is going to be a very exciting 
airplane. According to Boeing's claim, it will have the lowest 
fuel consumption of any commercial airliners in the business. 
We have no reason to doubt that, because I--I have visited 
Boeing production line, assembly line, and they have used, 
extensively, the composite materials on the fuselage and also 
wings. If you take a look at the wings, the shape of the wings, 
they look dramatically different from the conventional wings. 
And one of the reasons why they were able to do that is that 
the composite material has much stronger strength-to-weight 
ratio, so they can come up with a different design to support 
the structure and integrity.
    NASA has been working on composite material research for 
decades--structures and materials. We believe a lot of that 
capability was successfully transferred to industry; certainly 
to Boeing, but not just Boeing, but to general industry.
    Also, another notable technology there is what's called 
chevron nozzle, and it will reduce the engine noise 
substantially. So, current days, the environmental impact 
mitigation is becoming a really growing concern. A lot of 
airports even have curfews at nights, so that puts a 787 also 
at a higher advantage over, or a more competitive advantage to 
have quieter airplane. The chevron-nozzle concept was grown out 
of NASA technical community, and we collaborated with engine 
companies and airplane companies to deliver that technology.
    Senator Boozman. OK.
    Thank you, Mr. Chairman.
    Senator Nelson. Well, let's just follow up right there. 
With the aerospace industry being so important--2 percent of 
our GDP, half a million people employed, major U.S. export--
you've got a pretty robust budget in this NASA authorization 
law as well as the President's proposal, for aeronautics. What 
are you doing to target R&D spending to make sure it's 
consistent with both the industry needs, as well as our 
national needs, for new technologies?
    Dr. Shin. Yes. Senator, before offering my response, if I 
may, I really appreciate, on behalf of NASA Aeronautics, for 
your strong support during the FAA reauthorization bill, by 
submitting an amendment to keep aeronautics within NASA. So, we 
very much appreciate that.
    Senator Nelson. You didn't want aeronautics going over to 
all these other agencies, I take it.
    Dr. Shin. No.
    [Laughter.]
    Dr. Shin. And so, we appreciate your support.
    We are working heavily on NextGen and safety and 
environmental impact mitigation, as you know, Senator. I think 
the importance of NextGen is so critical, it is not just the 
air traffic management system capability, because you have to 
advance aircraft capabilities and also safety that will be in 
that national aerospace system. Also, Congress, almost 7 years 
ago, had the foresight to create a Joint Planning and 
Development Office to come together, departments and agencies, 
to work together on this very important initiative. For NASA, 
Aeronautics is investing almost 80 percent that will directly 
or indirectly contribute to NextGen. So, that's just one 
example of how we are helping, certainly FAA, to implement this 
very important revolutionary technologies and processes, and 
also industry.
    And we just talk about 787. I think we are collaborating 
with industry, a wide spectrum of industry, to advance, again, 
safety technologies and new aircraft system, engine system 
capabilities, and certainly air traffic management capabilities 
to put our country, continue to be in the leadership position.
    As you mentioned, Senator, I think the aviation industry is 
one of the few industry sectors that brings, still, a trade 
surplus. In 2008, the aviation industry brought almost $57 
billion of trade surplus to the country. So, we've got to stay 
in the leadership position. And I think NASA Aeronautics is 
positioned to do that. And we thank you Congress for 
congressional continued support on that.
    Senator Nelson. You developed winglet technologies, and 
that has helped save fuel cost. What other research are you 
doing to reduce fuel consumption?
    Dr. Shin. Yes. We are doing a development of a low 
NO<INF>X</INF> combustor, working with engine companies, and 
trying to have a substantially lower pollutant coming out of 
combustors. Also, it is important to make these combustors fuel 
flexible. So, with the emergence of alternative fuel and 
biofuels, we have to develop technologies for the combustor 
that will be working with whatever kind of fuel is coming 
online, next 20 or 30 years.
    And also, we are developing completely new concept of 
airplanes that will be very different from conventional tube 
and wing configuration. Some of the system studies that we have 
conducted suggest that combining the smart operations and this 
new configuration with other state-of-the-art technologies, 
like a combustor, that I mentioned, potentially we could save 
as much as 40 percent of our fuel consumption, compared to the 
current state-of-the-art. So, that's the kind of target that we 
are working on.
    Senator Nelson. Would you send us a list of those?
    Dr. Shin. Certainly will do that.
    [The information requested follows:]

    NASA's Aeronautics Research Mission Directorate is committed to 
research that promotes fuel efficiency and environmental compatibility 
while increasing or maintaining aircraft safety. Fuel currently 
represents the largest operating cost for U.S. airlines. Many of the 
aeronautics research activities currently being conducted by NASA have 
the potential, upon adoption, of reducing fuel consumption.
    NASA systems analysis indicates that new operational procedures 
currently in development within the Airspace Systems Program (ASP) have 
the potential, if fully adopted into the National Airspace System, to 
reduce fuel burn by 400 million gallons per year during landing and 
takeoff phases of flight and an additional 200 million gallons per year 
during the en route cruise phase of flight. These savings correspond to 
about 3 percent of the annual fuel burned by U.S. commercial airlines. 
ASP is also developing improvements in ground operations that have the 
potential to reduce fuel burn during airport taxi operations by 15 
million gallons per year, which would result in a reduction of 2 
million pounds of CO<INF>2 </INF>per year of harmful emissions in and 
around our largest airports. Some key areas of research within the ASP 
focus on developing new capabilities to:

  <bullet> Demonstrate near term application of Automatic Dependent 
        Surveillance-Broadcast (ADS-B) enabled technologies to enable 
        fuel and time efficient arrivals (new FY11 initiative);

  <bullet> Demonstrate near term application of ADS-B enabled 
        technologies to enable efficient surface operations to reduce 
        fuel, noise, and emissions (FY 2012 Presidents budget request);

  <bullet> Demonstrate Efficient Descent Advisor (EDA) technologies 
        with the FAA 3D-Path Arrival Management (3D-PAM) to enable 
        continuous descent approaches in congested airports for reduced 
        fuel consumption and reduced noise level during landing;

  <bullet> Demonstrate non-stop taxi surface operations to reduce fuel-
        consumption due to current stop-and-go throttling operations;

  <bullet> Optimize efficient arrivals, departures and surface 
        operations through fuel-saving integrated arrival/departure/
        surface time management, route modification and adaptive speed 
        control;

  <bullet> Maximize national airspace efficiency with new processes to 
        address demand/capacity imbalances from weather effects and 
        system wide uncertainties to reduce travel time, distance, and 
        delays which inherently reduce fuel consumption and emissions;

  <bullet> Enable safe, time and fuel efficient, en route flight with 
        varying weather while allowing for reduced distance between 
        aircraft to increase air-traffic volumes; and,

  <bullet> Reduce airborne and ground hold delays through enabling 
        increases to system capacity by bringing to bear available 
        resources and capacity to wherever demand is surging.

    The Fundamental Aeronautics Program (FAP) and Integrated Systems 
Research Program (ISRP) conduct complementary research aimed at 
reducing the fuel burn of aircraft. New concepts and technologies 
undergo early-stage development within FAP. Individual technologies 
which have matured are then evaluated at an aircraft system level in 
relevant environments (including flight test) within ISRP. Within these 
Programs, research is being conducted on technologies that will improve 
fuel efficiency for a variety of aircraft and have a direct effect on 
overall fuel consumption for the aircraft industry. Specific areas of 
research include:

  <bullet> New aircraft designs and configurations, including 
        rotorcraft and subsonic vehicles, that are more efficient;

  <bullet> Lightweight structural components, such as airframes, to 
        reduce subsonic aircraft operating empty weight;

  <bullet> Advanced fuel-efficient engine designs;

  <bullet> Ways to reduce subsonic aircraft drag, with minimal impact 
        on operating empty weight, for total aircraft energy reduction; 
        and,

  <bullet> Some advanced structural and propulsion-related material 
        research intended primarily for supersonic aircraft 
        applications will also benefit subsonic aircraft by helping to 
        reduce vehicle and propulsion system weight thereby reducing 
        fuel consumption.

    Senator Nelson. OK.
    Mr. Melvin, how are you going about evaluating NASA's 
education programs? And then, once you get those evaluated, how 
do you go about figuring out how you use that data to improve 
the quality of the education initiatives?
    Mr. Melvin. Thank you, Senator. That's one of the biggest 
areas that we're going to work on with this new redesign of 
education. The evaluation and accountability part of our budget 
will be trying to get more people involved in that area. That's 
one of the biggest concerns that we're having: How do you know 
that dollars we're spending on the programs are actually giving 
you the results that you desire?
    And so, one of the things that we're looking at doing is 
also, like I said before, partnering with other agencies. The 
America's COMPETES Act has us working with NSF and other 
agencies to see what the Federal Government's national 
portfolio is in education. And that way we can maybe contribute 
a piece, NSF can contribute a piece, and Department of 
Education can contribute a piece. So, we're going to be 
utilizing people from NSF to help us with evaluation practices 
to get better evaluation systems for our programs.
    Senator Nelson. How about the Summer of Innovation that was 
a pilot in 2010? Can you describe some of the accomplishments 
of that pilot project?
    Mr. Melvin. Senator, we reached about 155,000 students and 
teachers. Many of the projects that we did, some of them were 
with kids helping build wind tunnels. Some Native American 
students were actually making food pods. We had middle school 
students actually helping program spheres, through the 
Massachusetts Space Grant, where these spheres are actually up 
on the Space Station, so they could have a hands-on 
experiential activity that's actually being inspired by space. 
So, those are some of the things that we did in 2010.
    We reached about 22,000 students that actually had 30 hours 
of hands-on instruction, with at least 7 hours of NASA content. 
Now, that amount of content is not enough to give us an 
indication on if a kid's going to go from a ``D'' to a ``B,'' 
but we need to continue on with the follow-on activities to 
ensure that we can start to look at working with school 
districts trying to track the students, to see how their 
performance gets better. So, that pilot did give us some 
indications that 30 hours is a good number of hours for 
instruction. But, we're going to have to continue with some 
follow-on project progress to definitely see how these students 
change their grades.
    Senator Nelson. Do you intend to continue the program?
    Mr. Melvin. Yes, sir. This year, I think 36 proposals have 
come in. We're in the review process right now. We are going to 
use the resources that we have in the continuing resolution, 
use those resources to fund the programs that we're going to 
have this summer, where we actually work with middle school 
teachers and then they, in turn, use the NASA content to 
instruct middle school students.
    Senator Nelson. What does NASA do with a whole bunch of 
different partners, private and public, in order to increase 
STEM education?
    Mr. Melvin. Well, we've been working with a number of 
partners. One example is, we just signed up a new partnership 
with LEGO. Every child in the world knows about LEGO. LEGO is 
all around the world. The LEGO Foundation actually gives out 
free LEGOs to schools, as well as the curriculum associated 
with it. So, on STS-134, we're sending up LEGOs to space. That 
way, we can have some design challenges with astronauts and 
with students on the ground, to get them as inspired as we can, 
using the resources that we have as a national laboratory on 
the ISS, also using our assets, as astronauts, to help them 
call into schools, doing downlinks, those kinds of things.
    We partnered with Donovan McNabb, from the Redskins, to get 
kids to think about the physics of football. So, we were in his 
training camp, this past summer, where we had about 400 kids 
thinking about how physics can help them with their football 
playing.
    Also partnering with musicians, Mary J. Blige and MosDef 
and Donna Karen, we've done work with them to let kids start to 
think of alternative careers besides just sports and 
entertainment. So, use the icons that the kids gravitate toward 
to let them help tell the NASA message, use the NASA content.
    We had a case this past summer, during Summer of 
Innovation, where we had the Foundation for Advancing Women 
Now, Mary J. Blige's foundation--her girls were actually 
teaching NASA content to the Harlem Children Zone students of 
Geoffrey, Canada, and Harlem, New York. So, this is a way that 
the actual students can then reach back and help excite and 
motivate and inspire, using our NASA content.
    Senator Nelson. And how are you using the International 
Space Station to interact with your educational programs?
    Mr. Melvin. Well, as I said, on the Massachusetts Space 
Grant, they have this little sphere. They're like little 
remotely operated spheres that float around the Space Station. 
The students can actually uplink and program them to have 
competitions from the ground. So, that's one way. Also, using 
our astronauts to actually call in to classrooms, to actually 
motivate and inspire kids.
    Actually, when I was in space in 2009, we called into 
Tennessee, to Senator Gordon's district, talked to about 300 or 
400 kids to get them inspired and motivated. So, however we can 
use the resources on the SEEDs Program, and there are many 
different types of programs that we've used to help motivate 
and inspire.
    Senator Nelson. Dr. Weiler, you are facing a shortfall in 
supply of plutonium 238. At the funding levels that you're 
looking at, how long is it going to take before the U.S. has a 
production capability for PU-238?
    Dr. Weiler. Thank you for asking that question, Senator.
    We started working with the Department of Energy in fiscal 
2010. In fiscal 2010, we worked out a agreement, at my level 
and at the DOE equivalent of my level, with OSTP and OMB, that 
we could restart plutonium production at about the 1- to 2-
kilograms-per-year level, which would meet our needs at NASA. 
We submitted that to the Congress but, the DOE-side of the 
appropriations process did not support it. So, we've 
resubmitted it again in 2012 in the President's budget, and we 
await the appropriations process once again.
    In the meantime, because of the CR situation, if we are 
held at the Fiscal Year 2010 level in the Science Mission 
Directorate, that's about a 20-percent reduction from the 
President's Fiscal Year 2011 request. At that kind of 
reduction, we will not be able to put our 15 million in. So, we 
hope that we can resolve this by the beginning of Fiscal Year 
2012. We are ready to start funding it, but, we do need the 
DOE's contribution of the equal $15-million amount. That would 
get us enough plutonium if we were to do a outer-planets large 
mission in the 2020 timeframe, that would be sufficient to meet 
the needs of that mission.
    Senator Nelson. Where does your plutonium come from now?
    Dr. Weiler. It would be coming from Oak Ridge. What we did 
discover, in the process of working together, was that we would 
not--at the beginning of this process, Senator, back in Fiscal 
Year 10, it was looking like DOE wanted to build a brand new 
facility, and this would have cost an enormous amount of money. 
But, once we really honed in on what the real requirements were 
for NASA, how much plutonium we really needed, it turned out to 
be only 1 or 2 kilograms per year. DOE and Oak Ridge, combined, 
figured out that they could meet that with existing facilities. 
And that's why the cost has been reduced to only $30 million a 
year, roughly; 15 million from each agency.
    Senator Nelson. For the record--why don't you describe, for 
the record, if you don't have a supply of plutonium 238, what's 
going to suffer?
    Dr. Weiler. Ultimately, our existing stocks will run out. I 
can't give you the exact number. We'll take that one for the 
record, as to when the stocks would run out.
    [The information requested follows:]

    The number of missions that can be supported with current Pu-238 
inventories depends on the power required by proposed missions and the 
planned power sources. Based on NASA's last formally updated projected 
mission power needs and the Department of Energy's estimates in meeting 
NASA's fueled power systems, current inventories can support missions 
through the 2020 timeframe, including a Discovery-class mission using 
up to two Advanced Stirling Radioisotope Generator (ASRG) power 
sources.
    NASA is in the process of reevaluating its mission planning set in 
light of the recent update to the decadal survey ``Visions and Voyages 
for Planetary Science in the Decade 2013-2022.'' Regardless of the 
specific mission planning set, which does evolve over time, Pu-238 has 
been used on a consistent basis and radioisotope power systems remain 
vital for meaningful exploration of the majority of the solar system, 
including significant portions of the Moon and Mars. We continue to 
exhaust a limited supply, so the speedy restart of domestic production 
ofplutonium-238 is important to maintaining U.S. leadership in 
planetary science.

    Dr. Weiler. But, it would preclude our ability ever to do a 
large-scale outer-planets mission, for instance, like a mission 
to the Moon Europa that circles Jupiter, ice-covered moon, 
where we're very certain that it has an ocean underneath it. Of 
course, wherever there's water energy, you have to ask the 
question, Is there possibilities for life? It would certainly 
preclude a major mission to another moon, Titan, which the 
Cassini Mission has shown us is extremely interesting, around 
Saturn. We've discovered liquid methane lakes, methane rain on 
this moon. It has a thick atmosphere. The science community 
considers it a very high priority for the next decade, perhaps, 
the decade after this one.
    These kinds of missions would not be possible, because, 
once you get out to Jupiter, you're dealing with about 4 
percent the solar radiation that we get here. At Saturn, it's 
probably down to 1 percent or less. You just cannot use solar 
panels that far out. So, it would stop our many-decades-long 
exploration of the outer solar system.
    Senator Nelson. Tell me, any one of you six, given the 
turmoil that NASA's been going through, have you seen any 
diminution of the best and the brightest, when they come out of 
college, that have always wanted to go to work for NASA?
    Dr. Whitlow. One of the programs we have to replenish our 
pipeline and make sure we have the workforce of the future is 
our Student Career Exploration Program that's at various 
centers. In any one year, there are about 500 to 600 students 
in that program, in addition we have other programs that we use 
to help replenish our pipeline. In the SCEP Program--that's 
Student Career Exploration Program--most of those students end 
up with NASA employment. We find that, when we advertise for 
jobs at all levels, we get many, many applicants for our jobs. 
So, there is very high interest in career opportunities at 
NASA.
    Once we hire people on, we have very aggressive programs to 
retain our workforce with onboard process. We provide mentors, 
we provide coaches, we provide rewards programs, training, 
development. And so, not only is there great interest among the 
community, in coming to work for NASA, but, once we hire people 
on board, they tend to stay for quite a while.
    Senator Nelson. Anybody else?
    Mr. Melvin. Senator, I think that a lot of the students 
that come to NASA, they just have this fascination with space. 
And it's something that I think one of the only agencies in the 
Nation and the world, really, that has the ability to attract 
people to come work at an agency like ours. And so, we do get 
the best and the brightest. We get a cross-section of different 
types of students, but everyone comes and works hard and is 
really dedicated to the mission of human exploration and all of 
our missions at NASA. So, I think it's a combination of 
students.
    But, I think, if we can help get more students to know 
exactly what we do at NASA, maybe get a better way to get that 
message out using more of these strategic partners, using other 
assets using your offices also to help spread the word, as to 
the things that we do in our mission, I think we'd get even 
more students inspired and motivated.
    Thank you.
    Senator Nelson. Mr. Gerstenmaier, as you know, in the 2010 
authorization law, it provides a series of steps that must be 
taken as you go through the human part of the commercial 
delivery of humans to the ISS. Can you provide us with a status 
report on the compliance with these requirements?
    Mr. Cooke. I'll take a question for the record, to get you 
the exact details.
    [The information requested follows:]

    P.L. 111-267 outlines specific steps that NASA must take related to 
commercial crew development. These steps include: (1) human rating 
requirements; (2) commercial market assessment; (3) procurement system 
review; (4) use of government-supplied capabilities and infrastructure; 
(5) flight demonstration and readiness requirements; and, (6) 
commercial crew rescue capabilities.
    NASA plans to satisfy all the requirements in the P.L. 111-267. The 
current status of these efforts is as follows:

  <bullet> Item 1, human rating requirements were provided to Congress 
        in December 20 10 via the ``Commercial Crew Transportation 
        System Requirements for NASA LEO Missions'' document;

  <bullet> Item 2, commercial market assessment was delivered to 
        congress on in April 2011 via the ``Commercial Market 
        Assessment for Crew and Cargo Systems'' report.

  <bullet> Item 3, procurement systems review; NASA is currently 
        developing the commercial crew transportation acquisition and 
        procurement strategies. Once these strategies are finalized, 
        NASA will provide Congress a description of the proposed 
        process and justification of the proposed process.

  <bullet> Item 4, use of government-supplied capabilities and 
        infrastructure; NASA is currently assessing future 
        infrastructure and capabilities required to support future 
        programs.

  <bullet> Item 5, flight demonstration and readiness; NASA is 
        developing a human rating process and minimum set performance 
        objectives to be achieved be commercial crew transportation 
        partners. NASA will certify commercial crew transportation 
        providers prior to allowing NASA or NASA sponsored astronauts 
        to fly on any commercial crew transportation system.

  <bullet> Item 6, commercial crew rescue capabilities; NASA is 
        including crew rescue into the set of commercial crew 
        transportation human rating requirements. NASA will certify 
        commercial crew transportation providers prior to allowing NASA 
        or NASA sponsored astronauts to fly on any commercial crew 
        transportation system.

    Mr. Cooke. But, I know that our office at KSC is--has those 
requirements in front of them, and that they intend to comply 
with those. But, I can help with a status.
    Senator Nelson. I thought you were retiring.
    [Laughter.]
    Senator Nelson. I thought all of your stuff was going to 
Gerstenmaier.
    Mr. Cooke. We're working closely together.
    Senator Nelson. All right. Well, can you also give us the 
full market analysis for the commercial crew capabilities?
    Mr. Cooke. That is currently in review at NASA.
    Senator Nelson. And----
    Mr. Cooke. So, that is work that is being reviewed by our 
offices now.
    Senator Nelson. When are we going to get that?
    Mr. Cooke. I don't remember the exact date it's due, but I 
think it's just a couple weeks in the downstream, that--the 
plan is. I'll have to go back and look at the exact timing. I 
believe that was a 180-day report. But, we're--we do have that 
in review currently.
    Senator Nelson. I happen to be someone that thinks that we 
can develop the commercial crew capability, and that we can do 
it rather expeditiously. And--in parallel, that we can develop 
the heavy-lift rocket--and this is why I keep saying, let's 
talk about what we can do, not what we can't do--that if you 
take the law, which is an evolvable system, that we can do 
that, and we can do it in parallel, while we're developing the 
commercial and cargo crew capability to go to the Space 
Station. But, we need these reports.
    Now, speaking of the report, getting back to the 90-day 
plan, an incomplete 90-day plan--we're losing time--I want to 
know if you, Mr. Cooke, will commit to bringing us the 
information as it is available, and not waiting around so that 
we're not getting it. We don't need a final report.
    What we're trying to do is keep action going, here. Will 
you commit to that?
    Mr. Cooke. We are certainly with you on keeping the action 
going. And we have significant steps that we're taking in the 
next weeks. And we will be happy to report back as we develop 
that information, in the interim.
    Senator Nelson. Do you have the authority in order to 
commit that you will bring that information to this committee 
as it becomes available?
    Mr. Cooke. I will certainly do my part. I have to work 
through our system. But, certainly, I'll do my part to get 
information available to you.
    Senator Nelson. Does that kind of information--before it 
comes to the Committee, does that have to go to OMB?
    Mr. Cooke. Generally, there is a review that includes the 
OMB and OSTP.
    Senator Nelson. Well, that's where a lot of the hangup in 
the past have been. It gets stuck over in OMB. How about OSTP? 
Do you get a fairly quick review there?
    Mr. Cooke. We work closely with them, all of them, and we 
will get this data to you as quickly as we possibly can.
    Senator Nelson. Sure, you work closely with them, but 
that's not the question.
    [Laughter.]
    Mr. Cooke. Well, my intent is to get you data as early as 
possible. I can tell you that.
    Senator Nelson. Well, you know, if we're going to save the 
NASA budget, in a time when--you saw what happened in the House 
and what happened in H.R. 1, which this Senator voted against 
last week, and it didn't get a lot of votes in the Senate. But, 
you can imagine what would happen if other people had their 
way. You can imagine what would happen to our space program. 
So, as we're trying to protect our space program and the future 
of NASA, we've got to have data. And we can't keep having these 
delays like we've had on these reports.
    Now, you have the luxury of retiring, so why don't you just 
go full bore and bust down some doors, since, when you step on 
toes, it's not going to make any difference.
    [Laughter.]
    Mr. Cooke. Well, I promise you I'll go full bore. And I am 
committed to staying with this through these steps to get these 
on track. And I certainly will do everything I can to get you 
information, you and your staff.
    Senator Nelson. You didn't say whether or not you would 
step on some toes.
    Mr. Cooke. I don't think I've hesitated in the past.
    [Laughter.]
    Senator Nelson. Well, keep after it.
    All right. Well, thank you all for a very comprehensive 
hearing. I think we accomplished what we wanted to. We wanted 
to get you all to lay out what's going on. And this is a tough 
time.
    I want to note that the record is going to stay open for a 
week for members of this committee to submit further questions 
for the record.
    And the meeting is adjourned.
    [Whereupon, at 4:50 p.m., the hearing was adjourned.]
                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    I would like to welcome all of our witnesses here this afternoon to 
discuss NASA's progress and challenges in implementing the NASA 
Authorization Act of 2010. No conversation on implementation, however, 
would be complete without also discussing the destructive impact that 
sporadic funding is having on NASA's mission and priorities.
    NASA continues to be an agency in transition. After 30 years and 
135 flights, the Space Shuttle program is retiring. Just last week, we 
watched Discovery's last mission. There is a great anticipation about 
what's next for NASA after the shuttle program comes to a close.
    NASA's shuttle program has led to major scientific successes and 
discoveries. It's launched and repaired the Hubble Space Telescope, 
sent up the world's most powerful X-ray telescope, opening a window to 
the universe, and completed construction of the International Space 
Station. The Space Station is of particular interest to me--not 
necessarily because of what it teaches us about space--but because of 
the discoveries it's made that could improve the lives of every 
American. The shuttle also helped capture the imagination of a new 
generation of people too young to remember previous missions.
    The space station itself recently passed a milestone of its own. 
Last November marked 10 years of a continuous human presence on the 
space station. Much of that time has been devoted to construction, but 
the astronauts on board still found time to conduct more than 1,200 
experiments that supported the research of more than 1,600 scientists 
worldwide.
    One very significant discovery is that some bacteria--such as 
Salmonella and Methicillin-resistant Staphylococcus aureus (MRSA)--
become more aggressive in causing disease in the station's microgravity 
environment. I think everyone here is familiar with the enormous public 
health risk posed by antibiotic resistant bacteria. Any progress we can 
make on this front will pay dividends for years to come. This discovery 
is helping scientists develop potential vaccines for both of these 
infections and, if successful, would save thousands of lives each year. 
For these reasons and for the scientific promise of future exploration, 
we need to get NASA's transition right.
    Exploration, however, can take many forms and there is one area of 
the President's FY 2012 budget request for NASA that particularly 
concerns me. That's the funding requested for NASA's education 
programs. The FY 2012 request is $138 million, which is nearly $42 
million less than what was enacted for FY 2010. Teaching our students 
science, technology, engineering and math (STEM) has never been more 
important to innovating and competing in this global economy. In recent 
visits to schools in my own state of West Virginia, I have seen first-
hand the success these programs have in inspiring our next generation 
of scientists and engineers. NASA's Space Grant Program, for example, 
can be found in each and every state across the country. In my own 
state, the program funds fellowships and scholarships for students 
pursuing STEM careers at West Virginia University, Marshall University, 
and other colleges and universities around the state.
    NASA's EPSCoR--or Experimental Program to Stimulate Competitive 
Research--is another education program working to improve STEM research 
and development in the aerospace field. In West Virginia alone over the 
past 5 years, this competitive program has supported hundreds of 
students and faculty in their research, resulted in millions of dollars 
in new funding, supported more than 100 scientific papers, and led to 
new patents. This type of program allows every state to fully 
participate in the research activities that lead to new discoveries, 
create new jobs and educate our workforce.
    I would again like to thank our witnesses for being here today. I 
look forward to their testimony.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                    to NASA Associate Administrators
Commercial Spacecraft/Independent Verification and Validation
    The President's FY 2012 budget request again prioritizes the 
development of commercial spacecraft for American access to space. In 
addition to providing U.S. human access to space, commercial spacecraft 
will be interacting with important and irreplaceable national assets 
such as the International Space Station and NASA astronauts.
    Question 1. What actions are being taken to maintain high levels of 
safety, reliability and availability standards for commercial 
spacecraft to prevent against catastrophic errors that can and do occur 
in software development?
    Answer. Providers of commercial cargo services for the 
International Space Station (ISS) must face the challenges of mastering 
automated rendezvous, proximity operations, and docking with a crewed 
spacecraft. While these tasks have been demonstrated many times by the 
Russian Progress vehicle, and twice each by the European ATV and 
Japanese HTV, the technologies and techniques required for their 
achievement are difficult, but clearly not impossible, to develop. All 
commercial cargo vehicles intended to dock or berth to the ISS must 
meet the same visiting vehicle standards for each of their ISS 
missions. These requirements are laid out in the ISS Commercial Orbital 
Transportation Services (COTS) Interface Requirements Document. These 
standards include requirements for automated rendezvous and joint 
proximity operations, physical and software interfaces, and overall 
safety. These requirements are consistent with those provided for the 
ATV and HTV. NASA has been working closely with the commercial partners 
through the demonstration phase and will continue to work with them 
through the CRS missions to ensure that these requirements have been 
verified for each mission.
    NASA is responsible for providing both rescue services and 
transportation to and from the ISS for U.S., Canadian, European and 
Japanese astronauts. Prior to carrying ISS astronauts, industry 
providers must meet the ISS interface requirements outlined above as 
well as stringent launch vehicle and spacecraft design, operations and 
safety requirements. The Commercial Crew Program's 1100 suite of 
documents is based upon NASA Human Rating and Safety Requirements, and 
incorporates launch vehicle, spacecraft and crew systems requirements 
as well as specifications and standards against which commercial crew 
transportation providers will be verified and certified. NASA is 
continuing to work to mature these requirements in an effort to ensure 
the U.S. is fielding safe systems for future ISS crew transportation 
needs. In addition, all commercial crew systems will have to meet the 
same safety requirements as other NASA human spaceflight systems.
    For COTS and Commercial Resupply Services (CRS) missions, NASA, 
SpaceX, and Orbital Sciences are taking steps to protect against 
catastrophic errors that can and do occur in software development. Both 
partners have implemented stringent software development and testing 
processes and have engaged external independent verification and 
validation expertise to ensure software systems function as expected. 
Extensive joint software testing is scheduled with each partner and the 
ISS program. In addition, each partner is performing hardware in the 
loop testing to check the functionality of the software with redundant 
strings of computer and avionics equipment that they use in the flight 
vehicles.

    Question 2. Is NASA prepared to stipulate the use of the NASA IV&V 
Center when issuing Space Act Agreements with commercial entities in 
support of commercial crew and cargo program contracts?
    Answer. By their nature, Space Act Agreements do not allow the 
imposition of requirements; therefore NASA cannot stipulate the use of 
the NASA IV&V Program.
    For cargo-only missions, Space Act Agreements were utilized for 
capability development as well as the upcoming on-orbit demonstration 
phase. For the on-orbit demonstration phase, the commercial companies 
proposed demonstrating delivery of cargo to the ISS. NASA accepted 
their proposals, but as part of that acceptance to ``berth'' with the 
ISS and deliver cargo, NASA imposed the condition to meet International 
Space Station (ISS) Visiting Vehicle Requirements.
    The ISS Visiting Vehicle Requirements require software product 
assurance from an independent party with a clearly defined separate 
reporting path from the development organization but do not 
specifically require companies to use NASA's IV&V Program. Space Act 
Agreement participants may procure NASA IV&V services from NASA's IV&V 
Program.
    For the Commercial Cargo Resupply Services contract phase, NASA 
elected to impose the same software assurance requirements as used for 
the Cargo Demonstration phase, i.e., imposing the ISS Visiting Vehicle 
Requirements which require software product assurance from an 
independent party with a clearly defined separate reporting path from 
the development organization. Again, the participants may choose to 
procure IV&V services from NASA's IV&V Program.
    For commercial crew missions, NASA is deliberating the application 
and scope of software assurance and IV&V requirements. Currently, 
commercial crew is just starting the second round of short duration 
Space Act Agreements aimed at early capability development. The same 
rules of engagement for Space Act Agreements apply to this early phase 
of commercial crew capability development as were applied to the cargo-
only capability development via Space Act Agreements (see above). When 
NASA gets to the point of contracting for development work, and 
imposing technical requirements on the contractor, the appropriate 
level of IV&V services will be considered.
NASA Independent Verification and Validation Center
    The President's FY 2012 budget request proposes a level of $32 
million for the IV&V Center, a severe and disproportionate cut of $13 
million below the FY 2011 President's budget request of $45 million and 
$8 million less than the FY 2010 enacted level of $40 million.
    Question 3. What human safety-critical and mission critical 
software projects will receive Cross Agency Support-funded IV&V in FY 
2012 based on the FY 2012 request?
    Answer. Based upon the FY 2012 request NASA conducted a risk-based 
assessment and identified that IV&V for the following projects will be 
funded from Cross Agency Support:

Human Safety Critical Software

  <bullet> ISS (International Space Station)
  <bullet> Commercial Crew Program--partial support<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ Based upon recent NASA decisions, the IV&V Program and the HQ 
Office of Safety and Mission Assurance are seeking funds from the Human 
Exploration and Operations Mission Directorate to fund IV&V for the 
Multi Purpose Crew Vehicle (MPCV) program, the Space Launch System 
(SLS) program, the Command, Control and Communications Element (CCCE) 
project, and supplemental funding for the Commercial Crew (CCP) 
program.

---------------------------------------------------------------------------
Safety and Mission Critical Software

  <bullet> MSL (Mars Science Laboratory)

  <bullet> JUNO

  <bullet> MMS (Magnetosphere MultiScale)

  <bullet> SMAP (Soil Moisture Active and Passive)

  <bullet> GPM (Global Precipitation Measurement)

  <bullet> JWST (James Webb Space Telescope)

  <bullet> GRAIL (Gravity Recovery and Interior Laboratory)

  <bullet> MAVEN (Mars Atmosphere and Volatiles Environment)

  <bullet> AFSS (Autonomous Flight Safety System)--Independent 
        Assessment only

    Question 4. What risks will NASA now be accepting by either not 
performing or outsourcing IV&V activities on lower priority missions?
    Answer. NASA does not intend to waive or outsource IV&V services 
for human safety critical software. By not performing IV&V on lower 
priority mission critical software, NASA will be accepting the 
potential risk that; (1) the software developer's verification and 
validation activities are not adequate to ensure the correctness, 
quality and reliability of the mission's software; and (2) that NASA 
software assurance activities are not sufficiently effective at 
identifying those inadequacies. Not performing IV&V on mission critical 
software reduces the potential to find software errors that could 
contribute to loss of mission, loss or damage of NASA assets, or cost 
and schedule overruns.
    By outsourcing IV&V, NASA will be accepting the risk that the IV&V 
activities performed by other IV&V agents may not be equivalent to the 
rigorous systems engineering processes employed by the NASA IV&V 
Program.

    Question 5. Does this budget allow NASA to ensure mission success 
for basic research, development, and newly proposed programs, such as 
robotics?
    Answer. The proposed IV&V budget will not allow for the additional 
assurance IV&V brings to mission success for these types of projects; 
however, NASA will continue to ensure mission success since the 
fundamental software requirements, controls, and assurance activities 
that are applied to NASA programs to ensure safety and mission success 
will remain in place. Typically, IV&V is not applied to basic research 
and lower technology readiness level projects. However, if a robotics 
mission is selected for NASA IV&V based upon a risk-based assessment, 
the IV&V may be funded from Cross Agency Support.

    Question 6. What is the impact of the FY 2012 budget request on 
employment levels at the IV&V without additional internal NASA or 
outside reimbursements for services?
    Answer. The FY 2012 request will reduce funding available to 
contractors equivalent to approximately 40 full-time technical 
contractor personnel.

    Question 7. Is it realistic to assume that project managers will 
pay for internal IV&V out of project budgets if their projects are 
subject to budget cuts?
    Answer. NASA applies IV&V services based upon an assessment of 
risk. Given that the Mission Directors are accountable for the safety 
and mission success of their programs, it is realistic for the Chief, 
Safety and Mission Assurance and the Associate Administrators of the 
NASA Mission Directorates to examine individual projects and the risks 
the projects face, and to determine if additional funding from 
programmatic sources should be applied for IV&V services.

    Question 8. Are there incentives NASA could offer for project 
managers to use internal IV&V rather than external sources?
    Answer. Other than the obvious incentive of Agency level funding, 
there are many advantages of using the NASA IV&V Program over external 
IV&V vendors. The following are some examples of those advantages:

  <bullet> NASA domain knowledge (17 years of experience)

  <bullet> Heritage information (access to technical information on 
        past projects, including over 15,000 historical issues)

  <bullet> Procurement of services is easy and efficient (NASA to NASA)

  <bullet> Shared IV&V tools and methodologies

    Question 9. Please describe the steps that NASA is taking to assist 
the IV&V Center's diversification of its customer base within NASA, and 
with other federal, state, and local government entities.
    Answer. NASA management has encouraged collaboration with other 
government entities and has encouraged the NASA IV&V Program to pursue 
diverse customers. Additional IV&V work with other Federal, state and 
local government entities will enhance the IV&V Program's knowledge and 
experience base and will help ensure core competencies within the 
workforce are maintained. NASA provides limited funds for travel to 
potential customers' sites for information exchange and for staff to 
support site visits by potential customers. NASA sends IV&V Program 
staff to government and industry exchanges, which allow the IV&V 
Program personnel to meet with potential customers, understand their 
challenges, and communicate the benefits of the NASA IV&V program.
NASA Classroom of the Future
    Question 10. Please describe NASA's plans for continued work with 
the Classroom of the Future (COTF) beyond March 2012.
    Answer. The NASA-sponsored COTF is an activity associated with the 
NASA LEARN Project (Learning Environments and Research Network). 
Managed by the Center of Educational Technologies at Wheeling Jesuit 
University in Wheeling, West Virginia, COTF recently began a one-year 
extension to a 3-year Cooperative Agreement that ended on March 2, 
2011. The current extension ends on March 2, 2012. During this period, 
COTF will continue its operation of the DLiNfo Webcast Channel on the 
NASA Portal (dln.nasa.gov). It will also continue development and 
management of the NASAtalk.com online suite of collaborative tools for 
internal and external educators. COTF will finalize data acquisition, 
analysis, and findings leading to a formal presentation to NASA in the 
area of Learning In Virtual Worlds. The report will summarize 
development, implementation, and related research of MoonWorld, a Lunar 
geology-oriented online, learning experience. Additionally, COTF will 
explore various aspects of creating courses for and delivered through 
mobile devices.
    Various factors will determine the continuance of COTF's activities 
after the conclusion of the current Cooperative Agreement. The Agency 
is currently developing strategies for responding to the 
recommendations from the NASA Education Design Team Review. An effort 
is also underway to revise the NASA eEducation Roadmap that was 
developed several years ago. The roadmap focused heavily on gaming and 
virtual worlds and will most likely be updated to include significant 
attention to the use of mobile devices in education. COTF's existing 
research in learning in virtual worlds and its new initiative in 
creating educational applications for mobile devices will strengthen 
the potential for another and final extension period beyond March, 
2012. In the event that a new solicitation is offered during the coming 
year, COTF will most certainly be a worthy candidate for consideration. 
Coupled with COTF's successes with management of the DLiNfo Channel and 
the recognized maturity of its NASAtalk.com website, continuance of its 
partnership with NASA in some form is a strong possibility.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                            Douglas R. Cooke
    Question 1. Since the enactment of the NASA Reauthorization Act of 
2010, signed into law as P.L. 111-267 by President Obama on October 11, 
2010, please summarize your current plans for (a) design, (b) 
development, (c) procurement strategy, (d) schedule, and (e) contract 
modifications with regard to the Space Launch System (SLS) and Orion/
Multi-Purpose Crew Vehicle (MPCV). Include in your response actions 
taken which were not reported in the ``Preliminary'' report to the 
Congress submitted on January 11, 2011, in partial--that is to say, 
incomplete--response to the reporting requirement of Section 309 of 
P.L. 111-267.
    Answer. NASA is providing semi-monthly briefings to Committee staff 
regarding the status of SLS and MPCV, and we will continue to do so. In 
addition, we are providing details about our preliminary planning 
process to the Committee as quickly as possible, per the terms of the 
May 18, 2011, letter from the Senate Commerce Science and 
Transportation Committee.
    With regard to progress made on the MPCV, please see the attached 
white paper which denotes that we have determined that the Lockheed 
Martin Orion contract will be used for at least the development phase 
of the MPCV. Further details about the MPCV and the SLS planning 
process will be provided in a follow-on report to Congress in the 
summer timeframe.

    Question 2. What actions have you taken and what and forward 
progress have you made in firming up the design, initiating development 
and actual contracted work for building SLS and MPCV/Orion since 
enactment of the NASA Reauthorization Act of 2010?
    Answer. Since the interim report, the SLS formulation phase 
continued with multiple parallel activities to help drive down the 
development and operations costs for the SLS. NASA has continued to 
identify relevant work from the Space Shuttle Program and Ares Project 
that will be transferred to the new SLS Program, while also continuing 
to define the requirements for the new SLS system.
    NASA's Marshall Space Flight Center has completed its internal 
Requirements Analysis Cycle (RAC) studies in parallel with 13 
complementary studies being conducted by private industry under BAA 
study contracts. The BAA was a competitive solicitation, utilizing 
approximately $7.5 million in FY 2010 dollars to conduct six-month 
studies examining the trade space of potential heavy-lift launch and 
space transfer vehicle concepts. The BAA study contracts focused on 
achieving affordability, operability, reliability and commonality at 
the system and subsystem levels with multiple users, including other 
Government, commercial, science and international partners. These trade 
studies also provided a ``fresh look'' at innovative launch vehicle 
concepts, propulsion technologies and processes that can be infused 
into the development of the new human exploration missions--information 
that was used to help inform the overall selection and development of 
the final SLS vehicle detailed design. The BAA study contractor 
delivered their final briefing to NASA on April 28, 2011. Data obtained 
through the interim and final out-briefs helped NASA determine the 
feasibility of meeting top-level mission requirements with notional 
launch vehicle architectures, while defining affordability strategies, 
streamlining systems engineering approaches, and identifying best 
practices that will be applied to the final concept selected to go 
forward into formal design and development. In addition, some BAA 
respondents proposed approaches with prices below historical averages 
and NAFCOM calculations. The RAC teams delivered their final results 
the week of February 14, 2011. The RAC activity consisted of a NASA 
multi-Center formulation activity that studied various launch vehicle 
configurations, including the NASA Reference Vehicle Design (RVD) to 
develop and refine the vehicle design concepts and to determine whether 
the NASA Reference Vehicle Design meets the SLS mission requirements as 
well as the Administrator's goals that the design be affordable, 
sustainable, and realistic. On March 10 and 11, the SLS Program 
conducted its Mission Concept Review (MCR) which is an initial 
engineering milestone in the program's formulation lifecycle that 
evaluated proposed SLS concepts in relation to NASA's needs and 
objectives, and determined the program's readiness to begin Phase A 
(Formulation). During MCR, the SLS team presented the various RAC 
launch vehicle concepts against cost, schedule, and performance 
requirements. This process included describing concepts of operations 
and risk reduction plans. A day of detailed technical briefings was 
followed by a day of deliberation by an independent review team, which 
culminated in agreement that the SLS Program was ready to brief NASA 
Headquarters on its readiness to proceed into Formulation, with 
multiple concepts being brought forward for further study.
    On June 15, 2011, NASA made a key technical decision about the 
design of this new Space Launch System and will be releasing details 
about that decision soon. The approach considered the ability to 
accommodate a variety of missions, design flexibility, minimizing 
development risk, workforce considerations, and industrial base 
concerns. This vehicle design is consistent with the basic requirements 
outlined in the law, and will be evolvable to lift at least 130 metric 
tons in its final configuration. It will maximize the use of heritage 
hardware and experience, using a LOX-hydrogen core and upper stage. In 
early stages of the program, the design will use solid rocket boosters, 
but will consider a competitive procurement of booster capabilities for 
the final vehicle design. NASA developed this design after thorough 
analyses of risk, schedule, and performance. ,.. As a key element of 
the development plan for the integrated system, NASA has included, in 
partnership with industry, innovative approaches to developing and 
operating this system in a sustainable, efficient way. Though this was 
a thoroughly analyzed and critical step, it was not a final decision 
for the Administration.
    Currently, NASA has procurement teams who are mapping SLS 
requirements (those outlined in the NASA Authorization Act of 2010 and 
those we are currently developing) against the Ares contracts to 
determine if the new requirements fit the scope of the existing 
contracts. For the SLS, NASA is reviewing each element of Ares (First 
Stage, Upper Stage, Upper Stage J-2X engine and avionics) to determine 
whether the new SLS requirements are within scope of the current 
contract. However, final acquisition plans for the SLS is not expected 
until the summer/early fall timeframe, and will be provided to Congress 
as soon as it is available.
    Regarding the MPCV, in accordance with the NASA Authorization Act 
of 2010, the FY 2011 Full-Year Continuing Appropriations Act, and 
Administration policy, and after careful analysis and very thoughtful 
deliberations by a senior management team, in late May 2011, NASA 
Administrator Bolden decided to accept the Orion-based reference 
vehicle design, first outlined in NASA's January 2011 report to 
Congress, as the Agency's MPCV. As part of his decision process, the 
Administrator determined that the Orion Crew Exploration Vehicle was 
already being built to meet the requirements of a deep-space vehicle--
the current design is sound, and testing has proven the vehicle to be 
the best option for this phase of exploration efforts beyond low-Earth 
orbit (LEO). Additionally, the Administrator determined that the 
Agency's current Orion contractual partnership with Lockheed Martin 
Corporation maps well to the scope of the MPCV requirements outlined in 
the NASA Authorization Act of 2010 and, therefore, the current contract 
will be used at least for the development phase of the MPCV.
    At NASA's Johnson Space Center, the Orion Project has continued to 
progress its development beyond the PDR-level of maturity that was 
achieved in late 2009. During FY 2010 and FY 2011's period of 
continuing resolution, Orion adopted an incremental approach to design 
and development. Work became focused on early test articles, such as 
the Ground Test Article crew module which was recently completed and is 
undergoing testing. Further design work has focused on an early flight 
test configuration to prove out the most critical systems such as 
parachute and heat shield performance. The vast majority of work 
performed during the transitional period following the transmission of 
the President's FY 2011 Budget until present is applicable to the MPCV 
and has furthered progress toward a beyond LEO capability. In addition, 
detailed assessments of requirements and candidate architectures for 
beyond LEO missions have been assessed, with the purpose of ensuring 
the detailed requirements for the MPCV were understood such that 
continuing work would be made as applicable as possible.

    Question 3. In early November 2010, you initiated a parallel series 
of Requirements Analysis Cycle (RAC) team activities to examine 
possible alternative vehicle design concepts. Were those teams informed 
of (a) the performance capability and schedule requirements established 
in P.L. 111-267, and (b) did they use those requirements as key 
assumptions on which they based their work?
    Answer. As part of an earlier study, the SLS Program researched all 
of the stakeholder requirements which included the NASA strategic 
goals, the HEFT study analysis as well as all the Congressional Bills 
enacted which included the P.L. 111-267 2010 NASA Authorization Act to 
determine the relevant requirements for SLS program formulation. Key 
assumptions and goals that were used in evaluating the various RAC SLS 
options were directly taken from the NASA Authorization Act: (1) the 
vehicle must be able to initially lift 70-100 tons to LEO, and must be 
evolvable to 130 tons or more; (2) the vehicle must be able to lift a 
MPCV; and (3) begin development of the SLS vehicle ``as soon as 
practicable after the date of the enactment of'' the NASA Authorization 
Act of 2010 and with the goal of achieving operational capability for 
the core elements not later than December 31, 2016. Other evaluation 
criteria used in assessing the SLS RAC options included total Design 
Development Test and Evaluation (DDT&E) funding required, annual 
production and operations costs.

    Question 4. Have you been waiting or been instructed to wait for 
the results of the RAC activity results before moving out aggressively 
to modify contracts as they pertain to the MPCV/Orion and the SLS? What 
is the current status of those RAC activities?
    Answer. The Marshall Space Flight Center has completed its internal 
RAC studies in parallel with 13 complementary studies being conducted 
by private industry under Broad Agency Announcement (BAA) contracts. 
The RAC teams delivered their final results the week of February 14, 
2011 and the BAA study contractor delivered their final briefing to 
NASA on April 28, 2011 with the final written report delivery to NASA 
scheduled on May 23, 2011. A Mission Concept Review (MCR) was also 
conducted by an independent review team and determined that the SLS 
program was ready to enter into the Formulation Phase based on 
providing feasible requirements and budget data.
    In parallel with the RAC and BAA studies, NASA has been actively 
evaluating the existing contracts for Orion and Ares for use in the new 
MPCV and SLS Programs. NASA has procurement teams who are mapping SLS 
and MPCV requirements (those outlined in the NASA Authorization Act of 
2010 and those we are currently developing) against the Ares and Orion 
contracts to determine if the new requirements fit the scope of the 
existing contracts. For the SLS, NASA is reviewing each element of Ares 
(First Stage, Upper Stage, Upper Stage J-2X engine and avionics) to 
determine whether the new SLS requirements are within scope of the 
current contract. For the MPCV, NASA's review of Orion contracts 
indicated that the MPCV is within scope of the Orion contract, and the 
NASA Administrator recently made the decision that the Orion contract 
would be continued for MPCV development. However, final acquisition 
plans for the SLS are not expected until the summer/early fall 
timeframe, and will be provided to Congress as soon as it is available.

    Question 5. How will the RAC study results and conclusions be used 
in finalizing design concepts for the SLS and Orion/MPCV?
    Answer. The final design concept recommendation for SLS extracted 
the `best' elements from each of the RAC alternatives and combined them 
into an integrated strategy for SLS development. It is expected that 
the final selection of SLS design will have minimal effect on the 
current MPCV reference vehicle design, since the Orion was originally 
designed to withstand the Ares I launch profile which was likely more 
severe that any of the SLS design concepts.

    Question 6. The 2012 budget request makes a severe reduction below 
the authorized amounts for the SLS and Orion/MPCV amounting to a 
combined $1.3 billion less than the amount authorized for FY 2012. What 
would be the impact on your ability to continue developing these 
vehicles on any kind of aggressive schedule if that funding level were 
adopted by Congress?
    Answer. It is clear that successful development of SLS and MPCV 
will be dependent on sufficiently stable funding over the long term, 
coupled with a successful effort on the part of NASA and the eventual 
industry team to reduce costs and to establish stable, tightly-managed 
requirements. While a 2016 operational capability does not appear to be 
feasible within either projected FY 2012 President's budget request and 
its out-year funding levels, or within the Authorization Act funding 
levels, NASA is continuing to explore more innovative procurement and 
development approaches to achieve operational capability as close to 
this goal as feasible. In this context, we are still reviewing overall 
affordability for the longer-term, and alternative design analysis 
continues to be part of our strategy. Other technical options such as 
an incremental development approach will be considered based on 
industry input, innovative methodologies for affordability will be 
explored, and partnership opportunities will be pursued with other 
government agencies with the goal of identifying a significant 
affordability benefit.

    Question 7. Please explain how the fact that $1.3 billion less was 
requested for SLS and Orion/MPCV in the FY 2012 Request, while the 
requested level for Commercial Crew development was increased by $350 
million ABOVE the authorized level for FY 2012, does not represent an 
effort to reverse the respective follow-on launch and crew 
transportation development priorities established by law in the 2010 
NASA Authorization Act systems development and mission support 
requirements if those funds are no longer under the supervision of the 
organization responsible for Exploration activities.
    Answer. NASA believes that the FY 2012 budget request strikes the 
right balance between Human Exploration Capabilities and the 
development of U.S. commercial crew transportation systems to support 
the ISS and reduce reliance on the Russian Soyuz vehicle. Additionally, 
all major elements of the Authorization Act are included in the 
President's budget request.
    As the primary means of transportation to the ISS, it is essential 
that the Commercial Crew Program be successful. We believe the $850 
million funding level for commercial crew is necessary to achieve safe, 
reliable, cost effective crew transportation capability in time to 
service the ISS. Without the level of funding provided in this budget 
request, NASA would have to extend its sole reliance on non-U.S. 
systems for ISS crew transportation. Given that the ISS is being 
extended to 2020, without the Shuttle, it is essential that we help to 
develop routine, reliable crew access to the ISS. By helping to develop 
commercial crew systems, NASA is free to focus on developing beyond-LEO 
transportation systems. Therefore, NASA has the best of both worlds--
routine access to the ISS provided by a commercial provider, while also 
having the ability to focus its own human spaceflight efforts on beyond 
LEO exploration--places we haven't been to before.

    Question 8. As you know, in order to address the concerns of many 
Members of Congress regarding the seeming desire of the Administration 
to place complete reliance on new, unproven commercial cargo and crew 
launch and transportation systems, P.L. 111-267 provided a series of 
``gates'' or enabling steps that must be taken before any such 
development program is executed. In your view, is it clear to NASA and 
the Administration that those requirements must be met to the 
satisfaction of the Congress before any such development program will 
either be authorized to proceed or receive support for funding through 
appropriations?
    Answer. It is clear to NASA that P.L. 111-267 outlines specific 
gates related to commercial crew development. These gates include: (1) 
human rating requirements; (2) commercial market assessment; (3) 
procurement system review; (4) use of Government-supplied capabilities 
and infrastructure; (5) flight demonstration and readiness 
requirements; and, (6) commercial crew rescue capabilities. NASA plans 
to satisfy all the requirements in the P.L. 111-267.

    Question 9. Please provide for the record the current status of 
NASA efforts to ensure compliance with those commercial development 
requirements.
    Answer.

  <bullet> Item 1, human rating requirements were provided to Congress 
        in December 2010 via the ``Commercial Crew Transportation 
        System Requirements for NASA LEO Missions'' document;

  <bullet> Item 2, commercial market assessment was delivered to 
        congress on in April 2011 via the ``Commercial Market 
        Assessment for Crew and Cargo Systems'' report.

  <bullet> Item 3, procurement systems review; NASA is currently 
        developing the commercial crew transportation acquisition and 
        procurement strategies. Once these strategies are finalized, 
        NASA will provide Congress a description of the proposed 
        process and justification of the proposed process.

  <bullet> Item 4, Use of government-supplied capabilities and 
        infrastructure; NASA is currently assessing future 
        infrastructure and capabilities required to support future 
        programs.

  <bullet> Item 5, flight demonstration and readiness; NASA is 
        developing a human rating process and minimum set performance 
        objectives to be achieved be commercial crew transportation 
        partners. NASA will certify commercial crew transportation 
        providers prior to allowing NASA or NASA sponsored astronauts 
        to fly on any commercial crew transportation system.

  <bullet> Item 6, commercial crew rescue capabilities; NASA is 
        including crew rescue into the set of commercial crew 
        transportation human rating requirements. NASA will certify 
        commercial crew transportation providers prior to allowing NASA 
        or NASA sponsored astronauts to fly on any commercial crew 
        transportation system.

    Question 10. Under the 2012 budget request $310 million is taken 
from Exploration Technology Development program activity and moved to 
Space Technology, carried under the Aeronautics and Space Technology 
budget line, and under the control of the Chief Technologist. Please 
provide an explanation of the justification for this proposed 
reallocation of funds and how the Committee can be assured that the 
activities undertaken with those funds will remain guided by 
exploration systems development and mission support requirements if 
those funds are no longer under the supervision of the organization 
responsible for Exploration activities.
    Answer. As noted, NASA's FY 2012 budget request moves the majority 
of content and funding that had been included in the FY 2010 
Exploration Technology Development Program (ETDP) from the Exploration 
Systems Mission Directorate (ESMD) to the Space Technology (ST) theme 
managed by the Office of the Chief Technologist (OCT). This integration 
had been proposed in draft FY 2011 appropriations proposals offered in 
December 2010. NASA agreed with this concept as it would allow for 
synergy between the activities in Space Technology's Crosscutting Space 
Technology Development program and the existing efforts funded by ETDP, 
creating a pipeline for maturing both mission-specific and multipurpose 
technology.
    For traceability, Space Technology has identified these transferred 
exploration specific technologies under a new program called 
Exploration Technology Development (ETD). ETD funded activities will 
continue to focus on the long-range, critical technologies required to 
carry out future human exploration missions beyond low-Earth orbit and 
will reduce risk and life cycle cost of these missions. All future 
activities within this account will also have a human exploration-
specific technology demonstration focus. Activities funded through the 
ETD budget will continue to leverage the existing technical strength of 
the NASA workforce with at least 70 percent of funds allocated toward 
directed projects led by the NASA Centers. The ETD and Crosscutting 
Space Technology Development activities are distinguished by their 
customer focus, the balance between competed versus guided projects, 
and cost-share requirements.
    By integrating ETDP within Space Technology, the Agency's 
technology portfolio will be streamlined and strengthened within an 
organization focused on development and infusion of cutting edge 
technology. Integrating ETDP into OCT will eliminate the potential for 
overlap in future technology investments. With management of these 
investments in an organization focused on technology development, 
greater attention can be applied to meeting the Agency's beyond LEO 
technology development priorities.
    The ETD activities are critically focused on NASA's beyond LEO 
mission-specific Exploration priorities. These priorities have been set 
by ESMD through the HEFT and related planning activities. In FY 2012 
and beyond, ESMD will continue to provide prioritized requirements and 
remain the primary customer for all transferred ETD activities 
(primarily through the ongoing Human Architecture Team). OCT will 
manage its ETD activities based on these priorities. In addition, OCT 
will conduct regular reviews of the ETD projects in implementation. 
Human spaceflight personnel will be utilized in this review panel. This 
transfer allows ESMD to focus on Exploration vehicle development, but 
maintain control of the overall strategy, architecture and technology 
requirements for future beyond LEO human exploration plans, while 
allowing OCT to focus on performing the critical technology development 
and mission infusion activities.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                          William Gerstenmaier
    Question 1. What is the current status of efforts to establish the 
partnership between NASA and a non-governmental organization to manage 
ISS National Laboratory-allocated research capability?
    Answer. NASA released a Cooperative Agreement Notice (CAN) for an 
independent non-profit organization to manage the multidisciplinary 
research carried out by NASA's National Laboratory partners. This 
organization will: (1) act as a single entry point for non-NASA users 
to interface efficiently with the ISS; (2) assist researchers in 
developing experiments, meeting safety and integration rules, and 
acting as an ombudsman on behalf of researchers; (3) perform outreach 
to researchers and disseminate the results of ISS research activities; 
and (4) provide easily accessed communication materials with details 
about laboratory facilities, available research hardware, resource 
constraints, and more. On July 13, NASA selected the Center for the 
Advancement of Science in Space Inc. (CASIS) to develop and manage the 
U.S. portion of the International Space Station that will be operated 
as a national laboratory.

    Question 2. As you know, the underlying rationale for the 
Congressional designation of the U.S. Segment of the International 
Space Station as a National Laboratory was to ensure that investigators 
and researchers in a broad range of scientific disciplines would have 
assured access to the unique environment of microgravity to conduct 
experiments. That is also why P.L. 111-267 allocated no less than fifty 
percent of the U.S. research capacity to the control and use of the 
non-profit, non-government organization with which NASA is required to 
undertake a cooperative agreement for management of ISS research. 
Please describe how these requirements are being implemented--and that 
level of utilization protected--under the planned consolidation and 
reorganization of the Space Operations and Exploration Systems Mission 
Directorates?
    Answer. The planned consolidation and reorganization of the Space 
Operations and Explorations Mission Directorates will have no effect on 
the implementation of statutory requirements embodied in P.L. 111-267. 
NASA is in the process of establishing a dedicated division for ``Space 
Life and Physical Sciences and Applications'' within the new Human 
Exploration and Operations Directorate. This division will include the 
Human Research Program, Crew Health Systems, Fundamental Space Biology, 
Physical, and serve as the liaison within NASA for interactions with 
the non-profit ISS National Laboratory management organization once it 
is established under a cooperative agreement. NASA anticipates that 
positioning these diverse areas of research under a single organization 
will improve communications across disciplines and engender greater 
synergies across the life and physical sciences community.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                            Leland D. Melvin
    Question 1. Mr. Melvin please describe new initiatives or new 
approaches to NASA Education programs that you have begun to execute or 
plan to implement.
    Answer. In January 2011, President Barack Obama stated that, ``over 
the next 10 years, nearly half of all new jobs will require education 
that goes beyond a high school education. And yet, as many as a quarter 
of our students aren't even finishing high school. The quality of our 
math and science education lags behind many other nations. America has 
fallen to ninth in the proportion of young people with a college 
degree. And so the question is whether all of us 'as citizens and as 
parents' are willing to do what's necessary to give every child a 
chance to succeed.'' This speech echoes findings and calls-to-action by 
numerous committees, reports, professionals in education, and leaders 
in American industry. In response, the Department of Education has 
identified several strategies to improve science, technology, 
engineering and mathematics (STEM) education and ways in which Federal 
agencies can contribute to the Nation's STEM improvement efforts. NASA 
is a strong contributor to the national plan.
    Consistent with Section 202 of the America COMPETES Reauthorization 
Act of 2010, NASA works with professional organizations, academia, and 
state/local education providers to identify and address needs in STEM 
education. Quality professional development for STEM educators is a 
prevalent need. Through the education staff at NASA's Centers, NASA 
works cooperatively with states and school districts to identify 
content needs and opportunities, and with university partners to ensure 
that NASA investments will be effective in improving teaching practice. 
NASA also works through communities of practice to identify content 
areas and special events that supplement informal education programming 
offered by museums and science centers. NASA higher education efforts 
increasingly target community colleges, which generally serve a high 
proportion of minority students. NASA programs build student STEM 
ability, preparing students for study at a four-year institution. 
Competitive opportunities support initiatives like the President's 
``Race to the Top'' and the Department of Education's ``Star Project,'' 
which promote state-based education reform and identify replicable 
strategies for improving K-12 education.
    NASA's education programs aim to increase the number of students 
who are proficient in, choose to major in, and pursue careers in STEM 
fields. Improving STEM ability, increasing public scientific literacy, 
increasing the talent pool of future STEM workers, and developing the 
STEM skills of the future workforce are imperatives if the Nation is to 
remain globally competitive and sustain a strong economy. NASA actively 
works through mutually beneficial relationships with over 500 colleges 
and universities, hundreds of K-12 schools and districts, and over 400 
museums and science centers to provide education experiences, so that 
all students can learn deeply and think critically in STEM disciplines. 
NASA supports cutting-edge undergraduate student research that 
contributes to NASA missions while training the next generation of 
scientists, engineers, and innovators. NASA targets recruitment and 
retention of underserved and underrepresented students, including women 
and girls, Hispanics, and students with disabilities.
    NASA is committed to providing equal access to its education 
activities by providing any student with the opportunity to contribute 
to the future STEM workforce. NASA is responding by focusing its 
education investments on areas of greatest national need and ensuring 
that the Agency's education programs support national STEM priorities. 
With its wealth of science and technology content and its expansive 
network of education professionals, NASA is well equipped to address 
national needs such as meeting state requirements for educator 
professional development. NASA provides practical experience and skills 
development for those who will become the future workforce through 
internships, fellowships, and student research opportunities. NASA is 
especially qualified to attract students to pursue STEM study and 
careers. It also is able to engage these future workers through 
inspiring NASA missions, fostering collaborative relationships between 
students and the current workforce and offering students opportunities 
to work in ``out of this world'' facilities. Hands-on challenges with 
expert mentors generate increased interest in STEM study.
    NASA has engaged students and teachers in its engineering 
challenges and scientific discoveries since its inception. From school 
presentations to seeds flown in space, from filmstrips and posters to 
podcasts and virtual tours through the galaxies, NASA's education 
programs have fostered inquiry, built curiosity, and encouraged 
innovation. Generations of Americans have participated in NASA's STEM 
education programs, and thereby learned basic skills, discovered new 
career paths, and developed interests in emerging academic disciplines.
    In 2010, NASA chartered an Education Design Team (EDT) to develop a 
strategy to improve NASA's education offerings, assist in establishing 
goals, structures, processes, and evaluative techniques to implement 
new sustainable and innovative STEM education programs. EDT has 
completed its task, and its recommendations are reflected in the FY 
2012 education budget for NASA's Office of Education.
    The FY 2012 budget provides NASA with the resources necessary to 
continue this rich tradition in STEM education through support for the 
Nation's students and educators, the leveraging of cutting-edge 
education technologies, and partnerships with industry. The budget 
proposal will:

  <bullet> Increase NASA's impact on STEM education by further focusing 
        K-12 efforts on middle school pre-and in-service educator 
        professional development;

  <bullet> Increase emphasis on providing experiential opportunities 
        for students, internships, and scholarships for high school and 
        undergraduate students;

  <bullet> Emphasize evaluation and assessment, including external 
        independent evaluation, to ensure that investments are 
        providing desirable STEM impacts;

  <bullet> Engage strategic partners with common objectives and 
        complementary resources; and

  <bullet> Use NASA's unique missions, discoveries, and assets (e.g., 
        people, facilities, education infrastructures) to inspire 
        student achievement and educator teaching ability in STEM 
        fields.

    Question 2. What specific efforts is your organization--or NASA, 
generally--making to ensure increased and enhanced participation by 
NASA in interagency efforts to enhance the Nation's competitiveness and 
capabilities for expansion of academic efforts in Science, Engineering, 
Technology and Mathematics (STEM) disciplines, as authorized--and 
required--by the America COMPETES Act?
    Answer. NASA is actively engaged in collaborations with other 
Federal agencies to ensure the Agency's programs are supportive of 
national STEM priorities. The NASA Associate Administrator for 
Education represents the Agency on the National Science and Technology 
Council (NSTC) Committee on STEM Education (CoSTEM). It was established 
pursuant to the requirements of Sec. 101 of the America COMPETES 
Reauthorization Act of 2010. The NASA Office of Chief Scientist is also 
participating in the CoSTEM by providing the CoSTEM Executive 
Secretary, who works in close coordination with the Office of 
Education.
    The CoSTEM serves as part of the internal deliberative process of 
the NSTC and provides overall guidance and direction. The NSTC, a 
Cabinet-level council, is the principal means for the Administration to 
coordinate science and technology policies across the Federal 
Government. The purpose of the CoSTEM is to coordinate Federal programs 
and activities in support of STEM education. In accordance with the 
Act, the CoSTEM is reviewing STEM education activities and programs, 
and the respective assessments of each, throughout Federal agencies to 
ensure effectiveness; coordinating, with the Office of Management and 
Budget, STEM education activities and programs throughout Federal 
agencies; and will develop and implement through the participating 
agencies a 5-year STEM education strategic plan, to be updated every 5 
years.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                            Edward J. Weiler
    Question 1. Please elaborate on the impact to the Agency's Earth 
Science mission capabilities as a result of the loss of the Glory 
satellite. What is the status of the investigation into the proximate 
cause(s) of that launch or deployment failure? Are there plans to 
develop replacement vehicle or sensor capabilities on an alternative 
vehicle, and if so, in what time frame and at what cost?
    Answer. The Glory satellite was lost on March 4, 2011, due to a 
Taurus XL launch vehicle failure. The Glory satellite carried two 
instruments--the Total Irradiance Monitor (TIM) and the Aerosol 
Polarimetry Sensor (APS). TIM was designed to measure the amount of 
solar energy that enters the Earth's atmosphere while APS was designed 
to identify aerosol composition, scattering properties, and global 
distribution. Both aerosols and solar energy influence the planet's 
energy budget--the amount of energy entering and exiting Earth's 
atmosphere. An accurate measurement of these impacts is important to 
anticipate future changes to our climate. Given the loss of Glory, NASA 
must assess if and how to best collect these measurements going 
forward.
    The on-orbit ACRIMSat and SORCE missions continue to provide 
measurements of total solar irradiance. A next-generation solar 
irradiance instrument, the Total Solar Irradiance Sensor (TSIS), is in 
the implementation phase as collaboration between NOAA and NASA. Some 
limited aerosol measurements are being made by the on-orbit MODIS 
instruments on Terra and Aqua, the OMI instrument on Aura, the MISR 
instrument on Terra, and CALIPSO. The VIIRS instruments on NPP and 
planned for JPSS will have limited capacity for measuring global 
aerosol distributions, but will not measure the scattering properties 
that are key to determining the aerosol contributions to the Earth's 
energy balance. The PACE mission in the FY 2012 President's Budget for 
flight in 2020 will carry an aerosol instrument, hopefully as an 
international collaboration with CNES.
    NASA currently has no plans to refly a near-identical Glory 
mission. Owing to its use of the spacecraft bus from the cancelled 
Vegetation Canopy Lidar mission, which was designed and built more than 
a decade ago, it would neither be possible nor efficient to build a 
``carbon-copy'' Glory-2 mission today. NASA is, however, continuing to 
pursue the development and flight of the 14 Earth-observing missions 
identified in the FY 2012 President's budget request for flight between 
now and 2020 as well as the competitively selected Venture-class small 
satellite missions.
    NASA is assessing whether it would be scientifically valuable to 
fly a copy of the APS instrument in 3-4 years and what mission options 
are possible to fly such an instrument. NASA is currently conducting 
two studies to address possible options for, and the cost/schedule of, 
rapid development and flight of a copy of the aerosol polarimetry 
instrument. The first study focuses on the scientific justification for 
flying such an APS given the present state of scientific knowledge and 
the expected availability of supporting on-orbit missions. The second 
study focuses on the technical/cost/schedule feasibility and 
implementation of the smallest, lowest-cost mission approach that would 
meet the science objectives. The results of these studies will inform 
the Agency's go-forward plan for obtaining data on aerosol composition 
and scattering properties.
    Immediately following the Taurus XL launch failure, NASA 
established a Mishap Investigation Board (MIB) to investigate the 
unsuccessful launch. On March 9, 2011, NASA announced the selection of 
the members of the board. The MIB is scheduled to conclude its 
investigation no later than September 6, 2011.

    Question 2. Please provide an update on efforts to ensure timely 
and cost-effective completion and deployment of the James Webb Space 
Telescope within the context of the FY 2012 Budget Request and out-year 
projections? If funding offsets are required from within Directorate 
programs, what other programs or missions will be impacted, and with 
what results?
    Answer. Currently, we are developing a realistic cost and schedule 
baseline for the earliest possible launch date for the James Webb Space 
Telescope (JWST) given the FY 2011 and 2012 budget constraints. The 
funding constraints for this baseline scenario are the FY 2011 
President's budget request ($471 million in FY 2011) and the FY 2012 
President's budget request ($375 million in FY 2012), plus 
unconstrained budgets in out years. This effort required a detailed 
analysis of all the work that remains to be done including all hardware 
components as well as a revised integration and test program. This plan 
will undergo independent review within the Agency and by an outside 
team of experts to insure adequate budget and schedule. The JWST 
baseline will be completed this summer and its result will be part of 
the FY 2013 budget submission.
    Using these FY 2011 and FY 2012 funding levels, the project has 
developed a near-term schedule and milestones for FY 2011 and FY 2012 
that will be used to track performance and progress until the new 
baseline is approved. The JWST project continues to meet its FY 2011 
technical and programmatic milestones within cost and on schedule.
    NASA's detailed plans for JWST for the balance of FY 2011 are 
contained in the Operating Plan that was submitted to Congress in June. 
No decisions have been made on offsets at this time; these will be 
addressed in the FY 2013 budget submission.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                          Woodrow Whitlow, Jr.
    Question 1. How are you maintaining or planning to maintain 
critical infrastructure and workforce capabilities that will support 
the SLS and MPCV development efforts? What steps are needed to ensure 
those supporting elements are not lost in the transition from current 
systems to those follow-on systems?
    Answer. The transition from the Space Shuttle Program (SSP) had 
been an ongoing process for several years, and required extensive 
detailed planning for critical infrastructure and workforce 
capabilities requirements. NASA has worked to protect critical 
capabilities which, if allowed to degrade or lost entirely, could have 
significant impact on the Agency's ability to support future programs. 
Through the budget formulation process, the NASA Capabilities Forum has 
provided a mechanism to assess Agency capabilities and identify those 
that are required to support a variety of potential future 
architectures.
    NASA also recognizes the need to become leaner and more flexible in 
its deployment of civil service capabilities. Advanced Exploration 
Systems (AES) is an important element of this strategy. By utilizing 
civil service talent to begin development of future exploration 
capabilities, AES will strengthen the skills and knowledge of our 
workforce for future human space exploration.

    Question 2. What steps are being taken to ensure supporting 
infrastructure and capabilities are maintained or developed to support 
commercial crew systems development and facility and program 
integration, especially with respect to ISS operations and sustaining 
requirements?
    Answer. Assessments have been made of what will be required for 
long-term International Space Station (ISS) integration, operations, 
and future crew support capabilities for the period during which crew 
services will be provided by commercial crew contractors. Contractor-
specific infrastructure needed to provide the service is assumed to be 
established and maintained by the contractor under their services 
costs. This will enable contractors to develop the range of 
capabilities they need to support future non-NASA customers while also 
serving NASA customers.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                     NASA Associate Administrators
    Question 1. Please provide estimated impacts, at each NASA center, 
for the $298 million cross agency support reductions in the proposed 
long term House CR (H.R. 1). If these reductions were implemented at 
the beginning of a Fiscal Year rather than 6 months into it, as these 
are proposed to be, how would these estimates change?
    Answer. The FY 2011 Full-Year Continuing Appropriations Act (P.L. 
112-10), which was enacted on April 15, 2011, funds NASA Cross Agency 
Support (CAS) at the FY 2011 President's Request level. Prior to 
passage of P.L. 112-10, NASA leadership stated before Congress that the 
$298 million reduction to NASA's Cross-Agency budget (coming half-way 
through the Fiscal Year), proposed by H.R. 1, would have an operational 
impact to the Agency equivalent to the shuttering of two small NASA 
Centers. No NASA Centers were identified for such an action.
    A reduction of $298 million to CAS would have represented more than 
a 10 percent reduction to the account that funds the management, 
operations and maintenance of NASA's nine Centers, component facilities 
and Headquarters. Additionally, CAS funds Agency-wide management 
functions and conducts safety and reliability activities to assure NASA 
mission success. Further, had this provision been successfully enacted, 
the reductions would have occurred so late in the operating year that 
they would have resulted in thousands of lay-offs to on-site 
contractors, with 50 percent of NASA's mission support contractor 
workforce at risk. As the reduction was not included in enacted 
legislation, the Agency did not proceed to make specific determinations 
for implementing such direction; however, the contractor impact of a 
reduction at that level would equate to over 4,500 layoffs across all 
of NASA's Centers.
    If the reductions were implemented at the beginning of the Fiscal 
Year, the impacts still would be severe. The cuts would result in 
approximately 2,250 contractor layoffs. We still would have difficulty 
providing the capabilities necessary to support our Centers.

    Question 2. How much money has NASA spent since the passage of the 
NASA Authorization Act of 2010 (P.L. 111-267) that otherwise would not 
have been due to the prohibition on cancelling Constellation contracts 
in the FY 2010 Consolidated Appropriations Act (P.L. 111-117)?
    Answer. Providing a monetary estimate about how much funding NASA 
spent since the passage of the NASA Authorization Act of 2010 that 
otherwise would not have been due to the prohibition on cancelling 
Constellation contracts in the FY 2010 Consolidated Appropriations Act 
is not possible, largely because the Administration has not made final 
decisions with regard to the design and acquisition plans for the new 
Space Launch System (SLS), as well as support elements for both the SLS 
and the Multi-Purpose Crew Vehicle (MPCV). Therefore, NASA cannot 
specifically say, at this time, which Constellation elements will or 
will not feed forward into the new SLS and MPCV programs, and as such, 
we cannot accurately estimate how much money could have been saved if 
not for the funding restriction.
    We would like to note, however, that during this time period, NASA 
was making efforts to focus existing Constellation contracts on work 
that would likely feed forward to the SLS and MPCV programs--a fact 
that was recognized by the NASA Inspector General in a letter to 
Congress on February 2, 2011.

    Question 3. What steps is the Space Operations Mission Directorate 
taking to reduce the time required to develop and fly experiments to 
the International Space Station?
    Answer. The International Space Station (ISS) program has 
implemented the following steps to reduce the time required for science 
investigators to develop and fly experiments:

  <bullet> Utilizing a broad agency announcement, the ISS program has 
        selected qualified implementation partners that have experience 
        in the design, development and operation of space hardware, 
        thus reducing the science investigators' need to develop this 
        expertise and technology;

  <bullet> ISS provides available on-orbit science hardware, 
        facilities, analysis instruments and tools, reducing the need 
        for science investigators to design, build, and certify 
        hardware required to conduct their investigations;

  <bullet> ISS provides routine conditioned and unpressurized 
        transportation services to and from ISS, dedicated to science 
        cargo, at no cost to the science investigator. Once Commercial 
        Resupply Services (CRS) are available, science investigators 
        could have up to five flight opportunities per year to ISS, 
        which will minimize time impacts due to flight availability;

  <bullet> ISS provides dedicated on-orbit resources including crew 
        time, volume, power, data, imagery, service gases, and ambient 
        and conditioned storage of samples at no cost to the science 
        investigator. Once commercial crew transportation is available, 
        ISS plans to increase the USOS crew to 4 (total ISS crew of 7) 
        in order to maximize available crew time for research.

  <bullet> ISS has stratified the payload hardware verification and 
        certification process so that the hardware developers expend 
        the minimum amount of time to ensure their hardware is safe and 
        will operate effectively onboard the ISS.

    Question 4. Please provide a list of the aeronautics research at 
NASA that has the potential to reduce fuel consumption and generate 
savings for the airline industry.
    Answer. NASA's Aeronautics Research Mission Directorate is 
committed to research that promotes fuel efficiency and environmental 
compatibility while increasing or maintaining aircraft safety. Fuel 
currently represents the largest operating cost for U.S. airlines. Many 
of the aeronautics research activities currently being conducted by 
NASA have the potential, upon adoption, of reducing fuel consumption.
    NASA systems analysis indicates that new operational procedures 
currently in development within the Airspace Systems Program (ASP) have 
the potential, if fully adopted into the National Airspace System, to 
reduce fuel burn by 400 million gallons per year during landing and 
takeoff phases of flight and an additional 200 million gallons per year 
during the en route cruise phase of flight. These savings correspond to 
about 3 percent of the annual fuel burned by U.S. commercial airlines. 
ASP is also developing improvements in ground operations that have the 
potential to reduce fuel burn during airport taxi operations by 15 
million gallons per year, which would result in a reduction of 2 
million pounds of CO<INF>2 </INF>per year of harmful emissions in and 
around our largest airports. Some key areas of research within the ASP 
focus on developing new capabilities to:

  <bullet> Demonstrate near term application of Automatic Dependent 
        Surveillance-Broadcast (ADS-B) enabled technologies to enable 
        fuel and time efficient arrivals (new FY11 initiative);

  <bullet> Demonstrate near term application of ADS-B enabled 
        technologies to enable efficient surface operations to reduce 
        fuel, noise, and emissions (FY 2012 Presidents budget request);

  <bullet> Demonstrate Efficient Descent Advisor (EDA) technologies 
        with the FAA 3D-Path Arrival Management (3D-PAM) to enable 
        continuous descent approaches in congested airports for reduced 
        fuel consumption and reduced noise level during landing;

  <bullet> Demonstrate non-stop taxi surface operations to reduce fuel-
        consumption due to current stop-and-go throttling operations;

  <bullet> Optimize efficient arrivals, departures and surface 
        operations through fuel-saving integrated arrival/departure/
        surface time management, route modification and adaptive speed 
        control;

  <bullet> Maximize national airspace efficiency with new processes to 
        address demand/capacity imbalances from weather effects and 
        system wide uncertainties to reduce travel time, distance, and 
        delays which inherently reduce fuel consumption and emissions;

  <bullet> Enable safe, time and fuel efficient, en route flight with 
        varying weather while allowing for reduced distance between 
        aircraft to increase air-traffic volumes; and,

  <bullet> Reduce airborne and ground hold delays through enabling 
        increases to system capacity by bringing to bear available 
        resources and capacity to wherever demand is surging.

    The Fundamental Aeronautics Program (FAP) and Integrated Systems 
Research Program (ISRP) conduct complementary research aimed at 
reducing the fuel burn of aircraft. New concepts and technologies 
undergo early-stage development within FAP. Individual technologies 
which have matured are then evaluated at an aircraft system level in 
relevant environments (including flight test) within ISRP. Within these 
Programs, research is being conducted on technologies that will improve 
fuel efficiency for a variety of aircraft and have a direct effect on 
overall fuel consumption for the aircraft industry. Specific areas of 
research include:

  <bullet> New aircraft designs and configurations, including 
        rotorcraft and subsonic vehicles, that are more efficient;

  <bullet> Lightweight structural components, such as airframes, to 
        reduce subsonic aircraft operating empty weight;

  <bullet> Advanced fuel-efficient engine designs;

  <bullet> Ways to reduce subsonic aircraft drag, with minimal impact 
        on operating empty weight, for total aircraft energy reduction; 
        and,

  <bullet> Some advanced structural and propulsion-related material 
        research intended primarily for supersonic aircraft 
        applications will also benefit subsonic aircraft by helping to 
        reduce vehicle and propulsion system weight thereby reducing 
        fuel consumption.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                     NASA Associate Administrators
The promise of commercial space:
    Question 1. I have always been interested in innovative ways of 
financing infrastructure, including by leveraging private sector 
dollars and by helping to harness the competitive and entrepreneurial 
spirit that drives innovation in our private sector. I believe 
commercial spaceflight has the potential to save NASA a great deal of 
money by offering lower-cost options for missions that NASA currently 
must pay a lot of money for. Can you talk about the potential for 
savings NASA can achieve through partnerships with private-sector 
entrepreneurs, and describe how NASA can foster a business-friendly 
climate that will further encourage entrepreneurs?
    Answer. Through our current commercial cargo and crew public-
private partnership agreements, NASA is fostering an environment that 
harnesses the competitive and entrepreneurial spirit with U.S. emerging 
as well as established companies to develop and demonstrate new space 
transportation capabilities. With respect to financing infrastructure, 
we have seen innovative ways partners meet resource and infrastructure 
needs as they develop their space transportation systems.
    By supporting the development of systems and capabilities targeted 
toward providing commercial services, NASA has enabled providers to 
determine how best to meet the needs of their eventual customers. A 
combination of NASA seed money, facilities and technical expertise 
along with existing partner infrastructure and innovation has resulted 
in the beginning of a vibrant new commercial space transportation 
industry.
    NASA's commercial cargo development project (COTS) is an excellent 
example of the cost savings that can result from innovative public-
private partnerships. This cost savings is described in Appendix B of 
the recently released ``Commercial Market Assessment for Crew and Cargo 
Systems,'' which described an analysis performed by NASA showing the 
dramatic cost savings achieved in the development of the Falcon 9 
launch vehicle.
    NASA will continue to foster a business-friendly climate by 
partnering with industry to understand government and industry needs 
and enabling development of new systems and capabilities. The goal is 
to achieve reliable cost effective solutions that become available to 
NASA, other Government entities, and private sector customers. These 
partnerships hold the potential to open new markets in space, increase 
high technology jobs in the United States, as well as reduce 
development and operations costs compared with traditional NASA program 
practices.
Fixed-price and cost-plus contracting:
    Question 2. Can you describe NASA's position on fixed-price versus 
cost-plus contracting? As I understand it, one of the exciting features 
of the Commercial Crew Program, a feature that saves money for the 
taxpayer, is the use of fixed-price agreements. Can you describe some 
of the advantages of fixed-price commercial procurement?
    Answer. NASA's approach to contract type selection is to match the 
unique circumstances of the procurement with the appropriate 
acquisition mechanism. Given the nature of NASA's mission, many of our 
procurements are for complicated research and development efforts that 
involve complex requirements where the likelihood of changes makes it 
difficult to estimate performance costs in advance. Consequently, due 
to these complex requirements, significant technical risk, and cost 
uncertainty, a cost type contract is appropriate in such cases. 
Typically, as a program matures the risk shifts and contract types 
should also shift toward firm-fixed price contracts which are more 
advantageous to the government since they shift a substantial portion 
of the cost risk to the contractor, thus heavily incentivizing the 
contractor to control costs.
    NASA's Procurement Tenets were published on August 1, 2008. One of 
the tenets is ``Reducing Cost and Cost Risk for Procurements,'' which 
states in part that cost risk for each requirement must be properly 
allocated between NASA and industry. Commercial item procurements 
result in fixed-price contracts and thus shift a substantial portion of 
the cost risk onto the contractor. For example, NASA pursued a 
commercial contracting model for the ISS Commercial Resupply Services 
(CRS) contracts. These competitive, firm-fixed-price, multiple award 
ID/IQ contracts will provide commercial cargo resupply services to and 
from the International Space Station.
    The acquisition strategy for the Commercial Crew Program (CCP) has 
not been finalized at this time. Careful consideration is being given 
to the appropriate acquisition mechanism for this important program and 
several reviews are scheduled in the next two months to address the 
approach for our procurement strategy. NASA is also incorporating 
lessons learned from CRS and other programs. We recognize the 
advantages of commercial and other types of fixed-price contracts, 
where appropriate, and will fully consider their use for CCP.
International Competitiveness on the Launch Market:

    Question 3. As you know, thirty years ago, the United States has a 
commanding lead in the international launch market--we launched a 
number of payloads for other countries. But today, we've lost most of 
our market share to China, India, Russia, and Europe. The Commercial 
Crew Program would invest new resources in the commercial spaceflight 
sector, which would improve America's competitiveness in the global 
launch market. How do you think NASA could best work with commercial 
providers, not just to launch people into space, but also to recapture 
our lead in the international launch market?
    Answer. NASA can best work with commercial partners to help 
recapture our lead in the international launch market by partnering 
with industry to understand Government and industry needs and enabling 
development of new systems and capabilities with the goal of achieving 
safe, reliable, and cost effective solutions that are available to 
NASA, other Government entities, and private sector customers. Key 
factors for customers in the launch market are reliability and 
affordability.

    Question 3a. How essential is the Commercial Crew Program to 
ensuring the future of the International Space Station? Also, what is 
the program's importance to how we get Americans into space and to the 
International Space Station with the retirement of the space shuttle?
    Answer. The Commercial Crew Program is essential to ensuring the 
future of the International Space Station (ISS), and NASA plans to 
facilitate the development of a U.S. commercial crew space 
transportation capability with the goal of achieving safe, reliable and 
cost effective access to and from Low Earth Orbit (LEO) and the ISS 
after the retirement of the Space Shuttle. Once the commercial crew 
transportation capability is matured and available to customers, NASA 
plans to purchase transportation services to meet its ISS crew rotation 
and emergency return obligations. The Agency anticipates the 
availability of these systems by the middle of the decade, contingent 
upon the availability of appropriated funding.
    In the meantime, NASA intends to continue to purchase seats aboard 
the Russian Soyuz spacecraft until demonstrated commercial crew 
transportation services and rescue services are available in order to 
maintain a U.S. presence on the ISS and to satisfy U.S. obligations to 
its non-Russian ISS partners. Once U.S. commercial transportation 
services become available, NASA plans to purchase 8 commercial crew 
seats per year (4 seats twice a year) in order maximize ISS 
utilization. The Agency plans to have a period of time where crew 
transportation and rescue services provided by Russian and U.S. 
commercial vehicles overlap to ensure no gap in services. The current 
exception to the Iran, North Korea and Syria Non-Proliferation Act 
(INKSNA) for extraordinary payments to Russia for the International 
Space Station (ISS) allows the Agency to purchase or barter for Russian 
seats and other services to July 1, 2016.
    It is important that the Agency look to commercial providers to 
sustain the ISS so that NASA can focus its efforts on developing 
systems designed to carry astronauts on missions of exploration beyond 
LEO. This will also have the effect of encouraging the development of 
crew transportation services that could be purchased by other users, as 
well.
STEM Education and Commercial Space:
    Question 4. As you are well aware, the commercial spaceflight 
sector has been attracting substantial attention from the media and the 
public. A few weeks, ago there was a major piece in the New York Times 
with the title ``Space Tourism May Mean One Giant Leap for 
Researchers,'' talking about how scientists and educators can benefit 
from low-cost commercial spaceflight. What do you see as the ability 
for commercial spaceflight providers to inspire young people to pursue 
careers in science, technology, engineering, and math (STEM) careers? 
As you know, many of our young people are captivated by the idea of 
being able to travel to space. How can NASA tap this energy and work 
with the commercial spaceflight sector to keep exciting students?
    Answer. NASA has a rich history of providing exciting opportunities 
for students to pursue payload and flight project opportunities 
including historically successful projects such as the Reduced Gravity 
Education Flight Program, and more recent opportunities such as the 
High Altitude Student Platform (HASP), BalloonSat High ALtitude Flight 
(BHALF) competition, the University Student Launch Initiative (USLI) 
competition, High Schools United with NASA to Create Hardware (HUNCH) 
and the CubeSat Launch Initiative.
    Per the requirements of the America Competes Reauthorization Act of 
2010 (PL 111-358; Sec 205), NASA will continue to study and assess the 
potential impacts on science, technology, engineering, and mathematics 
(STEM) education of a program that would facilitate the development of 
scientific and educational payloads involving United States students 
and educators and the flights of those payloads on commercially 
available orbital platforms, when available and operational, with the 
goal of providing frequent and regular payload launches.
    The recent NASA-chartered Education Design Team (EDT) report 
recommended that the NASA Education program place increasing emphasis 
on providing experiential opportunities for students, internships, and 
scholarships for high school and undergraduate students; and engage 
strategic partners with common objectives and complementary resources.
    NASA has been given Congressional direction to pursue activities 
through the International Space Station (ISS) National Laboratory 
Education (NLE) project which leverage the resources of entities 
external to NASA, including commercial companies, academic 
institutions, not-for-profit organizations and other U.S. Government 
agencies. Collaborative educational activities directly partnered with, 
or in conjunction with, the ISS Program International Partner space 
agencies are included in the expansion of ISS educational activities.
    Under the ISS National Lab and ISS NLE concept, commercial payloads 
such as the Commercial Generic Bioprocessing Apparatus (CGBA) Science 
Inserts, the Synchronized Position Hold Engage and Reorient 
Experimental Satellite (SPHERES), and Space Dynamically Responding 
Ultrasonic Matrix System (Space-DRUMS) are poised for additional 
partnering opportunities and expansion of their educational activities. 
Some of these payloads will expand their educational scope to 
incorporate content applicable in the both the Kindergarten through 
12th grades (K-12) as well as at the University level. Activities to 
include international student participation as well as students from 
traditionally underrepresented and underserved institutions will also 
be emphasized and considered part of an expansion opportunity.
    Commensurate with the NLE goals, the NanoRacks ISS National Lab 
payload (also known as CubeLab), offers flight opportunities for K-12 
schools and Universities to conduct experiments of their own design 
within the NanoRacks facility. The NanoRacks hardware is developed by 
NanoRacks LLC in partnership with Kentucky Space, an ambitious non-
profit enterprise focused on R&D, educational and small entrepreneurial 
and commercial space solutions involving several Universities in the 
state of Kentucky.
    The Flight Opportunities program, managed by the Office of the 
Chief Technologist, helps foster the development of the commercial 
reusable suborbital transportation industry, an important step in the 
longer-term path that envisions suborbital reusable launch vehicles 
evolving to provide the Nation with much lower-cost, more frequent, and 
more reliable access to orbital space. The Flight Opportunities program 
will competitively secure commercial suborbital flight services and 
extend the opportunity for flights through a competitive process. By 
reducing the cost of suborbital flights, researchers and students will 
have increased access to testing payloads in a reduced gravity 
environment. The program has already provided contracts to Armadillo 
Aerospace and Masten Space Systems to provide developmental test 
flights. One of these vendors will provide flights for the Excelsior 
STEM mission, a commercial unmanned suborbital mission sponsored by 
Teachers in Space and scheduled to fly in 2011. Experiment kits for the 
Excelsior STEM mission will be assembled by teachers at a Suborbital 
Flight Experiment Workshop to be held August 1-5, 2011 at the NASA 
Dryden Flight Research Center's AERO Institute in Palmdale, California. 
NASA hopes to make more opportunities available as more commercial 
suborbital flights are scheduled.
                                 ______
                                 
    Response to Written Question Submitted by Hon. John Boozman to 
                            Douglas R. Cooke
    Question. As you know, the 2010 NASA Authorization Act requires 
NASA to use innovative and non-traditional costing, schedule and 
procurement strategies in formulating its plans for implementation of 
the required developments of the Space Launch System (SLS) and the 
Multi-Purpose Crew Vehicle (MPCV). This was done to ensure that NASA 
could implement and expedite development activities for those systems 
in an affordable and sustainable manner within a limited resources 
environment. Can you describe what innovative or alternative approaches 
have been considered and planned for implementation in the SLS and MPCV 
development activities, and how they contribute to the viability, 
affordability and sustainability of those vehicles?
    Answer. Industry discussions with prime and sub-contractors, and 
review of data from the heavy lift Broad Agency Announcement (BAA) 
study contracts showed that large cost reductions can be realized 
through innovative management approaches and contract vehicles that 
give clear requirements and allow the contractor to find and deliver 
solutions using industry standards and processes Both SLS and MPCV are 
actively challenging the heritage cost structure and redefining the 
Programs to become more entrepreneurial/affordable. For example, the 
MPCV Program has met with the Orion prime and all of its major sub-
contractors to discuss cost/schedule drivers and common themes for 
affordability. During those discussions, the team identified and 
adopted many processes and values such as implementing a development 
strategy that adopts ``learn early and inexpensively'' principles; 
right-sizing reporting requirements, streamlining joint decision making 
processes, employing an incremental (metered) development approach 
including proposed early flight tests; streamlined facility approaches 
for integrated testing, and distributed and proto-flight qualification. 
Another major affordability approach being implemented is a change in 
organizational processes and values to shift the focus more onto 
adaptability, affordability and speed. This will be accomplished by 
NASA insight/oversight reform--deploying a smaller/flatter 
organization, streamlined deliverables and decision processes, and 
adopting vertical integration in key development, management and 
manufacturing areas.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Boozman to 
                          William Gerstenmaier
    Question 1. ISS research is about to move into full swing. Can you 
please describe how research on the ISS has grown to date and indicate 
some of the most important discoveries which impact human on Earth?
    Answer. The International Space Station (ISS) is now fully 
assembled, and includes three major international science laboratories: 
the U.S. Destiny, European Columbus, and Japanese Kibo labs. During 
Expeditions 0-24 (from September 2000 to October 2010), 1,149 
investigations were conducted aboard Station (including 454 completed 
investigations, 734 International Partner investigations, and 25 
National Laboratory pathfinder investigations (NOTE: data as of January 
20, 2011). This work involved more than 1,600 scientists and has 
resulted in more than 310 scientific publications (international count 
ongoing). In FY 2010 alone, astronauts aboard ISS conducted over 250 
Station-wide research experiments, including 150 U.S. experiments, 
supporting the work of over 400 scientists world-wide.
    In addition to conducting research in support of future human 
missions into deep space, astronauts aboard the ISS carry out 
experiments anticipated to have terrestrial applications:

  <bullet> ISS research has shown that bacteria can become more 
        virulent in microgravity (i.e., more aggressive in causing 
        disease). In several cases, scientists have successfully 
        identified the genes responsible for this increased virulence 
        and are now developing vaccine candidates. AstroGenetix, Inc. 
        has funded their own follow-on studies on ISS and is now 
        preparing to submit Investigational New Drug applications to 
        the Food and Drug Administration for the treatment of both 
        salmonella-induced food poisoning and methicillin-resistant 
        Staphaureus (MRSA).

  <bullet> Microcapsules are tiny micro-balloons used in cancer 
        treatment to deliver anti-cancer drugs directly to a tumor 
        site. Microcapsules with improved cancer treatment properties 
        developed on the ISS were reproduced on Earth and were 
        successful in targeting delivery of anti-cancer drugs to 
        successfully shrink tumors in ground tests. A device to produce 
        similar capsules on Earth has now been patented, and clinical 
        trials of the drug delivery method are planned at M.D. Anderson 
        Cancer Center and the Mayo Clinic.

  <bullet> A Japanese scientist crystallized the HQL-79 protein (human 
        prostaglandin D2 synthase inhibitor protein) on the ISS, 
        producing an improved structure that identified the location of 
        critical hydrogen bonds that were not previously known. This 
        allowed drug design for a candidate treatment to inhibit the 
        progression of Duchenne muscular dystrophy. Continuing work is 
        looking at other proteins and viruses.

  <bullet> Numerous plant growth experiments have investigated both the 
        effects of microgravity, as well as the capability for growing 
        regenerable food supplies for crew. Technology developed for a 
        greenhouse flown on the ISS is now widely used on Earth, 
        killing 98 percent of airborne pathogens (including Anthrax) 
        for food preservation, doctors' offices, homes, and businesses.

    Research into areas such as biotechnology, bioengineering, 
medicine, and therapeutic treatment will be enabled by the National 
Laboratory function of the Station. NASA has five Memoranda of 
Understanding (MOUs) with other U.S. government agencies, and nine 
agreements with non-government organizations to conduct research aboard 
the ISS. NASA intends to continue to expand the community of National 
Laboratory users of the ISS. In support of this effort, on February 14, 
NASA released a Cooperative Agreement Notice (CAN) for an independent 
non-profit organization to manage the multidisciplinary research 
carried out by NASA's National Laboratory partners. This organization 
will: (1) act as a single entry point for non-NASA users to interface 
efficiently with the ISS; (2) assist researchers in developing 
experiments, meeting safety and integration rules, and acting as an 
ombudsman on behalf of researchers; (3) perform outreach to researchers 
and disseminate the results of ISS research activities; and (4) provide 
easily accessed communication materials with details about laboratory 
facilities, available research hardware, resource constraints, and 
more. On July 13, NASA selected the Center for the Advancement of 
Science in Space Inc. (CASIS) to develop and manage the U.S. portion of 
the International Space Station that will be operated as a national 
laboratory.

    Question 2. What steps are being taken to ensure the availability 
of up mass and down mass to private companies or commercial entities to 
enable and further expand ISS utilization?
    Answer. The ISS has transitioned from the construction era to an 
operations and research era, with a six-person permanent crew, three 
major science labs, and an operational lifetime through at least 2020. 
The ISS represents a unique research capability, aboard which NASA, 
other Government agencies, commercial entities, and partner nations can 
conduct a wide variety of research in biology, chemistry, physics and 
engineering fields. NASA anticipates that this research will support 
future human missions into deep space, and have terrestrial 
applications.
    In order to provide cargo transportation to and from ISS--for the 
Agency and for users of the Station in its capacity as a National 
Laboratory--NASA will depend on U.S. industry to provide commercial 
resupply services (CRS) following the retirement of the Space Shuttle. 
On December 23, 2008, NASA awarded CRS contracts to Orbital Sciences 
Corporation (OSC) and SpaceX for the delivery of cargo to the ISS after 
the retirement of the Shuttle. The CRS contractor will provide an end-
to end service to deliver, and return or dispose of ISS cargo. NASA 
anticipates that both providers will have their systems operational in 
2012.
    NASA ordered 12 CRS flights valued at $1.59 billion from SpaceX.

  <bullet> SpaceX will provide pressurized and unpressurized upmass and 
        return services.

  <bullet> SpaceX currently has currently completed 14 funding 
        milestones for the four CRS missions in process. In addition, 
        one more CRS mission may be turned on if progress continues. 
        Finally, two milestones in support of COTS demonstration cargo 
        have been paid.

  <bullet> The first SpaceX CRS flight is currently scheduled for late 
        January 2012, and the company is currently slated to fly three 
        CRS missions each Fiscal Year from 2012 through 2015.

    NASA ordered eight CRS flights valued at $1.88 billion from OSC.

  <bullet> OSC will provide pressurized upmass and disposal services.

  <bullet> OSC has currently completed 11 funding milestones for three 
        CRS missions. Finally, 2 milestones in support of COTS 
        demonstration cargo have been paid.

  <bullet> The first OSC CRS flight is currently scheduled for the end 
        of the first quarter of calendar year 2012, and the company is 
        currently slated to fly two CRS missions each Fiscal Year from 
        2012 through 2015.

    These commercial services are planned to help support U.S. 
operations and utilization of the ISS to meet NASA mission objectives, 
NASA obligations for international utilization cargo under the ISS 
Memoranda of Understanding (MOUs), and the needs of other civil and 
commercial users of the Space Station. Additional proposed funding for 
cargo to support U.S. National Laboratory users was included in the 
President's FY 2012 budget request.
                                 ______
                                 
    Response to Written Question Submitted by Hon. John Boozman to 
                            Leland D. Melvin
    Question. The Arkansas Space Grant Consortium has participated in 
NASA's Experimental Program to Stimulate Competitive Research (EPSCoR) 
for 10 years. What kind of impacts can they expect from the President's 
FY 2012 Budget Request?
    Answer. The President's budget request for FY 2012 reflects the 
need to develop a balanced education portfolio for the Agency that 
supports its efforts in higher education, K-12 student and teacher 
programs, and informal education.
    NASA anticipates offering a competition in FY 2012 for EPSCoR 
Research Awards and plans to continue the opportunity for states to 
participate in the Research Infrastructure Development component of 
NASA EPSCoR. Arkansas NASA EPSCoR will be eligible to participate in 
both of those opportunities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Boozman to 
                            Dr. Jaiwon Shin
    Question 1. With your essentially flat budget, how are you further 
increasing investments into new materials, composite structures, and 
structural analysis tools which have been showing benefits to the 
aviation and aerospace industries?
    Answer. NASA currently conducts research on materials, composite 
structures, and structural analysis within both the Fundamental 
Aeronautics Program (FAP) and the Integrated Systems Research Program 
(ISRP) within Aeronautics Research. New concepts and technologies 
undergo early-stage development within FAP. Individual technologies 
which have matured are then evaluated at an aircraft system level in 
relevant environments (including flight test) within ISRP.
    Recognizing and responding to a growing use of new materials and 
composite structures, beginning in FY 2012, NASA will be increasing the 
investment in new materials, composite structures and structural 
analysis tools. NASA research will focus on the development of new 
Ceramic Matrix Composites (CMC) materials with increased temperature 
capabilities and models to understand them. Additionally, composites 
structural analysis capabilities will be improved and expanded with the 
creation of new tools to support the design of advanced airframes 
(including those that have come from the recent advanced aircraft 
concepts studies). Examples of improved capabilities will include 
analysis of multifunctional structures and science based analysis of 
safety factors. Ultimately this may lead to safer and lighter 
structures with improved damage tolerance characteristics and a 
reduction in testing time.
    In a related area, NASA will also be expanding research into the 
lightning effects, sensors, and related damage on composite materials. 
Adequate damage models for the effects of lightning strikes on 
composites do not currently exist. Further, existing sensor and 
mitigation methods are low maturity and/or heavy resulting in weight 
penalties on aircraft. The expanded research activity would accelerate 
the development of standardized test procedures from FY 2013 to FY 2012 
and demonstrate multifunctional sensors that protect and diagnose 
composites to meet FAA requirements in FY 2013. At the same time, 
funding was reduced for lower priorities, including hypersonics.

    Question 2. What other strategic investments are you making? In 
what areas of research or infrastructure and how do you expect these 
investments to benefits NASA and the United States?
    Answer. NASA Aeronautics fully supports the National Aeronautics 
Research and Development Policy and Plan, in which strategic 
investments by the U.S. government are identified, in order to ensure 
our technological leadership in the aeronautics enterprise is 
maintained and strengthened. Investments being made by NASA Aeronautics 
cover areas including mobility through the air in order to best support 
the realization of the Next Generation Air Transportation System 
(NextGen), safety of flight, air vehicle and air traffic operations, 
energy efficiency, and minimizing the effect of aviation on the 
environment. With regards to infrastructure, we continue to support the 
ground testing and experimental flight research capabilities of the 
Agency and the Nation through strategic management of assets as wind 
tunnels, engine test cells, materials and structures laboratories and a 
variety of subsonic and supersonic aircraft. With the FY 2011 
appropriation, we have started new efforts in several areas, including 
providing technology-based solutions to ease the integration of 
unmanned aircraft systems into the national air space and in the 
development of new approaches for verifying and validating the proper 
function and operation of increasingly complex air vehicles and air 
traffic management systems.
    In FY 2012, NASA is focusing its efforts on areas that directly 
support U.S. strategies for realizing safer and more efficient flight. 
These include increased research into efficient and safe airport 
surface operations. Technologies will be integrated from the current 
NASA portfolio to further advance greater utilization of Automatic 
Dependent Surveillance--Broadcast (ADS-B) application technologies 
providing optimization of airport surface movements with precise 
scheduling to reduce surface and en-route traffic delays and enhance 
safety. Research into high altitude ice crystal effects on aircraft 
engines will be increased to improve the probability that NASA's 
capability will support the Federal Aviation Administration's new rule-
making and thus increase aviation safety for the community in a timely 
manner. Alternative fuels research will be increased to help advance 
our understanding of the emissions characteristics of these new fuels 
(including biofuels) as their use in aircraft increases, which is a key 
factor in substantially reducing the impact of aviation on the 
environment--specifically reducing the gaseous and particulate 
emissions of aircraft. Also beginning in FY 2012, NASA will be 
increasing the investment in new materials, composite structures and 
structural analysis tools. The primary focus of this effort will be in 
the development of new Ceramic Matrix Composites (CMC) materials with 
increased temperature capabilities and models to understand them 
Additional research will be conducted into the effects of lightning 
strikes on composite materials.
    This research will accelerate development of standardized test 
procedures to support development of sensor concepts, advanced models, 
and protection methods. NASA Aeronautics Research has a long history of 
directly benefiting the Agency, as our in-house aeronautical sciences 
expertise is brought to bear on agency efforts ranging from the design 
of launch vehicle system to the development of materials that allow 
safe atmospheric entry/re-entry of both manned and unmanned capsules 
and science mission landers. More so though, the taxpayer investment 
through NASA in aeronautics research primarily benefits the U.S. 
economy and the general public. The strategic investment that we are 
making in FY 2012 will ensure that the overall benefits to the U.S. 
economy that are realized through safe and efficient flight operations 
continue to be realized into the future. The ultimate benefit of NASA 
developed knowledge and technologies is realized when U.S. industry 
develops superior products aided by NASA research results and 
collaboration with NASA in a fiercely competitive global market, which 
will not only maintain but advance U.S. aviation industry's pre-
eminence in an increasingly global enterprise.
                                 ______
                                 
             NASA Administrator Selects Orion-based Design 
                       for MPCV Development Phase
    NASA has reached an important milestone in defining the next 
transportation system that will carry humans into deep space in 
accordance with the NASA Authorization Act of 2010, the FY 2011 Full-
Year Continuing Appropriations Act and Administration policy. While 
NASA is down-selecting and further focusing options for developing the 
heavy-lift Space Launch System (SLS) within the Agency, NASA has 
reached an important milestone with regard to our path forward on the 
Multi-Purpose Crew Vehicle (MPCV). After careful analysis and very 
thoughtful deliberations by a senior management team, Administrator 
Bolden has decided to accept the Orion-based reference vehicle design, 
first outlined in NASA's January 2011 report to Congress, as the 
Agency's MPCV.
    As part of his decision process, the Administrator determined that 
the Orion Crew Exploration Vehicle was already being built to meet the 
requirements of a deep-space vehicle--the current design is sound, and 
testing has proven the vehicle to be the best option for this phase of 
exploration efforts beyond low-Earth orbit (LEO). Additionally, the 
Administrator determined that the Agency's current Orion contractual 
partnership with Lockheed Martin Corporation maps well to the scope of 
the MPCV requirements outlined in the NASA Authorization Act of 2010 
and, therefore, the current contract will be used at least for the 
development phase of the MPCV.
    Moving forward, work on the MPCV will focus only on the deep-space 
design. While the MPCV could be called upon to service the 
International Space Station (ISS)--a backup requirement established by 
the NASA Authorization Act of 2010--it should be well understood that 
utilizing the MPCV would be a very inefficient and costly use of the 
MPCV deep-space capability. NASA is confident in the ability of our 
commercial partners to provide all currently foreseen support for the 
ISS. Therefore, there is no intention to conduct routine LEO missions 
with the MPCV.
    It is important to point out that the Administrator's decision 
regarding MPCV does not reflect a ``business as usual'' mentality for 
the Agency. Over the last year, the NASA/Lockheed Martin team has shown 
exceptional creativity in finding ways to keep costs down by 
implementing new management techniques, technical solutions and 
innovation within the Orion Project. Examples include implementation of 
a new oversight model to ensure the most efficient use of NASA and 
contractor workforce and applying technology such as composite 
materials, friction stir welding and advanced avionics networks to 
enhance performance as well as affordability . . . and that's just the 
beginning. These innovations have allowed the Orion team to continue 
technical progress within reduced budget estimates.
    In the coming weeks, NASA will be making further decisions with 
regard to transportation architecture. In the meantime, NASA is 
refining the SLS concept and defining strategy alternatives based on 
detailed Government analysis and completed input from industry through 
Broad Agency Announcement study contracts. Additionally, the MPCV team 
is focusing on further development of the Ground Test Article, other 
development design and analysis, as well as coming up with an 
integrated MPCV/SLS plan that will be affordable, sustainable and 
realistic. Due diligence will ensure the best value for the taxpayer 
with respect to cost, risk, schedule, performance and impacts to 
critical NASA and industrial skills and capabilities.
    Further details about NASA's analysis and decisions regarding SLS 
and MPCV and their path forward will be provided to Congress in a 
follow-on report in the late spring/summer timeframe. But even when 
that report is submitted to Congress, work will remain ahead for the 
Agency, particularly as we finalize development plans and acquisition 
decisions per normal Agency processes--decisions that must remain 
consistent with NASA's Strategic Plan and Agency commitments. For 
example, NASA will need to hold a Procurement Strategy Meeting to 
approve the specific details for each individual procurement action.
    In conclusion, NASA remains committed to meeting the goals and 
requirements of the NASA Authorization Act of 2010, and we look forward 
to working with Members of Congress as we finalize our plans for 
achieving human spaceflight exploration of multiple destinations in our 
solar system.

                                  <all>

</pre></body></html>
